<html>
<title> - [H.A.S.C. No. 111-80]BEYOND SERVICE CORE COMPETENCY: ARE OUR JUNIOR OFFICERS PREPARED FOR TODAY'S SECURITY ENVIRONMENT?</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]





                         [H.A.S.C. No. 111-80]

                    BEYOND SERVICE CORE COMPETENCY:

                    ARE OUR JUNIOR OFFICERS PREPARED

                   FOR TODAY'S SECURITY ENVIRONMENT?

                               __________

                                HEARING

                               BEFORE THE

               OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             JULY 15, 2009

                                     

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






                  U.S. GOVERNMENT PRINTING OFFICE
53-209                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







               OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

                     VIC SNYDER, Arkansas, Chairman
JOHN SPRATT, South Carolina          ROB WITTMAN, Virginia
LORETTA SANCHEZ, California          WALTER B. JONES, North Carolina
SUSAN A. DAVIS, California           MIKE ROGERS, Alabama
JIM COOPER, Tennessee                TRENT FRANKS, Arizona
JOE SESTAK, Pennsylvania             CATHY McMORRIS RODGERS, Washington
GLENN NYE, Virginia                  DOUG LAMBORN, Colorado
CHELLIE PINGREE, Maine               TODD RUSSELL PLATTS, Pennsylvania
                 Anne Miles, Professional Staff Member
                Thomas Hawley, Professional Staff Member
                      Trey Howard, Staff Assistant











                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2009

                                                                   Page

Hearing:

Wednesday, July 15, 2009, Beyond Service Core Competency: Are Our 
  Junior Officers Prepared for Today's Security Environment?.....     1

Appendix:

Wednesday, July 15, 2009.........................................    37
                              ----------                              

                        WEDNESDAY, JULY 15, 2009
 BEYOND SERVICE CORE COMPETENCY: ARE OUR JUNIOR OFFICERS PREPARED FOR 
                     TODAY'S SECURITY ENVIRONMENT?
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Snyder, Hon. Vic, a Representative from Arkansas, Chairman, 
  Oversight and Investigations Subcommittee......................     1
Wittman, Hon. Rob, a Representative from Virginia, Ranking 
  Member, Oversight and Investigations Subcommittee..............    12

                               WITNESSES

Beaudreault, Col. Brian D., USMC, Director, U.S. Marine Corps 
  Expeditionary Warfare School...................................    10
Born, Brig. Gen. Dana H., USAF, Dean of the Faculty, U.S. Air 
  Force Academy..................................................     2
Finnegan, Brig. Gen. Patrick, USA, Dean of the Academic Board, 
  U.S. Military Academy..........................................     4
Klunder, Capt. Matthew L., USN, Commandant of Midshipmen, U.S. 
  Naval Academy..................................................     6
Tanous, Col. Steve, USAF, Commandant, U.S. Air Force Squadron 
  Officer College................................................     8

                                APPENDIX

Prepared Statements:

    Beaudreault, Col. Brian D....................................    84
    Born, Brig. Gen. Dana H......................................    46
    Finnegan, Brig. Gen. Patrick.................................    56
    Klunder, Capt. Matthew L.....................................    63
    Snyder, Hon. Vic.............................................    41
    Tanous, Col. Steve...........................................    75
    Wittman, Hon. Rob............................................    43

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Dr. Snyder...................................................   105
 
BEYOND SERVICE CORE COMPETENCY: ARE OUR JUNIOR OFFICERS PREPARED FOR 
                     TODAY'S SECURITY ENVIRONMENT?

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                 Oversight and Investigations Subcommittee,
                          Washington, DC, Wednesday, July 15, 2009.
    The subcommittee met, pursuant to call, at 2:05 p.m., in 
room 2212, Rayburn House Office Building, Hon. Vic Snyder 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. VIC SNYDER, A REPRESENTATIVE FROM 
 ARKANSAS, CHAIRMAN, OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

    Dr. Snyder. Hearing will come to order.
    Mr. Wittman was just finishing a speech on the floor of the 
House and should be with us momentarily as we go ahead and 
start.
    Good afternoon. Welcome to the fourth in a series of 
hearings on officer in-residence Professional Military 
Education, known as PME. We have already heard at this 
subcommittee from the senior-level and intermediate-level 
schools. Now it is time for the primary-level schools--the 
Army, Navy, and Air Force academies.
    The Skelton Panel 20 years ago recognized that the early 
part of an officer's career focuses on the tactical realm and 
what the services call core competencies, meaning the skill-
sets required by a particular warfare specialty. However, it is 
increasingly apparent, that officer is required to operate in 
joint interagency, intergovernmental and multinational 
environments earlier in their careers.
    Are officers ready for this new operational reality? What 
knowledge is truly necessary? At what level should we consider 
these skills as part of and not separate from core 
competencies? Do we need to redefine service core competencies 
according to the new national security environment?
    And we are also interested in the other themes of our 
earlier hearings relative to this developmental level, 
foundations for strategy, particularly through the study of 
history, language skills and cultural competency, and hybrid 
warfare.
    [The prepared statement of Dr. Snyder can be found in the 
Appendix on page 41.]
    Dr. Snyder. When Mr. Wittman arrives, we will give him a 
chance to make any comments he wants to make. Our witnesses 
today are Brigadier General Dana Born, Dean of the Faculty of 
the U.S. Air Force Academy, Brigadier General Patrick Finnegan, 
Dean of the Academic Board, U.S. Military Academy, Rear Admiral 
(Select) Matthew--is it Klunder?
    Captain Klunder. Yes, sir, Mr. Chairman.
    Dr. Snyder. Klunder, Commandant of Midshipmen, U.S. Naval 
Academy, Colonel Steve Tanous, Commandant U.S. Air Force 
Squadron Officer College, Colonel Brian Beaudreault, Director 
of the U.S. Marine Corps Expeditionary Warfare School.
    We appreciate you all being with us here today. As we get 
further and further into this topic, the more interested we get 
in it and also the more importance we are putting on this look 
at it. It has been some time since the Congress, I think in 
either body, has taken a look in some depth at the issue of 
professional military education and your presence here is very 
helpful.
    Your written statements will be part of the formal record 
of the committee and we will put the clock on there that will 
fire up a red flare at five minutes, but if you still have 
things to tell us, you tell us and we will begin--well, we are 
joined by Mr. Skelton, chairman of the full committee.
    Mr. Chairman, do you have any comments, do you have any 
comments you want to make?
    The Chairman. No, sir.
    Dr. Snyder. Okay. We were just going to go to our faculty. 
Are we going to begin with General Born and go down the row?
    Mr. Wittman. Yes.
    Dr. Snyder. General Born, why don't you go ahead and tell 
us what you have to say.

    STATEMENT OF BRIG. GEN. DANA H. BORN, USAF, DEAN OF THE 
                FACULTY, U.S. AIR FORCE ACADEMY

    General Born. Thank you very much.
    Chairman Snyder, Chairman Skelton, Ranking Member Wittman, 
when he arrives, and our distinguished members of the Oversight 
and Investigations subcommittee, on behalf of Lieutenant 
General Mike Gould, our superintendant, Brigadier General Sam 
Cox and myself, I would like to thank you for the opportunity 
to address how we prepare our cadets and future officers for 
the challenges they will face in today's national security 
environment.
    We think it is important that our services continually 
assess how well we prepare our service members for the 
challenging roles they must play in serving our Nation, and we 
appreciate the efforts of this committee to help us meet our 
current and our future requirements.
    Our mission at the Air Force Academy is to educate, train 
and inspire men and women to become officers of character 
motivated to lead the United States Air Force in service to our 
Nation.
    We designed our program to meet the developmental needs of 
young officers in the current national security environment and 
provide the foundation to grow into future strategic thinkers 
and leaders through a broad spectrum of academic, athletic, 
military, and character education and training opportunities.
    Our four-year program focuses on achieving developmental 
outcomes that imbue our graduates with societal, professional, 
and individual responsibilities and empowers them with an 
integrated set of intellectual and warrior skills and 
establishes a foundation of knowledge essential to the 
profession of arms.
    Our curriculum is acknowledged as among the best in the 
Nation. The U.S. News and World Report ranked us the best in 
the west for two years in a row in the baccalaureate degree 
category.
    We were recently recommended for a maximum national 
accreditation of 10 years by the Higher Learning Commission and 
our graduates continue to earn numerous national competitive 
scholarships and today 52 percent of the general officers in 
our Air Force are Air Force Academy graduates.
    Our faculty and staff are exceptionally well-qualified and 
well-prepared. We have a teaching staff of 525 of about 30 
percent which are civilian faculty. Over 50 percent of our 
faculty members hold Ph.D.'s or terminal degrees in their 
field.
    Our faculty also includes 6 endowed chairs, 7 distinguished 
visiting professors, 8 international officers and 12 sister 
exchange officers. We also have interagency scholars and 
residents from the Central Intelligence Agency (CIA), the 
National Security Agency (NSA), Department of Homeland Security 
and the State Department.
    Maintaining a high caliber of personnel presents many 
challenges, particularly in attracting and maintaining the 
right mix of military faculty due to the competition with the 
operational needs of our Air Force.
    In particular, shortages of rated officers, scientists and 
engineers across the Air Force make it harder for us to keep 
these specialties at desired levels. Another challenge is just 
the sheer workload in delivering our diverse curriculum. A 
recent manpower study validated the need for us to increase the 
faculty and staff by 21 percent to meet our current mission 
requirements.
    However, because it is unlikely that we will obtain the 
required funding, we anticipate this manning shortfall will 
continue.
    Our academic curriculum comprises 147 semester-hours of 
instruction with a balanced coverage of social sciences, 
humanities, basic sciences, and engineering. Several courses 
from the academic core curriculum focus directly on the areas 
of strategy, military history, irregular warfare, interagency, 
and multicultural operations as well as language and culture 
and they continually are updated to reflect emerging issues and 
ideas.
    Outside the core curriculum, many classes and courses and 
programs further develop strategic skills or the special topics 
that I just listed. This year, more than 600 cadets 
participated in language and cultural immersion programs and 
military exchanges with over 40 countries. Summer training 
sends cadets to operational Air Force base and sister service 
training opportunities as well.
    We also have cadet-centered research programs in the fields 
of space operations, unmanned aerial systems and computer 
network defense.
    We recognize that while the Air Force Academy is only the 
start of the process in developing the next generation of 
strategic leaders for our Air Force, we provide critical 
foundation, however, for these careers.
    We also believe that as junior leaders in the military, our 
graduates must be able to translate the big ideas of leaders 
into operational reality. Thus, we must develop the necessary 
competencies as early as possible in an officer's career.
    We are proud of our team effort at the Air Force Academy to 
provide a nation with the best and brightest new officers and 
leaders of character with the knowledge, skills, and 
responsibilities to lead our future Air Force.
    We thank you very much for this opportunity to share our 
programs and our ideas with you today. We share your vision, 
focus, passion for orienting our program towards the joint, 
interagency, coalition national security environment of the 
21st century with the curriculum course of instruction and 
rigor to achieve Congressman Skelton and this committee's 
vision.
    I look forward to answering your questions as we explore 
this issue further. Thank you very much.
    [The prepared statement of General Born can be found in the 
Appendix on page 46.]
    Dr. Snyder. Thank you, General.
    General Finnegan.

  STATEMENT OF BRIG. GEN. PATRICK FINNEGAN, USA, DEAN OF THE 
             ACADEMIC BOARD, U.S. MILITARY ACADEMY

    General Finnegan. Chairman Snyder, Chairman Skelton, good 
afternoon.
    I am Brigadier General Patrick Finnegan, Dean of the 
Academic Board at the United States Military Academy at West 
Point. I graduated from West Point in 1971 and served around 
the world for 27 years as an infantry officer and as a military 
intelligence officer and finally as a judge advocate, including 
in 3 joint assignments before returning to my alma mater in 
1998 as the staff judge advocate.
    One year later, I became the professor and head of the 
department of law, where I served for six years before being 
selected as the dean, a position I have been privileged to hold 
for the last four years.
    On behalf of our superintendant, Lieutenant General Buster 
Hagenbeck, and our commandant, Brigadier General Mike 
Linnington, and our entire staff and faculty, we appreciate the 
opportunity to share with this subcommittee how West Point, the 
country's premier leader development institution, continues to 
produce smart, highly-adaptive leaders of character who are 
capable of succeeding in today's increasingly complex and 
difficult operational environments.
    We are incredibly proud of our institution and the many 
achievements of our staff, faculty, and graduates, but we also 
recognize the importance of continual reassessment and honest 
feedback. To that end, we appreciate this subcommittee's 
efforts in helping our program to evolve in ways that best meet 
the changing needs of our Army and our Nation.
    The 47-month West Point experience begins and ends with our 
mission: to educate, train, and inspire the Corps of Cadets so 
that each graduate is a commissioned leader of character 
committed to the values of duty, honor, country, and prepared 
for a career of professional excellence and service to the 
Nation as an officer in the United States Army.
    A way to capture what we try to do comes from one of my 
favorite quotes attributed to the Greek historian Thucydides: 
``The nation that makes a great distinction between its 
scholars and its warriors will have its thinking done by 
cowards and its fighting done by fools.''
    We are producing----
    The Chairman. Let me interrupt. I think that was Sir 
Francis Butler that said that.
    General Finnegan. Yes, sir.
    General Born. William Francis Butler.
    General Finnegan. Sir, yes, sir. Although, if you Google 
it, sir, it does say Thucydides, which is interesting. 
[Laughter.]
    We are producing scholar-warriors who are comfortable 
facing both the tactical and intellectual challenges our 
leaders face in the current environment. The richness and 
breadth of the West Point education combines world-class 
academics with a rigorous military, physical, moral, and 
ethical program.
    We introduce cadets to a broad range of subjects while 
familiarizing them with the experiences that ultimately prepare 
them to successfully engage a diverse set of issues throughout 
their military careers.
    Our program is repeatedly recognized, both nationally and 
internationally, as a top-tier college and preeminent leader 
development institution. We are currently ranked as the best 
public college in America by Forbes.com and the best public 
liberal arts college by U.S. News and World Report.
    Over the past year, West Point cadets earned an 
extraordinary number of national scholarships from Rhodes and 
Truman to 10 Rotary International scholarships, and beyond the 
Academy, West Point graduates continually replicate this kind 
of success.
    Our academic program includes 45 majors. Our graduates 
complete 30 core courses in an average of 147 semester-hours 
worth of course work. Those courses provide cadets with 
extensive coverage across the spectrum of disciplines such as 
mathematics and natural science, engineering, history, 
literature, foreign languages, behavioral science, geography 
and military science.
    We have taken a leading role in promoting opportunities to 
foster cross-cultural and language competencies in our cadets 
by offering instruction in eight languages, including the most 
recent Farsi, and sponsoring an active semester abroad exchange 
program involving 150 cadets each year.
    The core of our success as a top-tier college lies not only 
in the diversity of curriculum but in the cadets' access to an 
equally diverse blend of faculty. We believe that our mix of 
civilian faculty, rotating military, and permanent military 
faculty provides an outstanding education as well as role 
models and mentors of professionalism and the values we adhere 
to as an institution and an Army.
    Our faculty members, both civilian and military, work to 
foster close relationships with the Army and other 
organizations that are tied to current operations, priorities, 
and analytical needs. We find these interactions not only 
bolster the currency and relevancy of our faculty but also help 
to better focus our curriculum in light of the ever-changing 
demands our graduates will eventually face.
    We currently have faculty members from the Department of 
State, CIA, NSA, the Defense Information Systems Agency (DISA) 
and the Geographical Information Service.
    When it comes to developing strategic thinkers, West Point 
is invested in how cadets learn to become independent thinkers. 
The strategic particulars they face in the future will come 
with time and experience. Learning how to think about the moral 
and ethical challenges of the current operational environment 
are foundational skills that we most highly value.
    In the final analysis, the number of Rhodes Scholars or 
national rankings by outside organizations do not matter nearly 
as much as what our graduates accomplish in defense of our 
Nation. The best measure of our success is the performance of 
our graduates and what they are trained and educated to do.
    And from Second Lieutenant Brian Jackson, class of 2005, 
who earned the Distinguished Service Medal, to Generals 
Odierno, McChrystal, and Petraeus, to the more than 60 
graduates, men and women, who have given their lives in the 
defense of freedom in the current fight, we are confident that 
we are accomplishing our mission and producing the scholar-
warriors our country requires of its oldest military academy.
    West Point is proud of the diverse education opportunities 
and leader development effort it affords each graduating class, 
and our efforts to maintain the exceptional quality of the 
overall West Point education. We will continue to adjust our 
curriculum so that it meets the needs of our Nation and the 
increasingly difficult challenges our graduates will face in 
their future service.
    Our discussion here today is one of the critical steps in 
that process.
    Thank you for providing me this opportunity to share our 
perspective with you, and I look forward to answering your 
questions.
    [The prepared statement of General Finnegan can be found in 
the Appendix on page 56.]
    Dr. Snyder. Thank you.
    Captain Klunder.

   STATEMENT OF CAPT. MATTHEW L. KLUNDER, USN, COMMANDANT OF 
                 MIDSHIPMEN, U.S. NAVAL ACADEMY

    Captain Klunder. Yes, good afternoon, Chairman Skelton, 
Chairman Snyder, and other distinguished ladies and gentlemen 
of the House Armed Services Subcommittee on Oversight and 
Investigations.
    I am Captain Matthew Klunder, the 83rd Commandant of the 
United States Naval Academy. And I thank you for the 
opportunity to speak today about the mission of the Naval 
Academy and, more specifically, how we prepare midshipmen to 
become officers ready to meet the demands of a country at war 
or at peace, and ready to face the challenges of an 
increasingly interdependent and dynamic world both today and in 
the future.
    The mission of the Naval Academy is to develop midshipmen 
morally, mentally, and physically and to imbue them with the 
highest ideals of duty, honor, and loyalty in order to graduate 
leaders who are dedicated to a career of Naval service and a 
potential for future development in mind and character to 
assume the highest responsibility of command, citizenship, and 
government.
    The essential purpose of the Naval Academy is to grow, 
shape, and motivate junior-officer leaders for the Navy and 
Marine Corps. And the emphasis is in our three primary focus 
areas, the moral, mental, and physical development of our 
midshipmen.
    All three of our programs are complimentary and fully 
integrated throughout the institution. The Naval Academy 
combines character development, undergraduate education, and 
professional training to provide officers that are selfless, 
inspirational, proficient, innovative, articulate, adaptable, 
and professional.
    As we further discuss our Naval Academy graduates, I have 
been asked to comment, among other things, on our curriculum 
and the balance between academic and military requirements. Let 
me first touch on our world-class faculty.
    Our 550-member faculty is an integrated group of officers 
and civilians in nearly equal numbers. This composition is 
unique among service academies. Currently, officers rotate to 
the Academy for two- to three-year assignments, bringing not 
only fresh ideas and experiences from operational units of Navy 
and Marine Corps but their joint and interagency experiences as 
well.
    The Academy's civilian faculty members give continuity to 
the educational program and virtually all have doctoral degrees 
with many of them leading scholars in their fields. The Naval 
Academy academic curriculum develops the intellectual 
foundation for the professional competence essential to 
leadership in the Naval service.
    In accordance with Secretary of the Navy guidance, we have 
coupled a strong core technical foundation in science, 
technology, engineering, and mathematics with studies in 
humanities, social sciences, leadership, professional military 
training, and character development to ensure that every 
midshipman is well-prepared as a junior officer.
    In our division leadership education and development, we 
provide midshipmen with an integrated and comprehensive program 
in leadership, ethics, character and law and the opportunity to 
study specialized electives in these fields.
    In our division professional development, midshipmen are 
allowed to develop professionally by immersion into Naval 
culture, on land and at sea, with emphasis on building personal 
confidence through professional mariner skills and warfare 
community exposure.
    A character development and training division is tasked 
with the development of leadership and character attributes for 
midshipmen outside the normal academic environment. This 
integrated character and leadership development program is the 
single most important feature that distinguishes the Naval 
Academy from other educational institutions and other 
commissioning sources.
    Recent geopolitical developments, beginning with the end of 
the Cold War, but more evident since 9/11, have also 
highlighted the growing need for Naval leaders to acquire 
greater knowledge about the history, culture, civilization, 
languages, and religions of geographic regions with strategic 
importance to the United States.
    The Naval Academy has adopted a differentiated approach to 
achieving this goal by one, providing small numbers of 
midshipmen with extensive in-country study abroad programs, 
two, affording larger groups of midshipmen a significant 
foreign language and professional immersion programs and, 
three, affording all our remaining midshipmen enhanced 
opportunities to acquire greater cultural knowledge through 
outstanding elective courses and visiting international 
experts.
    In addition to our longstanding tradition of exchanging 
cadets and midshipmen between the service academies, we also 
have 53 international 4-year exchange midshipmen from 28 
different nations along with 21 semester exchange midshipmen 
from several foreign military academies enrolled at the Naval 
Academy, all of which contributes significantly to the 
Brigade's regional and cultural awareness.
    Allow me today to conclude by referring back to the main 
focus of our Naval Academy mission, to develop midshipmen 
morally, mentally, and physically. The challenge of our mission 
is to maintain a very delicate balance between the moral, 
mental, and physical aspects of our curriculum and to ensure 
that we continue to graduate leaders that are prepared to lead 
sailors and marines immediately upon graduation.
    I observe our midshipmen on a daily basis, and I am 
convinced that we are succeeding and achieving that correct 
balance for their limited time.
    I hope that I was able to provide some insights into our 
institution's professional military education and how it 
touches every aspect of midshipmen development, training, and 
education at the United States Naval Academy.
    On behalf of the students, the faculty, the superintendent, 
Admiral Fowler, and the staff at the Naval Academy, we thank 
you for your continued support within Congress and your 
commitment to the development of our Navy and Marine Corps 
future leaders.
    Thank you, Mr. Chairman.
    [The prepared statement of Captain Klunder can be found in 
the Appendix on page 63.]
    Dr. Snyder. Thank you, Captain.
    We have been joined by Mr. Wittman, and he has asked us to 
proceed with your statements.
    So, Colonel Tanous.

  STATEMENT OF COL. STEVE TANOUS, USAF, COMMANDANT, U.S. AIR 
                 FORCE SQUADRON OFFICER COLLEGE

    Colonel Tanous. Thank you, sir.
    Chairman Snyder, Chairman Skelton, Ranking Member Wittman, 
members of the subcommittee, thank you for this opportunity to 
appear and testify about Squadron Officer College (SOC). I am 
honored to discuss with you the important role the Squadron 
Officer College plays in the professional development of the 
Air Force's most important resource, its people.
    Squadron Officer College is located at Maxwell Air Force 
Base, Alabama, as the Air Force's educational institution 
committed to developing company-grade officers. Squadron 
Officer College is comprised of two schools, the Air and Space 
Basic Course (ASBC) for second lieutenants and Squadron Officer 
School (SOS) for our junior captains.
    The college's curriculum is based on educational 
requirements established by a number of sources. Principal 
among them is the Joint Staff's Officer Professional Military 
Education Policy, the Air Force Institutional Competency List, 
the Air University Continuum of Education, and Strategic 
Guidance.
    Combined, Squadron Officer College responds to over 140 
separate learning requirements with an eye towards achieving 
its vision for the future. That vision is for the college to 
become the premier leadership development institution in the 
Air Force.
    We are building towards that vision by executing our 
mission, which is to develop company-grade officers as leaders 
of integrity ready to fly, fight, and win in air, space, and 
cyberspace.
    The college achieves mission success through its two 
schools and the numerous educational initiatives underway, and 
I will describe each of those briefly.
    The Air and Space Basic Course is the newer of the two 
schools, launched just a decade ago. It is a 6-week resident 
program that is conducted 10 times a year. Two weeks of the 
course provide hands-on instruction in skills specifically 
related to operations in an expeditionary environment.
    Specially qualified, enlisted and officers train the 
students who then execute what they have learned at two 
simulated deployment locations. One, a small tent city on the 
base, another at a 200-plus-acre remote site located about 30 
miles from Maxwell.
    In addition, students spend a week building a working 
knowledge of officer-enlisted relationships through interaction 
with students from our Senior Noncommissioned Officer Academy. 
They also receive three weeks of classroom instruction in the 
profession of arms and Air Force doctrine.
    The Air Force goal is 100 percent attendance of its line of 
the Air Force officers to attend the school. Between 3,200 and 
3,500 Air Force active-duty, reserve and National Guard 
officers attend the school each year. The Air and Space Basic 
Course graduated its 30,000th student last month.
    The school represents the Air Force's investment in today's 
junior officers who will become tomorrow's air, space, and 
cyberspace power leaders. The Air and Space Basic Course is a 
crucial first step in the professional military education of 
Air Force officers.
    The next step in that professional development is the 
college's second educational program, Squadron Officer School. 
Squadron Officer School is unquestionably a leadership school. 
The resident program is five weeks long and employs a wide 
variety of academic and experiential offerings.
    A typical class consists of some 420 Air Force active-duty, 
Guard and reserve officers as well as a handful of rank-
equivalent Air Force civilians. In addition, three of the seven 
classes each year host some 40 international officers from 
partner nations that enroll their captain-equivalents in the 
course.
    The students also benefit significantly from interaction 
with others who have different specialties, experiences, and 
perspectives. Relationships that result are a major positive 
consequence of the program.
    The Air Force goal is for 80 percent of the line of the Air 
Force officers to attend Squadron Officer School, and a 
distance learning version is available for those unable to 
attend in residence. Squadron Officer School is an innovator in 
professional military education and is key to the college 
realizing its vision as a leadership center of excellence.
    This year, we began an effort to enhance its curriculum. 
Its efforts sparked interest from its academic counterparts 
across the country, including the University of Texas and 
Michigan State and Kansas State Universities.
    An Air Force officer will remain at the company-grade level 
for roughly nine years. In recognition of today's complex 
national security environment, the Air Force is committed to 
additional development opportunities in order to match the 
increasing responsibilities and challenges they will face 
during that period.
    As a result, the college has designed five targeted 
voluntary developmental distance learning offerings 
collectively known as the Company Grade Officer Leadership 
Program. The first course was offered in March of 2009 and the 
rest will launch later this year.
    With an annual faculty turnover rate of roughly 1/3, the 
college must also make a robust investment in its faculty 
education and training in order to achieve the high standards 
it has set for instruction. We have designed a robust faculty 
development program that spans recruitment, orientation, 
initial training, and in-service sessions throughout a faculty 
member's tenure. Combined, these efforts produce our top-notch 
faculty.
    Squadron Officer College has a critical mission. It is 
solely responsible for the professional development of the 
entire Air Force company-grade officer corps. We are 
accomplishing our mission through an array of programs and 
initiatives that ensure rewarding developmental experiences for 
our students.
    I am justifiably proud of my people. Their drive and 
innovation underscore their commitment to the college's mission 
and to their students. The students' comments say it all. 
Squadron Officer College is on the right path to reach its goal 
of becoming the Air Force's premier leadership development 
institution.
    I thank you again for the opportunity to testify and talk 
about Squadron Officer College and welcome your comments and 
questions.
    [The prepared statement of Colonel Tanous can be found in 
the Appendix on page 75.]
    Dr. Snyder. Thank you.
    Colonel Beaudreault.

 STATEMENT OF COL. BRIAN D. BEAUDREAULT, USMC, DIRECTOR, U.S. 
           MARINE CORPS EXPEDITIONARY WARFARE SCHOOL

    Colonel Beaudreault. Good afternoon Chairman Skelton, 
Chairman Snyder, Ranking Member Wittman, and distinguished 
members of the subcommittee.
    I greatly appreciate this opportunity to address the 
subcommittee in order to discuss the accomplishments of your 
Marine Corps Expeditionary Warfare School (EWS) located at 
Quantico, Virginia.
    Since 1921, the Marine Corps resident career-level 
education and training program has consistently adapted, 
anticipated, and effectively prepared its graduates to meet the 
complex challenges of the operating environments to which they 
were dispatched.
    Today's Expeditionary Warfare School is the product of a 
2002 merger between two Quantico-based career-level courses, 
the Amphibious Warfare School (AWS) and the Command and Control 
Systems Course (C2SC). That brilliant merger extracted the best 
of both courses; the command and control emphasis, or the C2 
Systems Course, and the detailed instruction on expeditionary 
operations taught at Amphibious Warfare School.
    EWS's 9\1/2\-month curriculum provides Marine, sister 
service and international captains career-level professional 
military education in command and control, planning, Naval 
expeditionary operations, employment of the Marine Air-Ground 
Task Force (MAGTF) ashore, operational culture, professional 
communications, leadership and ethics, and 8 weeks of hands-on 
occupational field expansion training.
    Throughout the curriculum, an emphasis is placed on 
decision-making, the employment of combined arms, and maneuver 
warfare doctrine. The curriculum contains approximately 80 
percent academic education and 20 percent dedicated to 
training.
    The Marine Corps University (MCU) provides oversight of the 
curriculum through its curriculum review board process.
    EWS challenges the students to think critically. In fact, 
it is the first academic class on day one. The curriculum 
provides them with a firm doctrinal foundation augmented with 
outside readings, guest speakers, the exchange of experiences, 
and reinforced with extensive practical application and 
planning exercises.
    The program outcomes for EWS include the ability for a 
graduate to clearly express ideas in a well-reasoned manner 
that stems from a disciplined thought process. They will be 
able to integrate the capabilities of each of the four elements 
of the Marine Air-Ground Task Force, plan and execute Naval 
Expeditionary operations, integrate the six warfighting 
functions with consideration to the principles of war, maneuver 
warfare doctrine, and cultural factors.
    They will be prepared to command a company or operate as a 
technically proficient staff officer within their element of 
the MAGTF. They will know how to lead subordinates within a 
framework of ethical values.
    At a fundamental level, they will understand joint 
operations; coalition operations; the formation, organization, 
and purposes of a joint task force; and coordination with 
interagency and nongovernmental organizations.
    The EWS faculty consists of 15 faculty advisors in the 
grade of major and three division heads in the grade of 
lieutenant colonel or commander. One hundred percent of the 
faculty advisors and division heads are highly experienced 
combat veterans with great appropriate command and staff 
experience. Seven hold master's degrees from command and staff 
colleges while two more hold master's degrees from civilian 
universities.
    An EWS instructor position is considered a premier and 
upwardly mobile billet for a Marine Corps major with many 
generals having once served on the faculty and staff. The 
Marine Corps University faculty supports EWS with academic 
chairs, scholars, and subject matter experts in the fields of 
culture, the Middle East, insurgency, terrorism, intelligence, 
leadership and ethics, historical case studies, interagency 
coordination, and our own faculty education.
    Two hundred and forty-two officers will attend the resident 
EWS program in academic year 2010, which includes 190 marines, 
22 soldiers, 6 airmen, 2 sailors and 22 international officers 
from 21 countries. Two hundred and thirty-seven officers 
graduated in May 2009, 191 of them, including our international 
officers, were Operation Iraqi Freedom (OIF) or Operation 
Enduring Freedom (OEF) combat veterans.
    I anticipate that the student body for next month's 
incoming class will be similarly experienced.
    EWS has a very powerful curriculum that for career-level 
officers is unique in the Department of Defense. A common 
misperception is that EWS is a school for captains. In reality, 
EWS is a school with a student body of captains who are 
preparing to be majors and beyond.
    As the first step in the Marine Corps University's PME 
continuum, EWS provides a solid foundation for the intellectual 
and professional growth of our officers. Your Expeditionary 
Warfare School is a national treasure, one whose modest 
budgetary requirements provide the Nation an exponential return 
through the increased effectiveness of the career-level leaders 
that serve in our armed forces.
    Thank you, Mr. Chairman, for a chance to speak with you 
today. I welcome the subcommittee's questions. Semper Fidelis.
    [The prepared statement of Colonel Beaudreault can be found 
in the Appendix on page 84.]
    Dr. Snyder. Thank you all.
    Before we begin our questioning, Mr. Wittman, I wanted to 
give you a chance for any opening comments that you want to 
make. We saw you on the floor of the House through C-SPAN so 
you looked very sharp--but, go ahead. Any opening comments you 
want to----
    [Laughter.]

STATEMENT OF HON. ROB WITTMAN, A REPRESENTATIVE FROM VIRGINIA, 
   RANKING MEMBER, OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

    Mr. Wittman. Thank you, Mr. Chairman.
    Listen, in the interest of time, I would ask unanimous 
consent that my opening remarks be entered into the record for 
the committee.
    Dr. Snyder. Without objection.
    [The prepared statement of Mr. Wittman can be found in the 
Appendix on page 43.]
    Dr. Snyder. Mr. Skelton can only be with us a short time. I 
recognize him for as long as he likes for any questions he may 
have.
    The Chairman. Thank you very much, Mr. Chairman. I 
appreciate this opportunity. Unfortunately, I have a conflict. 
My questions would go on and on and on if I had the 
opportunity, but let me just limit myself to just a few, if I 
may.
    My staff tells me that after six years of being a graduate 
of the primary institutions, the three, the Air Force, the 
Navy, the Army, undergraduate institutions, about 50 percent 
bail out and leave the military. My staff also tells me that 
about 70 percent bail out and leave the military after 10 
years.
    This, of course, disturbs someone who appoints people. And 
it is a rather rigorous process and very competitive for each 
member of Congress who has the privilege of appointing young 
men and young women to your service academies, and those 
figures cause me concern.
    So I ask you, should I be concerned? And do you have any 
reaction to those approximate figures?
    General? General Born.
    General Born. Chairman Skelton, I appreciate the question, 
and in looking at our mission statement, it is really about 
developing leaders of character for service or Air Force and to 
our Nation, ultimately.
    Our mission statement, in the past, had in it to develop 
career Air Force officers, and that really has not been our 
focus, although during a four-year program, we hope that we 
will instill within our future officers an identity of being an 
armed forces officer, Air Force officer.
    There are several complicating issues, I think, with some 
of the figures, be our economy, our force shaping throughout 
the years within the Air Force and, for us, our attrition 
figures at the 10-year point might be higher, in that over half 
of our graduates go on to pilot training, and there is a 10-
year commitment, whereas those who are going into other fields, 
it is a 5-year commitment. So you will see some variation 
there.
    Ultimately, we would hope that service in the Air Force, 
it--they would get hooked on the mission and hooked on the 
people and obviously we would love everyone to stay for a full 
career, but that is not part of our current mission statement, 
sir.
    The Chairman. General Finnegan.
    General Finnegan. Chairman Skelton, I think you should be 
concerned about it. We are concerned about it, as well, and it 
is an issue for us, for the retention of our graduates. We have 
about a 50 percent retention rate at the 6-year mark, as you 
said.
    Part of that is for the operational tempo of the Army, 
currently. When you have a graduate who deploys three or four 
times in that six-year period, it is sometimes difficult to 
convince them that they should stay when they are leaving their 
family behind all that time.
    One of the things that we have looked at and implemented a 
program in the last several years to work on this issue of 
retention beyond the five- or six-year mark is also related to 
things that this subcommittee is looking at, and that is the, 
what we call our grad school program.
    As you probably know, all the graduates of the Military 
Academy incur a five-year active-duty service obligation and a 
three-year reserve commitment. If they are willing, at the time 
of graduation or just before graduation, to instead sign up for 
eight years of active duty rather than five and three, we will 
guarantee them graduate school at a graduate school of their 
choosing.
    Then they will go to graduate school and incur an 
additional commitment to the Army which will take them past the 
12- or 13-year mark. We have done this program for the last 
three years, and between that and signing up for a specific 
branch of the Army, you can do the same thing, three years 
additional active duty if you sign up for infantry, for 
example, if you want that branch. We have more than 33 percent 
of every graduating class has signed up for those options.
    So we anticipate, as we look to the future, that those 
retention figures are going to improve dramatically.
    The Chairman. Captain.
    Captain Klunder. Mr. Chairman Skelton, I have similar 
dilemmas in terms of pipeline and training wickets that we 
meet, just as General Born described to you in the Navy and 
specifically, like in Naval aviation for training, but I will 
offer this.
    The encouraging spirit that I see in our most recent 
classes at the Naval Academy and the young people that are 
committed to serving their Nation, I do feel that if we can 
capture that and indeed try to instill that continued 
inspiration in their hearts to serve their country in the 
future years, I think we have some fertile ground here to plow.
    Something that we have taken on at the Naval Academy 
recently, as General Finnegan mentioned at West Point, our 
strategic imperative--I can't speak for the entire Navy--but 
what we are trying to do is go back to our alumni in the fleet, 
assess what it is that exactly, at that critical time in their 
milestone career, what is driving them out or keeping them in.
    We have seen in our recent discussions with the bureau that 
we have a lot of people that do want to stay in. I can't say 
that we are going to see that bow wave change dramatically, but 
we do see encouraging statistics. I won't speak for them 
because I just keep inside the Naval Academy line, but we are 
comforted in talking to our alumni. More than not, now, we are 
seeing them wanting to stay in the Navy.
    The Chairman. We did some considerable investigation 
hearings a number of years ago trying to identify the need for 
jointness, but also the need for strategic thinkers within the 
military.
    And not too long before he retired, I had the opportunity 
to talk with General Peter Pace, and I asked him in the average 
class that graduates from the National War College, and most 
would be lieutenant colonels and colonels, how many could 
actually sit down and have an intelligent conversation with the 
late George C. Marshall? And he said three or four.
    And that is really pretty good. All of them would 
understand strategic thinking, but if you have three or four 
that are on the cutting edge, I think that is pretty good.
    Now, flash backwards to the young lieutenants and ensigns 
that you produce in your schools, and I realize that is early 
in one's career. But can you put your finger on those that just 
might be a strategic thinker and be a potential leader in that 
area? And, if so, how would you recommend to your service to 
take care of that person and to guide their career so that that 
ability would be enhanced?
    General Born.
    General Born. Chairman Skelton, another great question, 
sir.
    The program that the service academies have, fundamentally, 
are based upon a core curriculum that is balanced between the 
humanities and social sciences and engineering and basic 
sciences, but just having that foundation of subject matter 
isn't enough to produce the strategic thinker that could have a 
conversation.
    What we have tried to do is develop a program that is 
aligned with purposeful, intentional development to meet 
students where they are and to help them reach their highest 
potential in all areas of the program.
    We have established learning outcomes that are in the three 
main areas that I mentioned in my opening statement on 
knowledge, skills, and responsibilities, and those three main 
areas are followed up with 19 learning outcomes that we have 
established at the institutional level for our entire program.
    Those outcomes are aligned with liberal education outcomes 
in America for citizens as well as the institutional competency 
list for our Air Force. One of those Air Force competencies, 
and also embedded in the higher education, is strategic 
thinking.
    And what we have tried to do in the past where a course was 
enough to learn material is to link courses intentionally, 
developmentally to hold students accountable from one year to 
the next in a developmental fashion and also to provide avenues 
for those that excel.
    One of those examples is our Academy Scholars Program where 
we identify very early, matter of fact, halfway through a four-
degree freshman's period of--somebody who is an outstanding 
performer, and we put them through more of a St. John's 
accelerated, more of a seminar-based core sequence, and they 
are with some of our most senior scholars. They have other 
opportunities that go with that with participating in Aspen 
Institute, and Developmental Model League Nation opportunities.
    But we have a dedicated faculty of professionals who pick 
out people, not just in the academic arena, but those that will 
be leaders in their squadron area who become some of our group 
commanders and wing commander levels or in our athletic arena 
who rise to be the captains of their teams and then also become 
NCAA All-American academic scholars or athletes.
    And we also identify those to go to special developmental 
programs. One of those, for example, is a commander-leader 
enrichment seminar which is an advanced leadership development 
opportunity for our cadet leaders as well as our team captains.
    So, to answer your question, it is more intentional and 
developmental to help students connect the dots to have more 
deep learning and effective learning for a very complex, 
volatile, dangerous technical environment that they are 
graduating into in the 21st century.
    The Chairman. Thank you.
    General Finnegan.
    General Finnegan. Chairman Skelton, I am not sure we can 
identify strategic thinkers at our level, but we can certainly 
identify good thinkers and even great thinkers who can solve 
problems. And that is really what we are trying to do is create 
young men and women who can solve problems that they haven't 
seen before.
    We are not trying to teach them what to think but how to 
think. And that, of course is the germ for eventual strategic 
thinking, to face problems that you haven't seen before and 
figure out ways to get to the solution.
    We have many of the similar programs that General Born 
described. We have identified scholarship candidates early on. 
We identify them and channel them into particular programs, 
into particular seminars.
    We also have an extensive summer program in internships, 
600 within the United States at various agencies, including 
with offices and members of Congress and 600 overseas. And we 
will take some of those high-performing cadets and specifically 
select them for those programs to develop their intellectual 
capability and to help them in the classroom.
    I think you have touched on one of the issues that is sort 
of beyond what we can do. And that is once we have identified 
these high-achieving young people who have done very well at 
the academies and maybe been scholarship recipients or been in 
an Academy Scholars program, what happens to them out in the 
force?
    Because they then go in the Army circumstances, of course, 
the normal path and probably the required path and the right 
path is to go be a platoon leader and a company commander and 
do the kinds of things that they need to do in the Army.
    We have to find a way to keep them connected to their 
intellectual development, as well, at the same time. That is 
something that the Army must grapple with in addition to us.
    The Chairman. Captain.
    Captain Klunder. Yes, Chairman Skelton.
    We have felt very strongly about not only just strategic 
thinking but strategic awareness, and what I will offer is that 
all of our midshipmen need to be absorbed and have the 
opportunities to take on the awareness, not only in a 
professional manner, but in a globalization kind of manner, 
internationally speaking.
    We want to provide that to all of them.
    Now, once we have done that, it is our challenge--and I 
know General Finnegan just alluded to it a little bit--we are 
very proud of our scholarship and graduate education for 
midshipmen, as they graduate and become ensigns and second 
lieutenants.
    The challenge for us--and I have talked about this with the 
Bureau of Personnel--we want to ensure that we are mentoring 
them closely during that graduate education process to ensure 
that, when they are done and they have attained all the 
accomplishments and strategic thinking they can absorb and use 
in their professional careers, we want to, as quickly as 
possible, and in an efficient and effective way, get them into 
their other major training pipelines so we don't lose any time 
with them to keep them upwardly mobile.
    That has been something in the past--I don't know what the 
other services, how they experienced--but that is a challenge 
for us and we have taken that on. We are going to closely 
monitor those upwardly-mobile strategic thinkers that we have 
identified in the graduate education program to ensure they are 
successful throughout their careers.
    The Chairman. Thank you.
    My very last is a request of you. Some six years ago, I put 
together a recommended reading list for military officers and 
for members of the Congress, and it was well-received over here 
at the National War College.
    Just a few days ago, I compiled a recommended book list 
number two and I will ask the staff at a later moment to give 
you my list, and if you have a few moments, let me know that 
you would critique my list for me--if each of the five of you, 
I would really appreciate it and tell me good, bad or 
indifferent thereon. [Laughter.]
    I appreciate your testimony and I apologize. I must go and, 
Mr. Chairman, thank you so much.
    Dr. Snyder. Thank you, Mr. Chairman. And thank you for all 
the work that you have done throughout your career on these 
topics.
    Mr. Wittman and I will begin our questions, and we will use 
the 5-minute clock.
    Yes, thank you, Mr. Chairman.
    And we will just go back and forth for 5 minutes. Go ahead 
and start the clock.
    General Born, you kind of are in the hot seat right there 
just because you are at the end, so we start with you, but let 
me go a different way. Let me ask a general question first, and 
I will come back later to a specific question for each 
institution.
    What avenues are there for you all or whoever makes 
decisions about your student body, your curriculum, how you are 
doing, what opportunities are for your institutions to hear 
from the combatant commanders about how your folks are 
performing, you know, based on what they learned at your 
institution?
    I think, Colonel Beaudreault, we will start with you.
    Colonel Beaudreault. Mr. Chairman, the student body is 
basically initially screened by the monitors, the occupational 
field sponsors, on looking through the records of everybody 
that is eligible. There is then a selection board meets to pick 
those best qualified to come to the school.
    Most of the captains, when they arrive, have anywhere 
between five and seven years experience, so it is limited 
observation. Some of it will be their performance at the basic 
school as a lieutenant, and then their performance in the 
operating force is as a platoon commander, company executive 
officer, young pilot, things of that nature.
    So it is a selection board process. Did I answer the 
specific question?
    Dr. Snyder. No, but my question is so they go through that 
process----
    Colonel Beaudreault. Sir.
    Dr. Snyder [continuing]. They go to their next duty 
assignment. What process do you all have for hearing from the 
combatant commanders about how your folks performed against 
those people who did not go through the kind of training that 
you all provide?
    I mean, you think, and I agree, that you add value to these 
remarkable young men and women. Do the combatant commanders 
agree with you? What process do you have for evaluating, I 
mean, if they can't see any difference, then why waste their 
time and our money on doing it?
    So my question is, what formal process do you have, if 
any--and you may not have any--for hearing from the combatant 
commanders, the users of your product, in a very crude way, 
about whether you all are giving them something that is helpful 
to them or not as far as personnel?
    Colonel Beaudreault. Yes, sir. It is personal visits by the 
director of the school, such as myself, and it is a survey 
process that goes out to the commanders for their input on 
those that recently graduated. And then we also send a survey 
to those that graduated from the course to see what 
deficiencies we may have in the program and did it best equip 
them to go out and assume that position as a staff officer.
    Did we adequately prepare them to be company commanders?
    So, it is really a survey process is the formal method. 
Informal method is the director getting out and about, talking 
to the battalion commanders and the regimental commanders, 
Marine Expeditionary Unit (MEU) commanders, et cetera, on the 
performance specifically of those that graduated from the 
resident school.
    The baseline course, as mentioned by Colonel Tanous, is a 
nonresident program and certainly the resident course brings a 
bunch of enhancements that aren't available to a nonresident 
student. And I think that is the major difference.
    There are EWS graduates from a nonresident program that are 
parts of battalions and squadrons, et cetera. But, 
specifically, we are after what can we do in-house at the 
resident course that is going to turn out that better product, 
and it is done through that survey and personal visits.
    Dr. Snyder. So, I don't mean to put you on the spot since, 
but since poor General Born has been on the spot all day. So 
somewhere--you said surveys--so somewhere, do you have a series 
of surveys signed by Admiral Olson from special ops command?
    You were in his position the last couple years as the 
combatant commander or the previous four years as the deputy 
that says we have looked at the people you have sent us and we 
find them lacking. We find them superlative.
    You have mentioned battalion commanders, I am talking about 
the combatant commanders (COCOMs).
    Colonel Beaudreault. No, sir, not to the four-star level 
combatant commanders. Our survey process really ends at the O-6 
level.
    Dr. Snyder. At the O-6 level.
    Colonel Beaudreault. Yes, sir.
    Dr. Snyder. Colonel Tanous.
    Colonel Tanous. Chairman, our formal institutional 
effectiveness process is directed at both the student and the 
student supervisor. So, to directly answer your question, no, 
we don't have direct feedback from the COCOMs themselves saying 
this is how well our students are doing in the field once they 
graduate from Air and Space Basic or SOS.
    So, the bottom line is we go back, normally, after a year 
and say, okay, the year has gone by. Tell us, students, what do 
you think of the education that you got from the school. Did it 
add value to your contribution at the unit, and then go do the 
same thing with the supervisor.
    And we have got a series of questions that we ask them that 
essentially say, hey, they have been through Squadron Officer 
School. Did they get what they were supposed to get out of it? 
And then we take that feedback and we roll it back in to our 
curriculum development process.
    Dr. Snyder. Captain Klunder.
    Captain Klunder. Yes, Chairman Snyder. We specifically use 
our OPNAV staff and our Chief of Naval Personnel (CNP) as our 
conduit to let them evaluate are we sending the right type of 
ensigns and second lieutenants out into the fleet and to 
support the COCOMs.
    So, there is a formal requirements process and we serve to 
that need.
    That being said, I will offer that, in not necessarily a 
survey kind of format, but in actually demand signal kind of 
format, we have had the COCOM's come to us in an undergraduate 
level and say we would like to offer these kind of internships 
to the Naval Academy to give them increased awareness and an 
early jumpstart on the kind of political-military situations 
they might encounter.
    I will give you the perfect example. The Joint Task Force--
Horn of Africa (JTF-HOA) down in Djibouti last summer came to 
us and said we have a great idea we would like to offer you for 
12 to 20 midshipmen. Would you like them to come down for a 
summer internship. We said you bet. Can we make it work? You 
bet. And, as it turned out in the end, they had a great 
experience. We are doing that again this summer.
    I also offer to you that in other, kind of, summer 
training, we have had people go to internships in Africa 
Command (AFRICOM), Southern Command (SOUTHCOM).
    Again, they are not asking are we meeting the--scratching 
the itch they require right now of our young, undergraduate 
level, but, as a minimum, they have come to us and said we have 
a demand signal to give this kind of undergraduate awareness, 
cultural awareness, geographic, geopolitical awareness, and we 
are providing that, and we think that is a success story.
    As for meeting the requirements from the COCOM 
specifically, Admiral Stavridis, Admiral Keating, when they 
talk to OPNAV staff or CNP, we feel that we are meeting that 
need, sir.
    Dr. Snyder. General Finnegan.
    General Finnegan. Sir, I guess my answer combines probably 
Captain Klunder's and Colonel Tanous's. We have a system where 
we assess both at the battalion commander level and at the 
graduate level after two years and after five years.
    We also work very much with the combatant commands, 
although we don't specifically ask the combatant commanders are 
our folks meeting your needs. It is more in the reverse. We 
have cadets who go to Central Command (CENTCOM). We have 
several cadets who are in CENTCOM this summer. We have 18 who 
are in Africa this summer who are doing internships with that 
command.
    We have a continual relationship with the Southern Command 
and have sent a number of cadets down there during the summers 
and their folks come up on our project days, some of their both 
allied officers and officers from Southern Command come up and 
evaluate the projects that we have done.
    In addition, we traveled to some of those commands, 
particularly Central Command. Last summer, the superintendent 
and I both traveled to Afghanistan and talked to General 
McKiernan over there. This summer, General Hagenbeck, the 
superintendent, traveled to Iraq, talked to General Petraeus, 
General Odierno, and the other commanders over there to get 
their assessment of our graduates.
    Dr. Snyder. General Born.
    It is nice to be number five sometimes. [Laughter.]
    General Born. Chairman Snyder, I thank you very much for 
being the last. [Laughter.]
    And I will pick up on the theme that emerged and that is 
one of both informal as well as formal feedback, but probably 
more that we can do directly with the combatant commanders.
    Informally, we do get a lot of feedback and we currently, 
this summer, had 100 of our cadets over in the CENTCOM arena. 
We have had 70 of our faculty deploy, mostly to Iraq and 
Afghanistan, over the last year. And so there is a lot of 
conversation in terms of, you know, how are our graduates 
doing?
    I also had the opportunity to travel to Afghanistan twice 
in the last year, once with the superintendent from West Point, 
and we met with our graduates while we were over there and got 
a sense from their perspective on how well prepared they were 
for the mission that they are facing there.
    But we also have some formal assessment of our graduates at 
the four-year point where we go out through our Air Force 
Personnel Center to assess all of our new accessions in the 
first four years of service as well as their supervisors slash 
commanders.
    And the assessment is aligned with some of the 
institutional competencies, one of them being strategic 
thinking, that we talked about earlier. And we probably could 
look at that data, not just in terms of a breakdown of Air 
Force Academy graduates, Officer Training School (OTS) and 
Reserve Officers' Training Corps (ROTC), but also ratings that 
came out of the combatant commands as well as our own major 
commands.
    We are in the process right now of assessing our 2008 data. 
We do it about every three to four years.
    Dr. Snyder. Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    I want to thank all of the members of the panel for joining 
us today, taking time out of your busy schedules.
    I want to kind of drill down a little bit on the chairman's 
questions. He was asking about how you go about the evaluation 
process on your graduates and how that opportunity and that 
experience is serving them and serving the branches.
    We all know the experiences there are unique, whether it is 
there at the service academies, whether it is--they are at the 
Expeditionary Warfare School, the Squadron Officer School--all 
very unique experiences, bring a lot of things to the table, a 
lot of value to the table.
    I want to try to understand a little bit about how all of 
that gets integrated. If you take the DOD requirements that you 
have, the service and the Joint Chiefs of Staff (JCS) 
requirements, how do you integrate that into the pre-
commissioning experience, and then also how do you take the 
lessons learned in current conflicts and integrate that in?
    So, you are taking those requirements, the real-world 
efforts there and current conflicts. How do you integrate all 
of that to make sure that those requirements and lessons 
learned get incorporated into the educational experience and 
the efforts to develop our junior officers?
    So, this is kind of, I guess, at a level before the 
evaluation. It is sort of building that to the point, and then, 
obviously, you talked a little bit about the evaluation point. 
I wanted to understand, you know, how you build that, both on 
requirements and on taking experiences being learned in current 
conflicts and integrating those together for your education and 
development of your junior officers.
    And we will start, now, in the middle of the table.
    So, Captain Klunder, we will start with you, and then we 
will go around. [Laughter.]
    Captain Klunder. Thank you, Congressman Wittman.
    Mr. Wittman. Thank you.
    Captain Klunder. We have struck a chord here in that we 
have seen that, also--a challenge always to assess yourself and 
assess what the COCOM's and specifically our Navy and Marine 
Corps leaders want for requirements in their undergraduates.
    That being said, we have had a very effective Academy 
Effectiveness Board. We use that on an--well, annually it 
assesses, but it is the actually meeting every month at our 
Naval Academy to assess our curriculum and then provide 
modifications to the curriculum as needed.
    The most dramatic change recently was in--excuse me, two-
and-a-half years ago, it was in 2006, when we actually created 
a little additional white space in our curriculum. We reduced 
the number of credit hours by three so we could provide more 
flexibility in electives to respond to those type of emerging 
threats and situations we might like to highlight for our 
midshipmen.
    There is also an aspect, again, because we report to OPNAV 
and specifically to the Chief of Naval Personnel. We are having 
just next week--the timeliness of this question is perfect--we 
are having our education curriculum review with all our 
graduate and undergraduate institutions next week for the Navy.
    We will meet. We have priorities we establish with them and 
determine what type of curriculum modifications we might like 
to make. So, again, we are getting ready to do that here in the 
next week and my dean with me have already been talking about 
our priorities.
    Thank you, sir.
    Mr. Wittman. Thank you.
    Colonel Tanous.
    Colonel Tanous. Sir, that is a very well-timed question, as 
it turns out, for Squadron Officer College.
    We just completed an entire review of our curriculum here 
back at the beginning of April and started instituting changes 
as a result of that at the beginning of May. And what we have 
done is gone back and looked at all those higher headquarters 
requirements that I referred to in my opening remarks.
    But we also have the opportunity to roll in the experiences 
of our instructors, as well. Because we are short courses, one 
of the unique things that we can do, I think, is focus on what 
the students and the instructors bring to the flight rooms.
    And the construct that we have got allows us to focus on 
the learning requirements that we know what it is that we are 
trying to accomplish in each element of the class, but then the 
instructors bring their experiences to bear as well, and when 
we have got 12 to 14 members in each of the flights, especially 
for Squadron Officer School.
    What we have got there is four- to seven-year captains who, 
a lot of times, have been deployed once or twice and they have 
got that to bring to the discussion as well.
    And one of the things that we have done is moved away from 
the set piece PowerPoint presentations where here is the 
learning objective. And you just kind of pound through the 
charts and maybe a little guided discussion at the end and call 
it a day, to really open it up to where we going more into the 
case-study mode of operation, the guided discussions where the 
discussions really are led by the flight commander but we 
leverage the experiences of the students in there.
    And, to the same extent, even though we don't have that 
experience base in the Air and Space Basic Course, again, we 
start with the requirements, but we weave in the experiences of 
our instructors.
    So, we have got most of our military instructors are coming 
in after at least a tour or maybe two. A lot of them have 
deployed. We recently hired 15 expeditionary skills instructors 
to do that expeditionary training piece.
    Now, almost all of them have been deployed and have some 
very unique experiences to share. So, half of what goes on in 
the field is just that interchange so that we can roll in those 
firsthand accounts of what is going on in the field with the 
requirements that are levied on us. So we have got kind of a 
tapestry going on.
    In a short course, it lends itself to some flexibility from 
that standpoint. We have built, instead of just a chock-a-block 
schedule, more of a weave over the five or six weeks of each 
course to make sure that we are meeting our levied 
requirements, but also leveraging that real-world experience.
    Mr. Wittman. Thanks.
    Colonel Beaudreault.
    Excuse me. [Laughter.]
    Colonel Beaudreault. Congressman Wittman, as a tactical-
level school that touches on the operational, we are very much 
responsive to the needs of the operating forces and it goes 
into Chairman Snyder's earlier question that the feedback we 
receive from the operating forces on whether we are hitting all 
the points that we need to at the courses is really driven by 
the demands there.
    How do we respond to that?
    We have a current operating environment module that takes 
place every spring. The beauty of Quantico is the co-location 
of our school with Marine Corps University, with the Center for 
Advanced Operational Culture as well as the Marine Corps Center 
for Lessons Learned is headquartered out of there.
    The immediate feedback from the Lessons Learned Center as 
well as information that may be flowing from Helmand Province 
or still in Anbar Province will get worked in to the current 
operating environment module to make sure that we are teaching 
relevant information that is going to arm and equip them as 
soon as they walk out the door in May.
    Certainly, the Commandant's guidance gets fed in to our 
content review, which goes annually at the end of the academic 
year, and at the end of--we have five major modules of 
instruction--at the end of each module, there is a curriculum 
review that takes place as is there a comprehensive curriculum 
at the end of the year that gets, again, approved by Marine 
Corps University for any major changes in curriculum.
    Combat performance, sir, in sum, is the number one driver 
of whether Expeditionary Warfare School is hitting the mark or 
not on what we produce.
    Mr. Wittman. Okay. Thank you, Colonel Beaudreault.
    General Born.
    General Born. Thank you, Member Wittman.
    Our process that I talked about earlier is moving towards 
aligning with how do we best meet the needs of our Air Force. 
And, again, I mentioned the institutional competency list and 
also to receive a bachelor of science degree with a liberal 
education foundation, what kind of skills, knowledge, 
responsibility should our graduates have?
    From a very macro perspective, what we are trying to 
embrace in an effective, efficient way is a learning-focused 
culture, learning organization, which starts first with what is 
it that we are trying to achieve, and then how do we go about, 
what kind of program or lesson do we go about to embed that 
learning outcome?
    Then, how do we assess? Is the student getting it? Is our 
program delivering, and then feedback that to the system in 
order to adjust that learning activity or to adjust the program 
objectives overall.
    So, from a multiple-level perspective, I will answer at our 
institution we also have an institutional effectiveness program 
that will look at whether or not we are achieving that loop and 
closing that loop. We, fortunately, just received our 
accreditation, and that is what they look at.
    They look at what you say you are about as an organization 
to meet your customers needs, and are you effectively 
demonstrating that you are achieving that.
    So, that is one way, but all the way down to the lesson 
level, that same loop is involved. And so instructors spend a 
lot of time. And when you have 70 who deploy in a year, they 
bring back that so what, how do I embrace a learning activity 
that is going to achieve that strategic thinking or critical 
thinking outcome?
    Our curriculum process is very similar. We have emerging 
recommendations on changes to close gaps that come through 
departments and their individual courses in the core 
curriculum, but they also can come through our junior faculty 
forum or through our faculty forum. They can also come through 
from external recommendations, which we evaluate and, 
ultimately, must be approved as our program at our Academy 
Board level.
    Mr. Wittman. General Finnegan.
    General Finnegan. Congressman Wittman, as at the other 
academies, our assessment process is continual. We have an 
Assessment Steering Committee, we have a Curriculum Committee 
that meets regularly during the year to evaluate these things.
    And much of it for us comes from our faculty, both our 
permanent faculty and our more senior military faculty who 
deploy. We have had more than 300 faculty members deployed 
since 9/11. In fact, right now we have several of our senior 
faculty members who are on General McChrystal's staff and 
others who are on General Odierno's staff for 6- to 12-month 
periods.
    So they will come back and help with that.
    The other aspect of the faculty that is great for us is 
that our rotating military faculty, which makes up 60 percent 
of our faculty, all of them have been deployed, many, multiple 
times. So they come from their graduate school program, recent 
experience in the Army, and they talk to us about adjustments 
to the curriculum as well.
    We have made some significant adjustments overall since 9/
11, added two minors, one in terrorism, another in regional 
studies, added majors in nuclear engineering and chemical 
engineering because of nuclear and biological threats.
    And in response to the first part of your question 
concerning requirements from DOD or JCS, we had the DOD 
Language Transformation Roadmap a few years ago that asked us 
what we were doing about cultural immersion and language 
proficiency and directed us to increase our programs.
    And what we did was, up to that point, every cadet had to 
take one year of a foreign language. We thought that that 
probably was inadequate, so those cadets who major in 
humanities, now, are required to take two years of a foreign 
language. Those who major in math, science and engineering 
still take one year of a foreign language.
    But the first year of that language, whether you are doing 
one year or two years, is now taught five days a week so that 
it is sort of a mini-immersion experience.
    In 2001, we had two cadets who spent a semester abroad in 
France. Last year, we had 142 cadets who spent a semester 
abroad in 14 different countries. In 2001, we had 126 cadets 
who went to 25 countries over the summertime. This year we have 
560 cadets going to 70 different countries.
    So we are increasing both language proficiency and cultural 
awareness because that is clearly something that our Army needs 
right now and that our graduates need.
    Dr. Snyder. General Born, in your written statement you 
talk about the percentage of military versus the percentage of 
civilian faculty. There has been some criticism of the Air 
Force Academy, however, that in that your civilian, significant 
numbers of them are actually retired military.
    The report that came out several years ago, the Larson 
Report, discussed that issue, but there doesn't seem to be any 
movement by the Air Force Academy in terms of looking at that 
issue. What is going on?
    General Born. Sir, the question with regard to mix of the 
faculty and the Larson Report, our ideal composition in 
response to the Larson Report was 25 percent civilian and 75 
percent military faculty, and we have risen to about around 30 
civilian faculty and about \1/3\ of those faculty are retired 
military.
    We have tried to hire nationally based on our 
advertisements in the Chronicle of Higher Education and select 
the best qualified. And we try not to, in our processes, 
advantage military or disadvantage military, retired military.
    We haven't set a floor or a ceiling, but we monitor to see 
the extent that our civilian faculty positions are retired 
military. Right now, the blend is a wonderful blend in terms of 
having the pure civilians, many whom have been with us since 
1992 when they arrived, which shows their tremendous commitment 
and dedication to the mission.
    We have a nice blend with our military faculty who are 
providing a little bit more of the operational perspective, and 
with the turnover that we have, and I think, arguably, we 
probably--matter of fact, I think we can demonstrate, we had 
the highest rotation of faculty--having a core of our civilian 
faculty as retired military actually helps us achieve our 
mission where they have a balance of both their military 
experiences as well as their advanced scholarship.
    Dr. Snyder. When you make the comment, you didn't think 
that people should be advantaged or disadvantaged by being 
former military, but, I mean, I am not sure why not.
    I mean, if you make a decision that you want so many 
percentage to be pure civilian so they may come from a life of 
being a retired State Department, being a retired physician who 
worked in third-world countries or whatever, I don't see that 
you are somehow drawing some ethical line in the sand to say we 
want a blend of people who are pure civilians.
    So I mean, you were criticized by the Larson Report, and 
the criticism still stands, I think. But those numbers, by the 
way, we have votes going on, so Mr. Wittman and I are going to 
have to leave here for a little while and then come back.
    But, General Finnegan, what is going on with budget cuts 
with regard to faculty and staff and where are you at with 
that?
    General Finnegan. Sir, the Army is facing budget cuts and 
personnel cuts in what we call the ``institutional Army'' in an 
attempt to help build up the ``operational Army,'' those forces 
that are actually fighting.
    The Army is undergoing a total Army analysis, and it looks 
like we may face a minor personnel cut on our military staff.
    Dr. Snyder. So, is what you are saying is, essentially, 
that slots that you all have are being shifted for operational 
slots?
    General Finnegan. Yes, sir. Yes, Mr. Chairman, that is 
correct.
    Dr. Snyder. Now, have you actually had some cuts already?
    General Finnegan. It is not final yet. We are undergoing 
the process right now. The Army is trying to decide. The latest 
news we have is that the cuts will not be severe, but there 
will be some cuts.
    Those we can withstand. It will be more difficult because 
we are continuing to bring in larger-size classes as we grow to 
a corps of 4,400 from 4,000.
    If we combine those with budget cuts, though, that causes 
significant issues because one way to make up for some small 
military cuts is to hire additional civilian faculty, but that 
causes pressures on your budget because the largest part of my 
budget, the dean's budget, is the hiring of civilian faculty.
    So, if we combine personnel cuts on the military side with 
budget cuts overall, that will have a significant impact on our 
faculty.
    Dr. Snyder. So there is not a one-to-one offset?
    General Finnegan. No, sir.
    Dr. Snyder. Colonel Beaudreault, you refer to it in your 
written statement about the issue of laptops and where you are 
at with laptop computers. I am confused, I think, because, I 
mean, I would think that that is a pretty basic thing in an 
academic environment or some kind of teaching environment.
    I remember Dick Gephardt, when he was here, he told me a 
story--it was quite a few years ago, now--and he made some 
speech about, you know, how there was going to be funding for 
these computer labs in every school and, afterwards some guy 
came up and said you politicians are so stupid, so stupid. And 
Gephardt said what do you mean?
    He said well, let me ask you a question. When you were in 
school, did you have a pencil lab? Did you go down once a week 
for an hour and they give you a pencil and you would use your 
pencil for an hour and that would hold you for that week?
    I mean, aren't we past the point where we think that having 
a laptop computer for a student is a luxury? I mean, shouldn't 
that be more important than a whole lot of other things at your 
school, and in your statement, you say only three of your 15 
conference groups are going to have laptops.
    That is like saying a grade school 30 years ago, 40 years 
ago, 50 years ago didn't get a pencil, isn't it?
    Colonel Beaudreault. Yes, sir.
    Some of the----
    Dr. Snyder. I mean, how much total money are you talking 
about to get additional computers for 12 more conference 
groups?
    Colonel Beaudreault. Mr. Chairman, the money, I think, is 
out there through Marine Corps University or Training and 
Education Command.
    Part of our challenge right now is the infrastructure of 
the building in terms of being able to plug those computers in 
to a network that can support 15 conference groups at 16 
students each, 15 to 16 students each to be able to tap in.
    So what we need to do first is modernize the infrastructure 
of the building----
    Dr. Snyder. Does that mean that the money is out there for 
the computers but it is not out there for the infrastructure?
    Colonel Beaudreault. My understanding is the money is 
available for both ends of the project, sir.
    So it is in the works. In fact, it is an ongoing issue. We 
are having a discussion with the Marine Corps University at the 
moment. Money may come through through Training and Education 
Command or Marine Corps University may want to stagger it out 
over a period of two academic years.
    We are going to have to see, only because once the 
infrastructure starts to get laid into the building, it could 
become very disruptive to the ongoing instruction we are trying 
to provide during the course of the academic year.
    So we need to find how long is the project going to take 
and when is the best time to do it. But I think the money is 
out there to actually make it happen.
    Dr. Snyder. It just seems like that is a pretty basic 
thing.
    I can't remember what it was, six or eight years ago or, 
the committee had a private meeting with some special-ops guys 
just to show us their equipment. And of course, you know, it is 
the weaponry and the protective stuff.
    But, anyway, one was the guy's laptop, and I always 
remember the special ops sergeant said--who had done missions 
overseas--said you know it is going to be a bad day when your 
Microsoft Outlook won't open. [Laughter.]
    And I don't think that was ever a line from a John Wayne 
movie, you know? [Laughter.]
    But, you know, if there is a way that we can help on it. I 
mean, this seems like pretty basic stuff. I mean, when you are 
putting in a written statement to Congress that you are proud 
of the fact that you have got three of the 15 with computers 
when that is as basic as a pair of boots for guys going in the 
field, I mean, as basic as that.
    I think, Mr. Wittman, we probably better----
    Mr. Wittman. Yes.
    Dr. Snyder [continuing]. Better go.
    And if you all don't mind waiting here, they assure us it 
is five votes. The first one is about done, and then the next 
four are two-minute votes, which, in Congress time, is probably 
about four minutes, but I don't think it is going to be 
terribly excessive.
    If it looks like it is, we will let Dr. Fenner know, if 
that is all right.
    We will be in recess.
    [Recess.]
    Dr. Snyder. Those were the last votes for the day, so we 
will be uninterrupted.
    Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    I will just ask a simple question and we will go down the 
line.
    General Born, can you tell me, how are ethics taught at the 
academy?
    General Born. Thank you, Member Wittman.
    Ethics is a part of developing leaders of character, and we 
have 1 of our 19 outcomes we talked about earlier is ethical 
reasoning and action. All of our program is really oriented to 
develop cadets over four years in ethics and integrity.
    We have a robust character development program that really 
is a synergistic activity, both for our cadets, but also for 
our permanent party. We have a statement that says we really 
graduate two classes every year.
    One of them is our, obviously, our second lieutenants 
entering into the Air Force, and the other is our rotational 
faculty, up to \1/4\ or \1/3\ that go back out into the 
operational Air Force. And so the character development is for 
all.
    And we also have an ethics across the curriculum thread 
that leads to that one outcome to have specific experiences.
    For example, we have four character-development programs 
over the four years that are graduation requirements, and they 
are aligned with our officer-development system which starts 
with focusing on personal leadership development, values, 
attitudes, and then it goes to an interpersonal level in terms 
of respect and dignity as you have an interpersonal 
relationship and coaching and mentoring others, and that is for 
a sophomore level.
    Then one at the team level, which is for our juniors where 
they start to take on team leadership roles within their 
squadrons and then, again, as seniors and more of an 
organizational level, how do you align, now, an ethics program 
within the organization and Air Force?
    And we have mentors and facilitators that come in too and 
provide ethical dilemma examples, case studies, if you will, on 
how they can reflect upon some of the challenges that they may 
have.
    That is also integrated across the four years with our 
thread towards the ethical development in our courses. And, you 
know, we start as a fourth-classman and again throughout their 
curriculum, along with some of our other programs, and we have 
embedded assessments throughout there to see are we meeting the 
target for you as a student, but also so we can assess a class 
or at the institutional level overall.
    But, I guess the final answer is that developing leaders of 
character is really what every single member at the United 
States Air Force Academy is really there for and focused on in 
our student population, but to have our students develop, we 
are also developing along with them.
    Mr. Wittman. Thank you.
    General Finnegan.
    General Finnegan. Congressman Wittman, it is very much a 
similar answer. Ethics is embedded throughout our curriculum.
    We have a Simon Center for Professional Military Ethics, 
which runs our overall ethics program. There are classes that 
begin as early as this summer with the new cadets who are there 
now and continue throughout the four years.
    They are taught some by the tactical officers and tactical 
NCO's who are assigned to each company, but about 300 of our 
academic faculty, as an additional volunteer assignment, teach 
those ethics classes during the year as well.
    It culminates in their senior years, their first four 
years, with a new course we have, MX-400, which is a 
combination of a military science course and a combination of 
integration of many of the topics we have had that particularly 
focuses on ethics and ethics on the battlefield.
    One of the centerpieces of that is the Battle Command 
Conference that we have each year, and this past April we 
brought about 300 junior officers and NCO's back from the Army, 
mostly from very recently deployed or about-to-deploy who spent 
2 days, 2\1/2\ days with all of our seniors talking to them 
about small unit operations, but particularly the moral-ethical 
aspects of those that are so central to what we are doing now.
    We also have, as an adjunct to that, a Robust Law of Armed 
Conflict program that starts in their summer training before 
their sophomore year. We have just undergone that. We integrate 
problems into scenarios there. We teach the classroom 
instruction in it and then continue to integrate that into 
summer training aspects as well.
    Mr. Wittman. Great.
    Captain Klunder.
    Captain Klunder. Yes, Congressman Wittman.
    It is clear with my other panel members that this is 
absolutely a cornerstone of what we believe in at the service 
academies and other schools. And I mean, truly, it is what sets 
us apart from other institutions in this great country of ours.
    I will offer as a small anecdotal little piece, it is clear 
that the rest of the country is catching on to how important 
this is and what we do and how we lead young people in this 
great world, and that, this last year, we had a leadership 
conference with the Naval Academy and we had 33 representatives 
from other institutions and civilian colleges and organizations 
around the country that attended that. That was the largest 
number we have had, ever.
    So, again, we are very happy with that. Now, particular to 
our institution, we find that it is not only in an academic 
environment study. We are clear in our four-year development, 
just like General Born described. It is a four-year progress in 
the academic world, but it is also something that we feel very 
strongly in the practical, more on-the-job training (OJT) kind 
of environment.
    What we teach in the academic classroom I must absolutely 
adhere to and practice in the Bancroft-Hall, everyday 
environment when we lead young people.
    So I own that, and that is very near and dear to my heart 
and I am very passionate about honor, integrity, ethics. It is 
something we stand for. Not only academic and OJT practical, 
but we will bring guest speakers from all over the country. We 
have seminars. We have senior mentoring. I have a great, very 
short story.
    There was a young man that was having a little difficulty, 
wasn't quite getting the picture on what it really meant inside 
here and up here. We had a senior mentor--it just happened to 
be General Peter Pace, who is a great graduate from my 
institution--and we said, General, would you like to take this 
one on? He said, you bet.
    So, we had a young midshipman talking to a senior four-star 
marine general about mentoring. It was a total success. He got 
it. But I offer that small example as we will go to any lengths 
we can to try and inspire our young people in this kind of 
field.
    Again, I know General Finnegan has alluded to his center. 
We have the Stockdale Center for Ethical Leadership. This is 
hugely important to us and I think I will leave it at that, 
sir, if that is okay.
    Mr. Wittman. Thank you.
    Captain Klunder. Yes, sir.
    Mr. Wittman. Thank you.
    Colonel Tanous.
    Colonel Tanous. Congressman Wittman, as has been stated 
before, ethics is weaved into everything that we do and we have 
got short courses, but that doesn't relieve us of the 
responsibility to address this in its entirety.
    And I will just tell you from the time they come into the 
Air and Space Basic Course as a lieutenant until the time they 
leave Squadron Officer School as a captain, in both courses and 
in the distance learning courses as well, we focus on the core 
values, in particular, and ethics, specifically.
    And, in fact, one of the things that we rely on to kind of 
guide how we emphasize that is the institutional competency 
list that the Air Force provides and there are four in 
particular for instance for SOS, decision-making, developing 
and inspiring others, building a team, and ethical leadership.
    So we focus on those four in particular for Squadron 
Officer School and rely on that and the underpinnings of the 
Air Force Doctrine Document 1-1, because that basically tells 
Air Force officers how to act. And so we try to instill that 
throughout the entire course.
    And the same is true for the Air and Space Basic Course. We 
try to talk to the young lieutenants about their distinctive 
roles as airmen in society, the standard that we hold them to. 
We talk to them and we give them, essentially, situations, case 
studies where they can talk about what it means to act in 
certain ways and in certain situations so they have to actually 
think about it.
    It is not just a one-way dialogue from the instructor 
saying, okay, we all need to be ethical.
    What I try to encourage them to do is think larger than 
themselves, put themselves in the position of their supervisor 
or their commander having to deal with a specific situation. 
That is the model we are trying to go to where they have to 
think about the second- and third-order effects of their 
decisions.
    And, so, using that model, we are trying to put that in 
place where in each and every instance, they can think about 
the ethical ramifications of any action that they take.
    So, regardless of the block of instruction, we have managed 
to weave that into almost everything that we do with the guest 
speakers, with the guided discussions, with the case studies, 
and we have been very successful.
    Mr. Wittman. Great, thank you, Colonel.
    Colonel Beaudreault.
    Colonel Beaudreault. Congressman Wittman, very much the 
same answer as the previous that you have heard.
    The leadership and ethics is one of the three subsets of 
what we call our Professional Studies Program and that is 
threaded throughout the blocks of instruction throughout the 
year. Primarily, we will use guest speakers. We do have small 
group discussions mentored by the majors who have been company 
commanders in combat.
    We do bring in Colonel Art Athens, retired, who is with the 
Stockdale Center from the Naval Academy. We use speakers and 
Ph.D.s from over at Marine Corps University to augment our 
instruction. It is vignette-based training. It is woven into 
tactical decision-making exercises.
    So, primarily, and also case studies. This particular 
academic year, Rwanda will be the major case study that 
students will get into on that. But that is the primary means 
we use, sir.
    Mr. Wittman. Thanks, Colonel Beaudreault.
    Thank you, Mr. Chairman.
    Dr. Snyder. Let us see. Colonel Tanous, I wanted to ask 
you, as you know, most of the work done in the Congress is done 
by the staff and so we have had some preliminary discussions, 
both I think with you all and with the students and so on in 
all the institutions.
    We got some feedback that, not because of the atmosphere of 
your institution, but because of where the Air Force or how the 
Air Force values these positions that there are some faculty 
members who think that being assigned to the faculty at your 
place is not a help for their career. In fact, some of them see 
it as a hindrance.
    What are your thoughts about that?
    Colonel Tanous. I think, sir, if you ask some of the 
instructors what they think when they come in, you get a 
different answer than what----
    Dr. Snyder. When they leave?
    Colonel Tanous [continuing]. They say when they leave.
    Dr. Snyder. Well, that is a good point.
    Colonel Tanous. So, I think because they are coming from a 
position of ignorance, for lack of a better term, because they 
are not sure what they are getting into, all they know is they 
are leaving their operational career track and walking into a 
different environment, one that they are not familiar with. 
They are not sure what the expectations are. There is probably 
a little hesitance on their part to dive in fully.
    And if you ask them, you know, is this going to be a help 
or a hurt, you are going to get an answer that is going to be 
different than when they leave.
    And I think a lot of that is just due to the fact that one 
is when they realize the impact that they make on an entire 
generation of officers during their time as instructors, that 
gives them a sense of satisfaction that they probably didn't 
anticipate when they got there.
    The other thing is they have the same opportunities to 
excel in their position that they have everywhere else, and I 
think once they have been there for a while and they understand 
that, essentially, we operate as a small wing, for lack of a 
better term.
    I walked in there as a graduated wing commander from 
Vandenberg and that is kind of how we treat it. We have got two 
schools that we treat as groups, and we have got the small 
number of folks that provide infrastructure for it.
    And, so we give them that same environment that they would 
see in the operational Air Force in terms of----
    Dr. Snyder. There may be some value, and you may have 
already done this in doing a little survey, like, you know, 
what you like if all of you track your students to see where 
your faculty members from the last three or four years have 
ended up and how they view it in their career now. That may be 
helpful.
    Because the issue for me is if there is that sense, I mean, 
you know how the military is. It is one big rumor mill, and you 
want people to be applying for these jobs and excited about 
being there, and so if there is an unjustified sense among a 
few of your faculty then it may be helpful to deal with that.
    I wanted to ask for our three Academy folks, would you 
spend a minute, each of you, just talk about, in terms of 
financial resources, what role nonprofit foundations, nonprofit 
support, you know, the non-governmental money helps.
    General Finnegan, let us start with you just to give 
General Born a rest.
    General Finnegan. Mr. Chairman, we have the Association of 
Graduates, which is our main nonprofit organization----
    Dr. Snyder. Association of----
    General Finnegan. Association of Graduates----
    Dr. Snyder. Graduates. Yes.
    General Finnegan [continuing]. Which is our alumni 
association, and one of the main purposes is to do fundraising 
to supplement appropriated funds.
    What we consider them to do is what we call ``margin of 
excellence'' activities. So the private fundraising that they 
do allows us to have, for example, some cadet clubs that we 
might not have using appropriated funds, the Model U.N., the 
debate team are funded largely with those private donations.
    Many of our overseas summer experiences are funded through 
private dollars. We get some appropriated funds for that, but 
many of them are funded through the MacArthur Foundation and 
other fundraising that is done by our fundraising arm, the 
Association of Graduates.
    So, we just built a brand new library, Jefferson Hall 
Library and Learning Center, that had about $60 million of 
appropriated funds, but to enhance some of the architectural 
parts and some of the interior parts of the library, we used 
about $5 million of private funds raised through the 
Association of Graduates.
    Dr. Snyder. Captain Klunder.
    Captain Klunder. Yes, Chairman Snyder.
    We are very pleased with working through OPNAV and CNP. 
Right now it is Chief of Naval Personnel is our resource 
sponsor. We do requests through him in that position, and we 
are very pleased that all of our appropriated dollar requests 
have been met, and we expect them to be met for the next year.
    So, again, that is a good thing.
    The aspect of the 501(c)(3) funds, or in this case, just as 
General Finnegan stated, the Alumni Association and Foundation 
is what we call it, and believe it or not, we use the exact 
same term, the ``margin of excellence.''
    And what we have done there is to take those over-and-above 
requirements that we have established with our OPNAV and our 
Chief of Naval Personnel resource sponsors, those things that 
will really give us that extra value-earned kind of capacity in 
that global world, the international world. And in many cases 
it goes to exactly what General Finnegan stated, international 
travel, international immersion programs, things that have 
great value, and we do get some appropriated dollars for.
    I don't want to make it sound like this is all through 
501(c)(3). But they assist us in those means. So we found that 
to be very, very helpful.
    And in that regard, obviously economic standings does 
impact that, but we are very pleased, again, that our Alumni 
Association and Foundation works very closely with us on 
aligning those potential ``margin of excellence'' areas where 
they can help us, and they have done that.
    Dr. Snyder. General Born.
    General Born. Yes, we have an extra ``margin of 
excellence'' in addition to really good support for the program 
from our Air Force. We have several foundations that do 
contribute to allowing us to do some things that we aren't 
allowed or don't do with our appropriated funds.
    The extra ``margin of excellence,'' an example is we 
actually have an Academy Assembly Program that is about ready 
to launch in October that is looking at building a bridge from 
war to peace and interagency role in terms of rebuilding 
nations.
    And in order to put that program on, we use a combination 
of some appropriated funds, but a majority from a gift in order 
to bring in top-name speakers, et cetera.
    We have a lot of our programs that are in our athletic 
departments through our Air Force Academy Athletic Association, 
which I think contributes almost 50 percent of what we are able 
to do through our athletic programs.
    So, it is an extra ``margin of excellence.'' I think what 
all of us would say is similar to higher education. We are 
seeing some reductions in endowments. And so that extra 
``margin of excellence'' is going down. And as you have heard 
from others, some are experiencing appropriated downturns as 
well, so that will impact our programs.
    But right now, it adds a lot of opportunity for our cadets.
    Dr. Snyder. Before we go to Mr. Wittman, I will have, 
probably, some questions for the record probably for all of 
you, particularly for you, General Finnegan.
    I need to understand better. We need to understand better. 
We need to understand better the specifics with regard to what 
you refer to as budget cuts. I need to understand exactly what 
monies you are talking about and what accounts and what is 
that.
    Mr. Wittman.
    Mr. Wittman. Mr. Chairman, I am out of questions.
    Dr. Snyder. Okay. All right.
    General Born, I had a couple of more questions for you. You 
mentioned, I think in both your written and oral statement, 
about the manpower study that said that you are 21 percent 
behind, and is that in terms of faculty?
    And if that is right, what does that mean, number one, how 
are you responding to it? Number two, what does 21 percent mean 
in terms of actual . . . if you wanted to fulfill that, what 
would that mean in terms of enhanced budget. And my guess is 
that that is kind of an ideal world of academics that you 
really don't think that you, for the last 50 years or so, have 
been operating 20 percent behind.
    But how did you get behind? Do you agree with the 
conclusions of the study? What are you all doing about that? 
What does that mean in terms of money, budget process, 
everything like that?
    General Born. Chairman Snyder, the good news is, and this 
is really validated recently in our 10-year accreditation, 
because they do look at resources, and are you resourced to be 
accredited and to continue in the direction you are, and from 
that they said you are meeting your mission.
    The Manpower Study is actually working its way through 
corporate Air Force right now, but, primarily, what I think 
they identified is that we have had a reduction in our military 
manning that is similar to a reduction in overall Air Force 
authorizations and manning----
    Dr. Snyder. This is part of the Air Force's--over the last 
several years, they had this plan of reducing----
    General Born. Yes, sir.
    Dr. Snyder [continuing]. 3,000, I think, personnel to find 
money for platforms and so on and they backed off that. Was 
that part of this?
    General Born. That is correct, sir.
    And we have also added mission, and I think we have taken 
on additional roles with regard to deployments. And when you 
have 70 faculty members who deploy, right now we have 28 
deployed, and 13 of those are a ``365,'' which is a full-year 
deployment.
    And so that has an impact in terms of what you need in your 
authorizations in order to support something that is also an 
important mission, but it is an additional mission.
    A lot of what we are doing also in terms of our character 
development programs we are doing by using our permanent party 
who are basically doing additional mission for the right thing. 
So, we have a heavily worked faculty, and I think there is a 
lot that moves into private time--research is one of those--
that keeps an educational program rigorous and innovative and 
is a benefit to our students.
    And I think a lot of the faculty are finding time to do 
that on their own time. But we do a lot of grading and a lot of 
other things at home.
    But the good news is we are meeting mission because we have 
the dedication of people who believe in the mission and who are 
dedicated to what we are working to accomplish.
    There is an additional workload I think all of us take on 
with regard to other requirements with the way that we have 
streamlined technology, and that is a choice we have made in 
terms of doing our own travel and doing everything online and 
then that is additional.
    We volunteer to participate in, you know, dorm patrol and 
duties like that. So, I think that it is additional mission, 
and we probably need to look internally at where we have high-
impact practices that are making a big difference and where do 
we need to prune a little from things that maybe aren't as 
central to achieving our mission and vision.
    Dr. Snyder. When you said that study is working its way 
through corporate Air Force, will there be some kind of public 
result come out or will it just be reflected, hopefully, in the 
budget process? Is that what you anticipate would happen and--
--
    General Born. Yes, sir. That is our approach right now is 
we are actually starting to already work the budget process 
through our Air Force in addition to looking at ways that we 
can streamline our own efficiencies at the academy.
    Dr. Snyder. If you get something back, General Born, that 
is some kind of a formal result after that gets worked through 
the Air Force, I would appreciate if you would share it with 
Dr. Fenner and the staff. And it might be helpful to us as we 
look at defense bills and budgets.
    I wanted to ask you one other question, General Born. On 
page eight of your written statement, you talked about creating 
a ``learning-focused environment,'' and this probably doesn't 
have much to do with the topic today, but would you describe 
for me what does that mean compared to what you were doing 
before?
    I would think most would say, I mean, is that a term of 
art, a ``learning-focused environment''?
    General Born. Chairman Snyder, I think we have always been 
in the business, also, of developing leaders of character, but 
what we have learned over the years is how people develop and 
how we can become more effective at how we do that.
    I would say that a learning-focused culture is somewhat 
very similar.
    Teaching and learning come from the same root word and if 
you hold the word ``teach'' in a mirror, it is a reflection of 
``learn.'' But the difference is that it is really focused 
primarily on what is the student learning, and teaching is a 
very important role in that.
    But it is outcomes-based and it is laying specifically out 
in a lesson or at the institutional level what it is we are 
trying to accomplish, how are we going about accomplishing it, 
what is our evidence that shows that we are accomplishing that 
mission, and then how are we closing the loop and feeding that 
back into changing something because we have identified a gap 
or we have identified a best practice that we can capitalize 
on.
    Learning focus is adaptable. It is agile, and it is all of 
what I believe this committee is focused on.
    Dr. Snyder. Yes. That is helpful.
    Colonel Beaudreault, you may know that I have a special 
affection for the Marine Corps since I spent 21\1/2\ months--
not years, months--with a 2-year enlistment many years ago, and 
so I hope you didn't feel like I was beating you up about the 
computers.
    Many, many years ago, back when I was a young man in 
Vietnam, and I was not a grunt in Vietnam, but one of my 
friends who was, he said, we just got so tired as marines 
watching all the Army Hueys flying over, and they would make us 
walk.
    You know, it is the thing about equipment for the Marine 
Corps. [Laughter.]
    It has always been an issue. So, I think I am probably 
reflecting one incident that happened to one of my friends 40 
years ago.
    But maybe it would be helpful, Dr. Fenner. This is July. We 
will be back here after the first of the year in January. 
Sometime that third or fourth week of January, why don't we 
plan on driving to Quantico and do a computer count. 
[Laughter.]
    And we will see how the infrastructure looks. We will take 
along our laptops and see if we can get into your system, if 
that might be helpful.
    Mr. Wittman, do you have anything further?
    Mr. Wittman. Nothing further.
    Dr. Snyder. We appreciate your time. There will be some 
questions for the record, but you should also look on those as 
opportunities to share with us any clarifications or additions 
or anything else you want to share with us either formally. Or 
if you want to pick up the phone and just call the staff, we 
would appreciate it. But this has been helpful today.
    We are adjourned.
    [Whereupon, at 4:30 p.m., the subcommittee was adjourned.]



=======================================================================




                            A P P E N D I X

                             July 15, 2009

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             July 15, 2009

=======================================================================




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             July 15, 2009

=======================================================================

      
                   QUESTIONS SUBMITTED BY DR. SNYDER

    Dr. Snyder. Please elaborate on how efforts to gain efficiencies 
within the USAFA budget and to streamline it to high impact areas of 
the mission within the budget will affect institutional decisions? What 
will be targeted for cuts or reductions?
    General Born. Operating efficiently and effectively is one of our 
seven Strategic Goals at USAFA: Obtain and manage resources for our 
mission activities by maintaining effective institutional investment 
strategies and management processes. Efforts to gain efficiencies at 
USAFA is a multi-phased endeavor to include:

    1)  Quarterly Financial Working Group (FWG) and Financial 
Management Board (FMB) meetings which approve budgets, execution plans, 
and revisions. The FMB, chaired by the Superintendent, also distributes 
annual funding, prioritizes Mission Element requirements, and ensures 
consistency with programs to meet USAFA mission priorities.

    2)  Performance of statistical historical analysis of program 
spending during Execution Plan and Initial Distribution drills. USAFA 
has tracked historical spending and funds distribution since 2001 using 
this data to derive/update mission requirement execution and one-time 
expenses.

    3)  Programming and analysis of new mission requirements or re-
aligning resources during the Program Objective Memorandum (POM) and 
Amended Program Objective Memorandum (APOM) drills. The impacts of 
these drills are deliberated by the Management Integration Team (MIT) 
and approved by the Senior Steering Group (SSG), USAFA's Corporate 
Structure representing all Mission Element leadership.

    4)  In FY09, USAFA's contracting office put forth an aggressive 
plan to streamline all ``like'' contracts across the academy into a 
single contract award. This has essentially eliminated multiple vendors 
performing the same functionality for multiple organizations and saved 
manpower in the process. Due to this approach, contract awards across 
USAFA decreased from nearly 3,000 in FY08 to 1,500 in FY09.

    In addition to these efforts, within our curriculum we impress upon 
cadets their future role in the budgetary process and their need for 
careful decision-making. For example, the programs offered by the 
Center for Character and Leadership encourages cadets to internalize 
the Core Values and the Honor Code so they will graduate as officers of 
character with the moral foundation to be good stewards of resources.
    Dr. Snyder. What will be targeted for cuts or reductions?
    General Born. The Air Force Academy has experienced an increase to 
our baseline for desperately needed renovation and modernization and to 
improve cadet programs across the Mission Elements. USAFA is positioned 
to execute these resources in the most efficient and effective manner. 
If forced to take cuts or reductions, the following effects will be 
felt across the institution.

    1)  A reduction in funding for construction project designs and 
facility restorations already in the progress via the ``Fix USAFA'' 
initiative. Potential funding cuts would delay projects, degrade cadet 
standard of living and could affect recruiting efforts in future years.

    2)  Faculty continuation training for accreditation would be scaled 
back from the higher education standard of one developmental education 
experience per faculty member per year to one experience per faculty 
member every other year.

    3)  Cadet travel to present papers they have written would be 
decreased as would be their ability to attend summer research programs 
not funded by sponsoring agencies.

    4)  Academic materials would be scaled back forcing cadets to 
share, or perhaps purchase their own supplemental materials.

    5)  A reduction in funding could lead to cadets not meeting the 68-
days of summer ops training goal due to a reduced number of 
opportunities available for program participation.

    Dr. Snyder. Please explain how the ongoing manpower study at the 
USAFA is affecting staffing decisions?
    General Born. The ongoing manpower study at USAFA is a 
comprehensive study by the Air Force Manpower Agency (AFMA) looking at 
manning requirements in all mission elements. The USAFA manpower study 
has produced four completed efforts thus far: the Center for Character 
Development which resulted in an increase of six positions funded 
effective 1 Oct 09; the Preparatory School which resulted in an 
increase of 14 positions, three of which are funded effective 1 Oct 09; 
the wing Anti-Terrorism Office which resulted in an increase of one 
position which was funded effective 11 May 09; and the History Office 
which had no change. There are 11 other individual studies covering a 
total of approximately 1,200 positions in various stages of staffing 
and development.
    One of those individual studies still in the staffing and 
development stage includes the Dean of Faculty manning authorizations. 
The initial outbrief from the AFMA team conducting the on-site study 
validated our need to increase the faculty and staff by 21 percent (149 
positions) to meet our current mission requirements. However, the final 
report still needs to be approved by AFMA and AF/A1 before we can begin 
the budgeting process to increase our manning authorizations. Due to 
this lengthy process, we anticipate this manning shortfall will 
continue in the near-term.
    To help alleviate some of the near-term needs, we are exploring 
several initiatives, including adding enlisted authorizations across 
the Dean of Faculty.
    Dr. Snyder. Is the USAFA planning to assign a non-commissioned 
officer to each academic department to assist in managing 
administrative demands?
    General Born. We're currently examining the feasibility of 
assigning enlisted personnel to academic departments in both 
administrative support and laboratory technician roles. There is a 
precedent--there were 83 enlisted authorizations in the Dean of Faculty 
organization in the late 80's and they're down to 14 today. Though the 
AF endstrength in the 80's was significantly higher than today's, we 
believe increasing the number of administrative support and laboratory 
technician personnel merits consideration. After analyzing and 
establishing a baseline requirement, we'll work with our Director of 
Manpower and Personnel to validate those requirements and develop a 
funding strategy.
    Dr. Snyder. The JCS Chairman's Officer PME Policy includes a 
requirement for each of the service chiefs to provide the CJCS with 
reports on the joint education programs at the pre-commissioning and 
primary levels. We want to know the significant findings and 
recommendations of your 2006 Report and whether you would anticipate 
significantly different findings and recommendations three years later?
    General Born. USAFA has never been tasked with a Joint Education 
Program Report. We have been alerted to the report by HQ AF/A1DO who is 
deciding a future course of action regarding whether USAFA should 
provide this information in the future.
    Dr. Snyder. Chairman Skelton is persuaded that the historical case 
study is a particularly good way to teach both history and strategy. Do 
you use the case study method, and if so, to what ends?
    General Born. We value case studies as student-centered scenarios 
that encourage active learning in many academic disciplines, including 
history and strategy. We also invest in the appropriate faculty 
development to fully leverage this learning-focused pedagogy. For the 
past twenty years, we have hosted experts from DoD (most recently in 
August 2009, Mr Reese Madsen, Chief Learning Officer for the 
Undersecretary of Defense for Intelligence) and academia (John Boehrer, 
Harvard), and sent faculty to a variety of case teaching and strategy 
workshops (Evans School at the University of Washington, Center for 
Irregular Warfare and Armed Groups at the U.S. Naval War College, the 
Johns Hopkins University's School of Advanced International Studies 
Strategy Workshop).
    In the Department of History, case studies are accompanied by 
substantial thought and consideration to bring the essential element of 
``context.'' We use historical case studies regularly to dig deeply 
into a given historical event, to demonstrate the importance of 
strategy formulation, as well as to assess critically the range of 
factors that must be considered when ``thinking strategically.'' Some 
of our courses can be considered whole case studies in and of 
themselves (e.g., our course on the Korean and Vietnam wars). While 
they can be effective instrument to learn history, they can also be 
potentially dangerous when they are studied without sufficient context 
and breadth or when approached with a predetermined agenda. Poorly 
selected or insufficiently understood case studies may not give clear 
lessons for current and future policy makers. History can be misused. 
Case studies require a nimble and nuanced approach to recognize the 
problems associated with any predictive quality. Nevertheless, when 
studied appropriately, a case study can wonderfully demonstrate the 
range of questions which shed light on historical and contemporary 
events. A range of case studies can help policy-makers develop the 
judgment to make suitable strategic decisions and to get a sense of the 
elements of strategy formulation. Historical case studies allow us to 
speak to the difficult concept of strategy outside the abstract.
    In the Department of Military & Strategic Studies, the focus is on 
teaching processes of strategy in different contexts. In both core and 
advanced courses, historical cases are compared to cases of potential 
futures, capabilities-based strategies to threat-based strategies, 
enemy-centric doctrines to population-centric doctrines, political 
goal-setting to culturally rational goal-setting, and so forth.
    In the Department of Political Science, historical case studies 
play a central role in political science pedagogy. Political science 
teachers use case studies to illustrate complex ideas, demonstrate the 
plausibility of systematically arrived at findings, and also to debunk 
erroneous conventional wisdom, all the while purporting that a single 
case alone does not establish the veracity of a perceived causal 
connection.
    As with other schools of management and business, the Department of 
Management frequently uses the case method because many professors 
believe it is the most practical and relevant way to develop student 
managerial and leadership skill sets. The case study method also forces 
students to decide what questions are most important and what the real 
problem in the case is. These are very valuable competencies for Air 
Force officers. In addition, students typically find the case study 
method to be a relevant, interesting, rewarding, and fun way to learn 
about ``real world'' applications of the things they are learning in 
class. We select cases that sharpen student analytical and 
communication skills by asking them to produce quantitative and 
qualitative evidence to support assertions made in case analysis.
    Dr. Snyder. It is concerning that there are only two required 
history courses within the USAFA core curriculum. Credit in American 
history is not required of all cadets, and credit in military history 
need not be achieved within a cadet's first two years of study. How 
will the USAFA remedy these concerns?
    General Born. The value of American History goes without question. 
In fact, during the past year, several different mechanisms have been 
considered for enhancing USAFA's coverage of American History. These 
include the possibility of adding an additional requirement to the core 
curriculum (i.e. American History); replacing an existing core 
requirement with American History; and enlarging the coverage of 
American History topics in existing core courses (e.g., appropriate 
courses in political science, military studies, literature, etc.). The 
Academy's preferred approach to remedying these concerns is to address 
them systematically through the comprehensive curriculum review process 
which is currently underway.
    With regard to ``only two required history courses within the USAFA 
core curriculum,'' it should be noted that there are only two 
disciplines--English and mathematics--for which there are as many as 
three required core courses. There are many other non-technical 
disciplines for which there is only one required core course (e.g. 
management, political science, economics, law). In the technical 
disciplines, there is only one required core course each in 
aeronautics, astronautics, and computer science to equip cadets with 
the knowledge and skills needed for service in the air, space, and 
cyberspace domains. To further put things in perspective, the 
distribution between technical and non-technical core course 
hemispheres is shown below with a slight edge given to non-technical 
(51 semester hours) compared to technical (45 semester hours).


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Dr. Snyder. Why do the Service Academies only award Bachelor of 
Science degrees? What would be the professional effect of offering 
Bachelor of Arts degrees in certain academic disciplines? What would be 
the professional effect of offering alternate tracks within Bachelor of 
Science programs that would be heavier on humanities and social science 
requirements?
    General Born. The Uniformed Services Code Title 10, Section 9353, 
only grants Academy Superintendents the authority to grant a Bachelor 
of Science degree. Therefore, a change to law would be necessary for an 
Academy to grant a Bachelor of Arts degree. However, there may be other 
problems with offering both Bachelor of Arts and Bachelor of Science 
degrees even if the law were changed. To offer a Bachelor of Arts 
degree involving significantly greater academic specialization in 
social science or humanities disciplines would represent a significant 
departure from USAFA's historic approach from an educational mission 
premised upon developing generalists with a strong technical 
background.
    Since its inception, USAFA's curricular philosophy has been to 
offer a broad and balanced core curriculum. That is, to offer a sizable 
core curriculum (i.e., approximately two-thirds of a cadet's total 
academic coursework) that is roughly equally balanced across the 
humanities, social sciences, basic sciences and engineering 
disciplines. At the same time, USAFA offers 32 academic majors 
including 13 in the humanities and social sciences as well as two 
minors in the humanities. This allows for more depth in an area of 
interest to cadets. For cadets pursuing an academic major in the 
humanities or social sciences, a total of 102 out of the 147 total 
semester hours required for graduation would be taken in those 
disciplines.
    This emphasis upon broad, balanced and diverse coursework spanning 
multiple disciplines has been based on the historically distinctive 
roles that the military academies have played as accession sources into 
the junior officer ranks.
    Dr. Snyder. How many engineering majors does your institution try 
to graduate each year? On what professional demands are these goals 
predicated? Generally speaking, does the amount of time needed to 
provide each cadet with a knowledge base in engineering allow the 
latitude to balance academic pursuits with respect to the hard 
sciences, social sciences, communications skills, military studies, and 
the humanities, especially history, as they relate to a foundation in 
strategy?
    General Born. While graduating cadets with Science, Technology, 
Engineering, and Math (STEM) majors is important to the USAF because of 
its highly technical mission, USAFA does not have a fixed target or 
quota. Over the past 20 years, the percentage of USAFA STEM majors has 
fluctuated between 45% and 55%. This is above both the national average 
of 17% and the international average of 26.4% but behind China's 
average of 52%. Presently there are approximately 250 cadets in the 
senior class majoring in Engineering while approximately 200 are 
majoring in the Basic Sciences.
    As shown in the figure below, the amount of time devoted to the 
engineering core curriculum is between 15 and 18 semester hours, 
depending upon the choice of the interdisciplinary option, out of a 
total of 97 semester hours of academic core.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    We believe it helps to consider the phrase ``foundation in 
strategy'' as it applies to the preparation of preparing graduates to 
effectively face dynamic and complex global challenges in their roles 
as junior officers. The Academy is not trying to develop experts in 
strategy in the same way that it is the war colleges' responsibility to 
do so. Rather, we need to prepare our graduates to behave in 
strategically effective ways in often ill-defined and rapidly changing 
conditions and environments. Behaving in such ways requires a 
particular constellation of skills and perspectives, an understanding 
of the service's and the nation's strategic interests and strategy, and 
in the particular ways one supports those as a junior officer.
    In that sense, ``behaving strategically'' requires that 
individuals, teams, and organizations be able to learn adaptively. 
Increasingly, strategy itself can even be thought of as an ongoing 
learning process throughout the organization. In fact, this is 
precisely the overarching purpose of the Academy's attempt to be an 
examplar of learning-focused education in the development of its still 
relatively new institutional Outcomes.
    Furthermore, in the face of ill-defined and rapidly changing 
conditions, adaptive learning in ill-defined and rapidly changing 
conditions benefits from an appreciation of the interconnectedness of 
multiple factors and variables--just the kind of appreciation that we 
believe is fostered by our broad, intentional and developmental core 
curriculum including its long-standing emphasis on STEM elements of the 
core curriculum. In fact, two of the Academy's institutional Outcomes 
include developing understanding of the ``Principles of Science and the 
Scientific Method'' and ``Principles of Engineering and the Application 
of Technology.''
    Dr. Snyder. To what extent is the USAFA's engineering-based 
curriculum preparing cadets to become effective officers on the ground 
in Iraq, Afghanistan, and elsewhere?
    General Born. USAFA's academic curriculum is based not on 
engineering but rather a diverse core curriculum of 97 semester hours 
in basic sciences, humanities, social sciences, as well as engineering 
as shown in the figure below.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    This emphasis upon broad and balanced coursework spanning multiple 
disciplines best prepares junior officers for the complex, dynamic, and 
uncertain situation in Iraq and Afghanistan where problems are ill-
defined and often dangerous. The engineering core coursework is 
specifically designed to help develop skills associated with problem 
solving, critical thinking, decision making, and teamwork, as well as 
providing the technical background necessary to effectively apply 
technology in the ground, air, space, and cyberspace domains. Methods 
developed and experience gained in the engineering curriculum in 
framing and solving ill-defined problems are invaluable to their 
success as leaders.
    Dr. Snyder. At the USAFA, we know that the ``cadet experience'' is 
a combination of academic and professional development curricula, 
leadership opportunities, summer training and travel, competitive 
athletics, etc. How do you factor Service, JCS, and DOD requirements 
into the overall pre-commissioning experience?
    General Born. Identifying AF, JCS, and DOD requirements is a 
continual process, due to the ever changing environment within which we 
live, learn, and operate. The Academy's mission is to develop leaders 
of character. So with that in mind, teams have worked, and are 
continuing to work, multiple issues for integration into the USAFA 
curriculum. We emphasize the actionable--what knowledge, skills, and 
responsibilities should the next generation of officers possess? The 
conversation may begin at one of three organizational levels. First, at 
the pre-commissioning level (USAF Commissioning Training and Education 
Committee--AFA, ANG, AFOTS, AFROTC), we regularly meet with the other 
USAF commissioning sources to adapt our curricula to the contemporary 
learning and operating environment. Adjustments to the course of 
instruction resulting from this collaboration are incorporated into 
strategic guidance such as Air Force Instruction 36-2014, Commissioning 
Education. This guidance also incorporates current Chairman of the 
Joint Chiefs of Staff Officer Professional Military Education Policy. 
Second, our AF leadership may issue a vector for the Academy. Third, 
through current research and education and training engagement with our 
Service, JCS, and DoD, we, the Academy team, adapt to and anticipate 
emerging requirements. A prime example is our Operation Air Force 
deployed summer program where cadets engage with other services in 
Southwest Asia locations. This provides first-hand exposure and 
experience in the joint environment.
    To integrate requirements, USAFA has developed, implemented, and 
assessed a single set of Outcomes that all mission elements support to 
develop cadets into leaders of character who embody the Air Force core 
values (Integrity First, Service Before Self, Excellence in All We Do). 
The Outcomes (Tier One: Responsibilities, Skills, and Knowledge) are 
the foundation upon which our recent ten-year accreditation was based, 
and to which all programs and courses across mission elements are 
connected. Specific programs and courses have been identified to assess 
each of the Outcomes' nineteen Tier Two categories (see Outcomes chart 
below). When determining how to integrate a requirement, we evaluate 
how it relates to Tier One Outcome(s), and then, in greater detail, to 
one of the nineteen Tier Two Outcomes. Connecting the requirement to 
mission elements is the responsibility of commanders, senior leaders, 
Ph.D. faculty, certified trainers, and athletic professionals. The 
Outcomes are assessed based upon Higher Learning Commission 
accreditation standards. Linking Service, JCS and/or DoD requirements 
to the Academy Outcomes is key to maintaining a credible, accountable, 
value-added four-year academic, professional, and character/leadership 
curriculum (which only the nation's service academies provide) at the 
pre-commissioning level.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Dr. Snyder. How frequently are major reviews of the USAFA's core 
curriculum conducted? What is the process for review and for the 
implementation of any recommended adjustments?
    General Born. Major reviews/revisions of the core curriculum were 
accomplished in 1964, 1975, 1979, 1986, 1994, 1997, 2002, and 2006. 
Regarding the process for curriculum review and change, a few of the 
highlights of the governing USAFA Instruction 36-3507, Curriculum 
Handbook and Curriculum Change Control, are listed below:

    -  The USAFA Curriculum Committee (a subcommittee of the Academy 
Board) meets once a semester

        -  Committee is chaired by the Dean of the Faculty; voting 
        members include the Dean of the Faculty; the Vice Dean of the 
        Faculty; the Associate Dean for Student Academic Affairs and 
        Academy Registrar (DFR); the Deputy Registrar and Chief, 
        Academic Affairs and Curriculum Division (non-voting); the 
        Associate Dean for Curriculum and Strategy; all DF academic 
        department heads; the Vice Commandant of Cadets; the Vice 
        Commandant for Strategic Programs; the Director of Training and 
        Support; the Director, Center for Character Development; the 
        Wing Director of Curriculum; the Vice Athletic Director; the 
        Deputy Director of Athletics and Head, Physical Education; the 
        Director, Plans and Programs (non-voting); and the Director of 
        Admissions (non-voting)

        -  DFR requests Curriculum Change Proposals (CCPs) from all 
        Mission Elements (MEs) through committee members--effective NET 
        1 year from semester submitted

        -  DFR publishes CCP package two weeks before USAFA Curriculum 
        Committee meets

        -  The Integrated Curriculum Review Committee (ICRC), a 
        subcommittee of the USAFA Curriculum Committee with a balanced 
        composition across all mission elements, meets prior to the 
        Curriculum Committee

          -  The ICRC has authority to approve/disapprove some 
        proposals; forwards review on others

          -  The ICRC meets outside of curriculum cycle to discuss 
        integration initiatives across USAFA

        -  The USAFA Curriculum Committee meets to discuss and vote on 
        CCP's

        -  Significant changes forwarded to Academy Board for final 
        approval

    -  Approved changes are incorporated into USAFA's curriculum via 
the Curriculum Handbook, USAFA Catalog, Cadet Administrative Management 
Information System (CAMIS), and other products required for 
implementation

    Dr. Snyder. We understand that the USAFA was going to conduct a 
comprehensive 50-year curriculum review, but that it may not proceed. 
Would you please explain your current efforts?
    General Born. This question reflects a misunderstanding of our 
plans to mark the occasion of USAFA's 50th Anniversary through an 
initiative we've entitled FALCON Flight. FALCON stands for Fortifying 
and Aligning our Learning Capacity for Our Nation. The details of 
FALCON Flight are currently being coordinated at the mission element 
level but several of the important issues are discussed below.
    Our previous comprehensive curriculum review occurred in 2006. 
Since then, USAFA has begun implementing several major transformations 
in our institutional approach to developing cadets. These include the 
adoption of nineteen institutional Outcomes, and a more integrated 
approach across our Mission Elements linking our efforts in developing 
these Outcomes. There have been several recent external validations of 
these efforts by the academic community, including a strong endorsement 
by the Higher Learning Commission for a ten-year institutional re-
accreditation. Perhaps the most important challenge facing us today, 
then, is to assure that we've embedded the myriad of changes to our 
systems, practices and culture so that this transformation will be 
sustained.
    It has become increasingly clear to us that a curriculum review 
needs to address the total institutional context including not ``just'' 
the curriculum itself (broadly defined to include academic, military, 
athletic and airmanship coursework) but also the broader policies and 
practices that impact our ability to assure that our varied learning 
outcomes are achieved. There are presently strategic conversations 
underway among the USAFA senior leadership about what should be our 
mid- and longer-term strategy.
    An important element in this mid- to longer-term strategy as 
articulated in FALCON Flight will be the design and implementation of 
an explicit mechanism by which the USAFA Outcomes will be periodically 
reviewed to ensure that they address the shifting requirements of 
officers in the 21st century. The nineteen USAFA Outcomes were recently 
developed based upon a careful analysis of the requirements of officers 
in the 21st century as we understood them to be at the time. But 
because our profession and the AF's role in it are going through 
dramatic changes, the Outcomes and the supporting Course of Instruction 
(COI) will need to be periodically reviewed. Our graduates must be 
prepared to lead in an increasingly complex, joint, interagency, and 
multinational environment. To remain relevant and support the Air Force 
and the American people, we must understand how the profession of arms 
is changing and what the Air Force needs of its Lieutenants. We must 
make sure our COIs align with and produce officers who meet those 
Outcomes. To help ensure that this forward-looking activity is ongoing, 
a mechanism should be developed by which the USAFA Outcomes are 
periodically reviewed. The time period for updating or changing the 
Outcomes should reflect a balance between ensuring sufficient 
responsiveness to the changing world on the one hand and on the other, 
providing enough time to conduct an effective assessment cycle. Another 
way of thinking about it, USAFA will need to adjust the Outcomes 
``target'' from time to time but not before we know whether or not we 
hit that target in the previous round of COI delivery.
    Dr. Snyder. How do you evaluate the performance of the faculty and 
staff at your institution?
    General Born. Civilian Faculty:
    The civilian faculty and staff are comprised of four groups of 
federal civil service employees (Administratively Determined (AD), 
General Schedule (GS), National Security Personnel System (NSPS), and 
Wage Grade (WG)), employees from other governmental agencies (Central 
Intelligence Agency (CIA), National Security Agency (NSA), and the 
Department of State (DOS)), and visiting faculty members from colleges, 
universities, and the private sector.
    The federal civil service employees are evaluated on an annual 
basis utilizing the respective federal performance appraisal system 
(AD, GS, NSPS, and WG), each of which is designed to evaluate 
performance aligned with each employee's Core Document (position 
description). In addition, the quarterly and annual awards programs 
serve as a means of recognizing outstanding performers.
    Since the employees from other governmental agencies are brought to 
the Academy as teachers, they are evaluated on the quality of their 
performance as related to the fundamental faculty responsibilities of 
teaching, research/scholarship, and service.
    Visiting faculty members are also evaluated on the quality of their 
performance as related to the fundamental faculty responsibilities of 
teaching, research/scholarship, and service. In addition, these 
civilian educators are called upon to be critical external evaluators 
of our academic programs. They bring a vital expertise to the Air Force 
Academy and this two-way exchange of knowledge has proven to be 
mutually beneficial to both the Academy and the visiting faculty 
members.

    Military Faculty:
    Military faculty and staff are evaluated according to the same Air 
Force Instruction (AFI 36-2406, Evaluations) as all other military 
members throughout the Air Force. The fact that many of them are 
operating outside their core area of assigned duties (AFSC) makes this 
a valuable career broadening opportunity.
    Dr. Snyder. Do your military faculty members get promotions and are 
they selected for command? Please provide statistics for the last five 
years.
    General Born. Our military faculty members are competitive for 
promotions as the figures (in the table below) for the last five years 
indicate. For promotions to Major and Lt Col, the Dean of Faculty has 
been above the AF average in all years except for calendar year (CY) 
2006. Promotions to the grade of Colonel are below the AF average for 
this 5 year time period.
    Many of our officers are competitive and selected for command after 
completing their faculty tour or later on in their Air Force career. 
Although we do have several field grade officers each year screened and 
selected for command positions, we do not maintain a database on these 
command selections.
    The table below shows the Dean of Faculty's statistics with 
comparison to Air Force selection rates for `in the promotion zone' 
(IPZ) Line of the Air Force (LAF) promotion boards to Maj, Lt Col, and 
Col for CY 2005 through CY 2009.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Dr. Snyder. The USAFA has recently developed a ``rotating 
contract'' system. Please describe and discuss that system. What 
feedback have you received from civilian faculty with respect to the 
system?
    General Born. Our civilian faculty system is called the Civilian 
Faculty Reappointment System. We do not refer to it as a ``rotating 
contract'' system.
    For civilian civil service faculty members on an initial three-year 
appointment, the Dean of the Faculty, after conferring with the 
respective Department or Staff Agency Head, determines whether a 
faculty member is to be reappointed when one year remains on the 
initial three-year appointment. Factors considered in deciding to 
reappoint will include superior faculty member performance as detailed 
in current and past performance appraisals and careful consideration of 
the following factors:

    -  Essential qualities expected of every faculty member include the 
personal attributes of integrity, industry, cooperation, initiative, 
and breadth of intellectual interests.

    -  Demonstrated excellence in teaching is an absolute and 
fundamental requirement. Teaching performance may be demonstrated by 
classroom presentations; course and laboratory development; course 
direction; leadership of independent student projects; and mentorship 
of junior faculty.

    -  Faculty members normally conduct research, engage in 
consultation (consistent with public law and DoD and Air Force 
directives), write and publish educational and professional articles 
and textbooks, and participate in conferences and other activities of 
learned societies. These activities strengthen and improve the 
faculty's capacity to carry out the Academy's mission and 
simultaneously enrich classroom teaching.

    -  Each faculty member provides service to the Air Force, the Air 
Force Academy, and the professional community. Such service may take 
the form of involvement in cadet activities and programs, 
administration, faculty governance, curriculum and program management, 
or temporary assignment to other Air Force organizations.

    Based on feedback from the Faculty Forum (an advisory group to Dean 
of Faculty senior leadership) the current reappointment system was 
established. If a reappointment is warranted, the new appointment 
length will normally be for a period of four years, although lesser 
periods may be approved depending on the specific circumstances. The 
respective Department Head or Staff Agency Head will inform the Dean in 
writing on the Performance Appraisal of the faculty member's desire to 
be reappointed, after consultation with the faculty member. For faculty 
members who have already been reappointed at least once, at the end of 
each annual appraisal cycle, the Dean of the Faculty, after conferring 
with the respective Department or Staff Agency Head, will determine 
whether a faculty member will be reappointed. This decision will be 
made when three years remain on a faculty member's current four-year 
appointment. Reappointments will normally be for a one-year period, 
meaning that after reappointment, the faculty member will have no more 
than four years remaining on their appointment.
    The Dean of Faculty organization recently completed the second 
academic year under the new reappointment system. The new system was 
supported by a large majority of civilian faculty members because 
reappointments would now be determined with three years remaining on a 
faculty member's current appointment. Under the old system that 
decision was made with only one year remaining. So there is improved 
job security if warranted by performance.
    Now that the ``timing'' for reappointments has been established, we 
are continuing the process of modifying existing instructions to 
incorporate consistent language with regard to performance measurement 
criteria and the coupling of quality performance to reappointment. The 
feedback we have received from the faculty regarding our progress in 
this area has been very positive.
    Dr. Snyder. To what extent may civilians from other government 
agencies, such as the State Department or the CIA, be detailed to the 
USAFA faculty? How do these visiting faculty members help students 
better understand the perspectives of other agencies?
    General Born. Civilians from other governmental agencies such as 
the Central Intelligence Agency, the National Security Agency, and the 
State Department can be detailed to the USAFA faculty if both 
organizations agree to such an arrangement and if the sponsoring agency 
provides funding and logistical support. The specifics of each detail 
vary from agency to agency. The Academy's primary responsibility is to 
supply adequate administrative support (office space, computer, etc.). 
The only restriction on accepting qualified civilian employees is from 
governmental agency policies.
    Since the inception of the Visiting Faculty Program in the mid-
1970s, employees from other governmental agencies have brought their 
personal academic expertise as well as their professional perspective 
to the classroom, adding an important dimension to the learning cadets 
receive. In addition, the dialogue between these instructors and their 
cadets concerning the strategic and tactical operations of their 
respective agencies allows cadets to gain a unique and extremely 
valuable insight into policy making at the national level. For example, 
the Department of State visiting professor is often asked to explain 
the role of the State Department and contrast its culture and mission 
with the Department of Defense. He uses anecdotes such as one developed 
by U.S. diplomat Anton K. Smith that describes the warrior approach to 
problems as ``How can we get this done?'' in contrast to the diplomat's 
approach which might be ``How can we shape the situation to arrive 
together at a mutually desirable goal, while maintaining a relationship 
capable of addressing other important goals in a continuing process?''
    Visiting government faculty members help cadets understand the 
perspective of other agencies by presenting the unique organizational 
culture of that agency. Most government policy is formulated through an 
interagency process and in general, no national security or 
international affairs issue can be resolved by one agency alone. 
Visiting faculty members present the views and cultures of other 
agencies in the classroom and through participation in extracurricular 
activities, thus giving cadets significantly different perspectives 
than if just limited to those of the Air Force or Department of 
Defense. Interaction between visiting faculty and cadets increases the 
comfort level of cadets in dealing with government civilians, which is 
critical as military and civilian roles become increasingly 
intertwined. By providing cadets with early exposure to different 
perspectives and approaches to problem solving, visiting faculty 
members serve to prepare cadets for their future careers in which being 
able to perform effectively in the government interagency process and 
interact with civilians depends on a broad knowledge of issues and 
organizational cultures.
    Dr. Snyder. In 2004, the ``Larson Report'' looked at the role of 
permanent professors (PPs) at all of the Service Academies with a 
special focus on the USAFA. Please discuss the changes you have made in 
the PP system as a result of the Larson Report? The Larson Report 
specifically called for the USAFA to hire ``pure'' civilian academics, 
as intended by Congress. The USAFA has apparently disregarded that 
recommendation. Please explain. Also, please discuss the effect that 
PPs have on the participation of civilians within the school's 
leadership structure.
    General Born. The 2004 National Defense Authorization Act, Section 
528, directed the Secretary of the Air Force (SecAF) to complete a 
``study and report related to permanent professors at the United States 
Air Force Academy.'' The SecAF selected Admiral (ret) Charles R. Larson 
to lead the study, the goal of which was to provide a detailed look at 
the Air Force Academy while at the same time comparing Air Force 
Academy faculty systems, organizations, and structure with those at 
West Point and Annapolis.
    The Larson Report concluded, ``There is a perception across the Air 
Force that the Air Force Academy's permanent professors have been at 
the Academy too long, have lost touch with the Air Force, and are a 
part of the systemic problems that led to the current crisis. The 
average longevity of permanent professors at both West Point and the 
Air Force Academy is approximately nine years. The term ``permanent'' 
is misleading and has become pejorative. This study found no serious 
problems with the existing Air Force Academy permanent professor system 
and little evidence of an ``ivory tower'' mentality or stagnation. To 
the contrary, permanent professors have served as an anchor of 
stability during a period of faculty transition.'' In addition, ``This 
study strongly recommends the permanent professor program be 
sustained.''
    Given the strong support by Admiral Larson for the PP program as it 
existed, few changes were needed. The primary change was adopting the 
study's recommendation for consideration to be given to the value of 
short-term TDY assignments or deployments in critical operational areas 
as being equally or more important than sabbaticals to narrow areas 
unrelated to cadets' first assignments. This language has been codified 
in Air Force Instruction 36-3501, Air Force Academy Operations (28 
April 2008), which says, ``Permanent Professors will periodically 
(normally every 5 years) serve on sabbaticals in fields related to 
their Permanent Professor responsibilities to ensure they remain 
current in their discipline or serve in the operational Air Force for 
the purposes of refreshing their operational experience in their 
primary career field. The service can be extended TDYs, deployments, or 
PCS assignments (para. 2.13.16.3.)''
    The Larson Report recognizes the intent of Congress in its 1994 
legislation to bring in civilian faculty members that can add a fresh 
outlook, doctoral-level currency, and depth in their academic 
discipline to the U.S. Air Force Academy and recommends that ``to 
comply with the true intent of Congress, and to ensure the maximum 
strength of the civilian element of the faculty, future civilian hires 
should be ``pure academicians'' from civilian higher education. 
However, specific application of this recommendation is constrained by 
other legislation such as the Uniformed Services Employment and 
Reemployment Rights Act of 1994 (USERRA, 38 U.S.C. Sec. 4301-4335). 
USERRA is a federal law intended to ensure that persons who serve or 
have served in the Armed Forces, Reserves, National Guard or other 
``uniformed services:'' (1) are not disadvantaged in their civilian 
careers because of their service; (2) are promptly reemployed in their 
civilian jobs upon their return from duty; and (3) are not 
discriminated against in employment based on past, present, or future 
military service (emphasis added). Specifically Sec. 4311 of the USERRA 
legislation makes it illegal to discriminate against a person who is a 
member of, applies to be a member of, performs, has performed, applies 
to perform, or has an obligation to perform service in a uniformed 
service. Such a person shall not be denied initial employment, 
reemployment, retention in employment, promotion, or any benefit of 
employment by an employer on the basis of that membership, application 
for membership, performance of service, application for service, or 
obligation.
    Previous USAFA attempts to hire ``pure academicians'' instead of 
equally or more qualified military retirees resulted in a complaint to 
and an investigation by the Office of Special Counsel (OSC). As a 
result of the investigation, OSC informed USAFA that they would bring 
an action before the Merit Systems Protection Board unless USAFA 
strictly complied with the anti-discrimination provisions of USERRA. 
After a discussion with OSC and a review of the law, USAFA thereafter 
hired the soon-to-be retired military applicant for a civilian faculty 
position at USAFA.
    The report, A Blend of Excellence: Military-Civilian Faculty Mix at 
the Service Academies, submitted by the Office of the Assistant 
Secretary of Defense (Force Management and Personnel) in response to 
the 1993 NDAA makes no mention of ``pure academicians.'' It defines the 
role of civilian faculty to be competent in their disciplines, adept at 
educational innovation, and abreast of educational advances--all 
characteristics demanded of any new civilian faculty member, regardless 
of their previous work history. In fact, a number of our retired 
military faculty members have also served at civilian universities 
before being hired here.
    The PPs embrace the participation of civilians within the school's 
leadership structure. Since 2007, three PPs have selected civilians 
from their departments to serve as department heads while the PPs 
completed sabbaticals ranging from six months to 2.5 years. All PPs 
have embedded civilians throughout their department leadership 
hierarchy, and in 2005, the Dean of the Faculty established the 
position of Associate Dean for Curriculum and Strategy that rotates 
among civilian full professors every 2-4 years. This position is 
equivalent to the Vice Dean of the Faculty.
    Dr. Snyder. How hard is it to attract top civilian faculty to the 
USAFA? What incentives do you offer civilian faculty candidates?
    General Born. Since the inception of the Civilian Faculty Program 
in 1993, we have been extremely successful in attracting and retaining 
top-quality faculty members who are dedicated to the Academy mission of 
educating, training, and inspiring men and women to become officers of 
character. One measure of faculty quality is institutional recognition. 
In addition to recently receiving institutional re-accreditation for 
the maximum allowable period of ten years, the Academy was just named 
the best baccalaureate college in the west for the third year in a row. 
In addition, for the past few years the Academy was cited as the #1 
institution in the nation for possessing the ``most accessible 
faculty.'' These institutional accolades are a direct reflection of the 
quality and dedication of the civilian faculty members. In addition, 
the number of civilian faculty members receiving individual recognition 
is truly noteworthy as evidenced by the following list of recent 
awards:

  Colorado Professor of the Year: 2008, 2005, 2003, and 2002

  2009 Award for Innovative Excellence in Teaching, Learning & 
        Technology

  2009 von Karman Lectureship in Astronautics

  International Association of University English Professors

  Patents for holographic/laser technologies (2007-8)

  Patent for Hydrogen Flow Controller (2008)

  2007 NASA Engineering/Safety Group Achievement Award

  2007 Robert M. Yerkes Award (Military Psychology)

  McLucas Basic Research Award 2008 (Hon Men)

  Fulbright Scholarships: 2009 (Russia, Singapore, Jordan), 2007 (South 
        Africa, India, Warsaw)

  2007 Air Force Nominee for Arthur S. Flemming Award

  2007 Ernest L. Boyer International Award for Excellence in Teaching, 
        Learning, and Technology

  2008 Air Force Nominee for the DoD Distinguished Civilian Service 
        Award

  2008 Dolores Zohrab Liebmann Fellowship

  2008 Association for Computing Machinery Distinguished Scientist/
        Engineer/Member Award

  2008 Pi Mu Epsilon Faculty Award

    Quality civilian faculty members are drawn to the Air Force Academy 
for a number of reasons to include the opportunity to interact with an 
outstanding student body, participate in top-tier undergraduate 
research initiatives, and contribute to a unique and extremely 
important mission. In addition, the ability to live in one of the most 
beautiful areas of the country is an incentive for many. Salary and 
benefit packages offered to civilian faculty members at the Air Force 
Academy are comparable to other four-year institutions of higher 
education, with the one exception being contract length. Nine-month and 
ten-month contracts for faculty members in higher educational 
institutions are the norm. At the Air Force Academy, all civilian 
faculty members are on twelve-month appointments because their services 
are required during the summer months as well as during the academic 
year. For the vast majority of faculty members, receiving a paycheck 
every month of the year is an employment incentive.
    Dr. Snyder. Are there any significant impediments to sending USAFA 
faculty members, whether civilian or military, for professional or 
academic purposes to foreign universities? Are there any significant 
impediments to sending faculty members for the same reasons to top tier 
universities within the United States?
    General Born. USAFA strives to send faculty members to a diverse 
pool of universities to ensure the quality of our academic curriculum. 
USAFA considers faculty members' attendance at top-tier schools both in 
the United States and overseas as critical in sustaining and evolving 
the diversity and quality of our programs.
    For military faculty, the primary challenge to enrollment is the 
cost of tuition at both state-side and overseas universities. The Air 
Force Institute of Technology (AFIT) provides both administrative 
oversight and financial responsibility to sustain our faculty education 
programs both in-residence at Wright Patterson AFB and at civilian 
universities. When appropriate, we send faculty members in-residence to 
AFIT. When the required program is not offered at AFIT, the individual 
has already received an AFIT degree at the Masters level, or when 
diversity is needed among a particular program's faculty, faculty are 
sent to a large number of universities throughout the U.S. and 
overseas. Faculty are currently attending four overseas universities: 
Oxford, Cambridge, and Surrey in England, as well as Delft University 
of Technology in the Netherlands. Tuition costs currently range from 
$17,000 to $28,000 per year for these overseas universities. In the 
United States, the tuition can approach $40,000 per year for top tier 
schools. At the same time, AFIT is only budgeted at $19,000 per year 
per student. While many excellent schools have tuitions that fit this 
requirement, many schools do not, including most private universities. 
The result has been to limit our faculty to those state-side schools 
with lower tuitions unless the faculty member can obtain merit based 
supplemental scholarship money from the university they wish to attend. 
In today's environment, those opportunities are limited. With few 
exceptions, most of our faculty attend AFIT in-residence or attend 
state universities. For the three universities in England, our faculty 
members are normally able to attend with tuition scholarships through 
long-standing relationships with the schools and various research 
programs. In the case of Delft, we have a relationship that allows us 
to send a faculty member to a PhD program free of tuition.
    With regard to civilian faculty members, there are no significant 
impediments to sending faculty members to either top tier U.S. 
institutions or to foreign universities in a TDY status for a 
relatively short period of time. With regard to sending faculty members 
to either top tier U.S. institutions or to foreign universities for an 
extended period of time (a semester or an academic year), one 
impediment is insufficient funding. Currently, we cannot reimburse 
faculty members for moving costs to and from their temporary locations. 
While some external funding assistance in the form of grants or 
scholarships helps, the only plausible long-term solution is dedicated 
funding for Leaves for Professional Development.
    Dr. Snyder. It has been asserted that institutional efforts to 
generate more diversity in the student body and to recruit top athletes 
have had a negative impact on classroom dynamics and the quality of 
students and graduates. How do you respond to those assertions?
    General Born. Research shows that diversity (structural diversity 
complemented by interaction and classroom diversity) produces 
significant benefits for both minority and majority students alike. 
Increased diversity in the classroom not only enriches the learning 
environment for all students, but it promotes greater understanding, 
interaction, and acceptance across other institutional settings and 
beyond. As noted by Scott and Cooney (2004), ``significant diversity 
among students on a campus can challenge racial, ethnic, gender, 
religious and regional stereotypes, promote intergroup respect and 
willingness to embrace differences, increase feelings of belongingness 
among minority students, and in the words of Supreme Court Justice 
Lewis Powell, `create robust marketplaces of ideas' that enhance the 
intellectual experiences of all students. Further, researchers have 
found that many benefits of diversity accrued in one's college years 
have significant carry-over in later years.''
    The Air Force definition of diversity is a composite of individual 
characteristics that includes personal life experiences (including 
having overcome adversity by personal efforts), geographic background 
(e.g., region, rural, suburban, urban), socioeconomic background, 
cultural knowledge, educational background (including academic 
excellence, and whether an individual would be a first generation 
college student), work background (including prior enlisted service), 
language abilities (with particular emphasis on languages of strategic 
importance to the Air Force), physical abilities (including athletic 
prowess), philosophical/spiritual perspectives, age (cadet applicants 
must be within statutory parameters for academy attendance), race, 
ethnicity and gender.
    Our focus on increasing cadet diversity has resulted in higher-
quality students. The USAFA Class of 2013 has the highest average SAT 
composite and tied for the highest average ACT composite in USAFA 
history. Their average weighted high school grade point average was 
3.86, and 76 percent of them were in the top fifth of their graduating 
high school class. In addition to record academic scores, their 
character and leadership indices were both the highest on record since 
Admissions began using the current holistic review process. Finally, 
the pool of applicants was larger than it has been in the past five 
years realizing an 11 percent increase over the previous year, while 
the number of qualified candidates also experienced the highest one 
year increase on record.
    Not only has the quality jumped, but the USAFA Class of 2013 is 
also by far one of our most structurally diverse ever. We received the 
highest number of African American, Hispanic, and Asian Pacific 
Islander applications and the third highest number of female 
applications. This class yielded the highest number of qualified 
Hispanic candidates and the third highest number of qualified female 
candidates. Hispanic candidates accepted the highest number of 
appointments in USAFA history, while minorities overall, as well as 
females, accepted the second highest number of appointments ever. The 
Class of 2013 also produced the highest number of qualified African 
American candidates and African American appointments offered, while 
tying the highest number of African American appointments accepted, all 
in the last 17 years.
    The efficacy of the outstanding programs, curricula, and 
environment at the Air Force Academy is borne out by the graduation 
statistics for diverse and majority cadets. As an example, the chart 
below indicates that African American and Hispanic cadets graduate at 
nearly identical rates as majority cadets and that all three categories 
graduate well above the national average for undergraduate students.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    *After implementation of Air Force Academy Diversity Plan
    **From the article from the Diverse Issues in Higher Education 
magazine dated 9 Jun 09, by Michelle J. Nealy
    ***Data from 2007 US. Average from NCHEMS Information Center for 
Higher Education Policymaking and Analysis website

    Increased diversity not only enriches the USAFA educational and 
training experience but also enhances Air Force capabilities and 
warfighting skills. Our graduates will serve as leaders of an Air Force 
already composed of people from widely diverse backgrounds and 
experiences and projected to become even more diverse. This diversity 
is one of our greatest strengths and optimizing the effectiveness of 
that strength is our leadership challenge. The Air Force must also be 
prepared to respond to a variety of threats throughout the world, so 
Airmen must be able to fight effectively in this dynamic global 
environment and successfully work with, or fight against, military 
forces and people of differing cultures and views. Our approach 
therefore must go beyond recruiting and accessions to encompass 
retention, leadership development and accountability.
    To this end, the Air Force Academy is a leadership laboratory where 
cadets develop leadership abilities through demonstrated performance. 
They are organized in a structure similar to the Air Force itself, and 
progress through cadet ranks and positions that allow them to exercise 
leadership skills at progressively more challenging levels. This 
provides exceptional opportunities to learn and these opportunities are 
best realized when the cadet cadre itself is widely diverse. Only in 
such an amalgamated environment can cadets learn to bring out the best 
in each individual regardless of his or her background, and achieve 
organizational effectiveness by combining the individual strengths and 
perspectives each person brings to the organization. Correspondingly, 
we conclude that recruiting, retaining, developing and graduating a 
diverse cadet corps is as important for Air Force leadership training 
as it is for the quality of academic education.
    Dr. Snyder. Does the USAFA receive funding for the purpose of 
promoting diversity? If so, how is this funding utilized?
    General Born. Prior to FY10, there has been no specific budget line 
item programmed into USAFA's baseline for Diversity Recruiting/
Outreach.

    <bullet>  In FY08, USAFA/RR committed $166K of its O&M toward 
Diversity Recruiting and received an additional $180K from the USAFA/CC 
and $15K from USAFA/FM for a total FY08 program of $316K.

    <bullet>  In FY09, USAFA/RR committed $214K of its O&M toward 
Diversity Recruiting and received $250K from the USAFA/CC, $440K via 
congressional insert from CM Becerra, and an additional $180K from the 
USAFA/CC for Leaders Encouraging Airmen Development (LEAD), Diversity 
Affairs Coordinators (DAC), and Diversity Visitation Program (DVP) for 
a total FY09 program of $1.084M.

    <bullet>  For FY10, Air Force Corporate Structure added $250K to 
the USAFA baseline specifically for Diversity Recruiting. USAFA/RR is 
committing an additional $388K for a total program of $638K.

        - USAFA Diversity Recruiting/Outreach FY10 O&M Requirement = 
        $1.597M

        -USAFA Diversity Recruiting/Outreach FY10 O&M Shortfall = $959K

    Currently, Congress is deliberating through the FY10 authorization 
and appropriations acts a USAFA request for $1.7M to support the USAFA 
diversity program in FY10.
    This response does not address the USAFA Diversity Retention 
requirement ($1.655M) or Diversity Program Civilian Pay requirement 
($2.9M) identified in the 2009 USAFA Diversity Plan. The additional 
USAFA Diversity Plan requirements will be addressed in the FY12-17 
Program Objective Memorandum (POM) process.
    Dr. Snyder. What are the current retention figures for USAFA 
graduates among active duty Air Force personnel at the five and fifteen 
year milestones?
    General Born. AFPC provided the attached document (below) to answer 
similar Congressional inquiries.
    AFPC data shows the following USAFA graduate retention for line 
officers:

    5-year point: 79.6%
    15-year point: 37.9%

    Additional questions regarding active duty retention data 
(including USAFA graduate) can be directed to HQ AFPC/CCX Workflow 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5617100615780139243d303a39211604171812191a061e78171078">[email&#160;protected]</a>
MIL DSN 665-4606 Comm (210) 565-4606.
    Dr. Snyder. Please provide a comprehensive list with the numbers of 
all outside scholarships awarded to USAFA graduates over the past five 
years, together with a brief description of each.
    General Born. The answer is in two parts:

    I. description of the outside scholarships awarded
    II. summary of the scholarships by year.

I. Description of outside Scholarships awarded to cadets, 2005 through 
2009.

a. California Institute of Technology. Two-year program of study 
leading to an MS degree in Physics.

b. Eisenhower Center for Space and Defense Studies Scholarship. A 12-
month or 24-month master's degree program in either Political Science 
or Engineering.

c. East-West Center Scholarship at the University of Hawaii. Two-year 
program of study leading to a master's degree. It can be either an MA 
or MS, depending on the program of study--see list of programs 
available below. Language proficiency in one of the Pacific Rim 
languages is required (primarily Chinese and Japanese).

        1. Program for Cultural Studies: This program deals with 
        historical and social aspects of Asia and the Pacific. It 
        applies to those specializing in the Humanities and Behavioral 
        Science.

        2. Program for Environment: Concentrates on environmental and 
        developmental aspects of Asia and the Pacific. Environmental 
        Engineers and Management majors should consider this area.

        3. Program for International Economics and Politics: 
        Appropriate for Political Science, Economics and Management 
        majors.

        4. Resource Programs: Focuses on development, extraction, and 
        efficient use of resources in the Asia and Pacific region. This 
        is an appropriate field for Engineering majors.

d. Fulbright Scholarship. International program for a 10-month stay in 
a foreign country to learn about the culture and improve language 
proficiency. Open to all disciplines but requires language proficiency 
in the language of the country for which one applies. This is not a 
degree-scholarship program, although some Fulbright Scholars have 
obtained degrees in Canada, India and the UK. The purpose of the 
Fulbright scholarship is to increase mutual understanding between the 
people of the United States and other countries through the exchange of 
persons, knowledge, and skills.

e. Gates-Cambridge Scholarship. Open to all disciplines. Two-year 
scholarship at Cambridge University leading to either an MSc (Research 
Master degree usually in the sciences) or an MPhil (Master of 
Philosophy) degree. A three-year version is offered which will lead to 
a doctorate (DPhil).

f. Hertz Scholarship. The Hertz Scholarship is considered by many to be 
the top U.S. scholarship for the U.S. citizens who intend to make their 
skills and abilities available for the defense of the United States in 
times of national emergency. Primary fields of study are in the Applied 
Physical Sciences construed in a broad sense--Physics, Chemistry, 
Mathematics, and Engineering Sciences. Scholarship is tenable at any 
one of the 43 top engineering and basic sciences institutions in the 
United States

g. Alberta Bart Holaday Scholarship. Two-year program of study at 
Exeter College, Oxford University, UK. This scholarship is open to all 
majors and leads to a master's degree.

h. JFK Presidential Scholarship @ Harvard University. Two-year program 
of study at Harvard University, the John F. Kennedy School of 
Government, leading to a Master's of Public Policy with choice of a 
Policy Area of Concentration. This program is open to all majors.

i. Marshall Scholarship. Open to U.S. citizens under 26 years of age on 
October 1 of the year in which the award will be taken up. Must be a 
graduate or a graduating senior of an accredited U.S. college or 
university, with a minimum grade point average of 3.7 for the final 
three undergraduate years. Open to all disciplines for a two-year 
scholarship at any college or university in the UK leading to either an 
MSc (Research Master degree usually in the sciences) or an MPhil 
(Master of Philosophy) degree. A three-year version is offered leading 
to a doctorate (DPhil).

j. Massachusetts Institute of Technology Scholarship (MIT). Two-year 
scholarship open to students admitted to research degree programs at 
MIT. This includes many technical areas, including but not limited to 
the following: aeronautical engineering and astronautical engineering 
(mostly instrumentation, control, and estimation), mechanical 
engineering, materials science, electrical engineering, and computer 
science. Scholarships are awarded by the department, Charles Stark 
Draper Laboratory, or MIT Lincoln Laboratory.

k. National Science Foundation (NSF) Scholarship. Two-year scholarship 
only available to persons who (a) are citizens or nationals of the 
United States (or will be by the time of the application), (b) have 
demonstrated ability and special aptitude for advanced training in the 
sciences, (c) have been admitted to graduate status by the institution 
they select or will have been so admitted prior to beginning their 
fellowship tenures, and (d) have not completed more than one year of 
full-time or part-time graduate study. Scholarships awarded primarily 
to Mathematical, Physical, Biological, Behavioral Sciences, Social 
Sciences, Engineering, History of Philosophy, and History of Science.

l. Superintendent's RAND PhD Scholarship. Open to all majors, but 
candidates must have a strong analytical background. This three-year 
program of study leads to a doctorate in Policy Analysis. This is an 
interdisciplinary program combining analytical rigor with practical 
experience in some of the world's most challenging problem areas: 
security, health, justice, education, and poverty.

m. Rhodes Scholarship. One- or two-year program of study at Oxford 
University, UK. It is open to all disciplines. Must be a United States 
citizen with at least five years domicile, between the ages of 18 and 
24 at the time of scholarship application, have at least junior 
standing at a recognized college or university, and receive official 
endorsement of the college or university. Quality of both character and 
intellect is the most important requirement for a Rhodes Scholarship, 
which the Rhodes Scholarship Committee seeks to ascertain. The commonly 
held opinion is that the Rhodes Scholarship is the most prestigious 
scholarship in the world. They select only 32 scholars per year.

n. Rice University Scholarship. This two-year program of study is open 
to all qualified Aeronautical Engineering, Astronautical Engineering, 
Mechanical Engineering, Computer Science, Mathematical Sciences, 
Operations Research, and Physics students. Many technical areas, 
including: Guidance, Navigation, Control Automation, Electrical 
Engineering, and Computing Technology. Degree program leads to an MS in 
engineering.

o. Harry S. Truman Scholarship. This junior year scholarship awards 
$30,000 for graduate study. It is open to all disciplines with a focus 
on service and leadership.

p. University of Colorado Scholarship. 18-month program leading to an 
MS in Engineering.

q. University of Maryland Scholarship. Two-year interdisciplinary 
program open to all majors. An important selection criterion is a 
continuing interest in public problems and service in the public 
sector. This program awards a Master's in Public Policy.

r. University of Washington Aero-Astro Fellowship. The fellowships are 
open to all qualified Aero-Astro Engineering students for an 18-month 
program of study leading an MS in Engineering.

s. Virginia Polytechnic Institute and State University Scholarship. 12-
month or 18-month program of study is open to all qualified 
Aeronautical Engineering, Astronautical Engineering, Mechanical 
Engineering, Computer Science, Mathematical Sciences, Operations 
Research, and Physics students. Program leads to an MS degree in the 
discipline studied.


                                 II. OUTSIDE SCHOLARSHIPS AWARDED--2005 TO 2009

----------------------------------------------------------------------------------------------------------------
                 Scholarship/                                                                     2005 through
   Program          School          2005       2006         2007         2008         2009            2009
----------------------------------------------------------------------------------------------------------------
          a   California         ----       ----       ----           ----       1              1
               Institute of
               Technology
----------------------------------------------------------------------------------------------------------------
          b   Center for Space   ----       ----       2              ----       2              4
               and Defense
               Studies
               Scholarship
----------------------------------------------------------------------------------------------------------------
          c   East-West Center   1          ----       1              ----       1 (declined)   3
               Scholarship at
               the University
               of Hawaii
----------------------------------------------------------------------------------------------------------------
          d   Fulbright          1          ----       2              ----       2 (declined)   5
               Scholarship
----------------------------------------------------------------------------------------------------------------
          e   Gates-Cambridge    ----       ----       ----           ----       1              1
               University
               Scholarship+
----------------------------------------------------------------------------------------------------------------
          f   Hertz Scholarship  ----       ----       ----           1          ----           1
----------------------------------------------------------------------------------------------------------------
          g   Alberta Bart       1          1          1              1          1              5
               Holaday
               Scholarship
----------------------------------------------------------------------------------------------------------------
          h   JFK Presidential   5          4          5              4          5              23
               Scholarship @
               Harvard
               University
----------------------------------------------------------------------------------------------------------------
          i   Marshall           ----       ----       1              ----       1              2
               Scholarship
----------------------------------------------------------------------------------------------------------------
          j   Massachusetts      7          9          7              12         5              40
               Institute of
               Technology
               Scholarship
               (Departmental,/
               Draper/or
               Lincoln
               Laboratory)
----------------------------------------------------------------------------------------------------------------
          k   National Science   ----       ----       1 (deferred)   ----       1 (deferred)   2
               Foundation (NSF)
               Scholarship
----------------------------------------------------------------------------------------------------------------
          l   Superintendent's   1          2          4              3          4              14
               RAND PhD
               Scholarship
----------------------------------------------------------------------------------------------------------------
          m   Rhodes             ----       ----       1              1          -----          27
               Scholarship
----------------------------------------------------------------------------------------------------------------
          n   Rice University    2          4          6              7          8              2
               Scholarship
               (Departmental or
               Draper
               Laboratory)
----------------------------------------------------------------------------------------------------------------
          o   Truman             1          1          1              ----       1              4
               Scholarship
----------------------------------------------------------------------------------------------------------------
          p   University of      ----       ----       ----           ----       5              5
               Colorado
               Scholarship
----------------------------------------------------------------------------------------------------------------
          q   University of      4          3          4              4          4              19
               Maryland
               Scholarship
----------------------------------------------------------------------------------------------------------------
          r   University of      2          1          1              3          1              8
               Washington
               Scholarship
----------------------------------------------------------------------------------------------------------------
          s   Virginia           ----       ----       ----           1          ----           1
               Polytechnic
               Institute and
               State University
               Scholarship
----------------------------------------------------------------------------------------------------------------
TOTALS                           25         25         37             37         43             167

----------------------------------------------------------------------------------------------------------------


    Dr. Snyder. Please explain in detail the difference between the 
USAFA's ``Learning Focused Environment'' and the environment which 
preceded it at the USAFA.
    General Born. While relatively recent, USAFA's learning-focused 
environment has both paralleled and been reinforced by new directions 
in education and training in the broader Air Force as well as in higher 
education. The broader Air Force recently has adopted a ``Continuum of 
Learning'' that looks at the progressive development of a specified set 
of key competencies over the entire course of a career. In this view, 
any given competency is developed in deeper and broader ways so that 
its expression later in one's career is appropriate to the nature of 
responsibilities and challenges often faced by more senior personnel. 
The key idea underlying the Continuum of Learning is precisely that: 
learning must continue throughout one's career, and that it is each 
individual service member's responsibility to be committed to and able 
to continue that process of lifelong learning. The real essence of 
education and training, then, is not just mastery of any given body of 
knowledge and skills but even more fundamentally commitment to a 
skilled process of continuous learning.
    Over the past decade or so, both USAFA and the broader higher 
education community have embarked on a cultural shift, from an 
``instruction-centered paradigm'' to a newer ``learning-centered 
paradigm'' (Barr & Tagg, 1995; Huba & Freed, 2000; Tagg, 2003). 
According to the instruction-centered paradigm, the professor's primary 
task was to deliver instruction--to transmit his or her knowledge of a 
particular subject to students. This paradigm has at least two 
limitations. First, even if a professor is great at ``delivering 
instruction,'' there is no guarantee that his or her students are 
learning. When it comes to facilitating learning, educational research 
is very clear that faculty need to take into account that students are 
active constructors, discoverers, and transformers of knowledge and not 
just vessels to be filled with content. (e.g., Campbell and Smith, 
1997; Hake, 1998; for a more comprehensive discussion, see Bok, 2006).
    The second problem with the instruction-centered paradigm emerges 
from patterns that are becoming apparent in our current information 
age. For example, the volume of readily available knowledge is growing 
exponentially. What is ``known'' today is likely to be very different 
from what is ``known'' even a few years from now. Furthermore, modern 
technology (e.g. internet, PDAs, cell phones) is making the information 
that is known increasingly easy to access. Therefore, while our classes 
must still build on foundational knowledge, it is clear that they 
needn't be solely dedicated to the acquisition of the current state of 
available knowledge.
    Because of the problems inherent in the instruction-centered 
paradigm, the higher education community is shifting its focus more 
specifically on learning. Colleges and universities are placing much 
greater emphasis on the learning outcomes that are essential for 21st 
century students to achieve, and then creating environments where that 
essential learning can take place. What the faculty member does in 
class is still important, of course. However, the faculty's principal 
task is creating environments where student learning is most likely to 
occur. Furthermore, the faculty member's goals haven't been 
accomplished unless students have learned what we wanted them to learn. 
(As Biggs (1999, p. 63) points out, it should no longer be possible to 
say, ``I taught them, but they didn't learn.'').
    This is not to suggest that the USAFA faculty members are solely 
responsible for cadets' learning--obviously, the cadets play a pivotal 
role as well. To be successful, the faculty and cadets will work 
together as an effective team. The faculty will use their experience 
and expertise to create effective learning environments, and the cadets 
will apply themselves and their past experiences to the task of 
learning. This collaborative relationship exemplifies how we accomplish 
``Excellence in All We Do'' within DF.
    The shift to an approach that is explicitly focused on learning is 
perfectly consistent with the demands of the Academy's external 
stakeholders. For example, one of our Air Force's new core competencies 
is ``Developing Airmen.'' This overt Air Force level focus compels us 
to create environments where our personnel (to include cadets) can 
develop the knowledge, skills, and responsibilities needed by members 
of our 21st century Air Force. As another example, the Higher Learning 
Commission of the North Central Association (USAFA's accrediting 
agency) recently adopted new accreditation criteria demanding that we 
clearly articulate our learning goals, create systems that allow that 
learning to take place, and then assess the extent to which those 
learning goals are met. This is an inherently learning-focused approach 
to educational quality.
    Here at USAFA, we have embraced a learning-focused approach to our 
education and training programs to help achieve the USAFA Outcomes. 
When considering a lesson, a course or even the curriculum as a whole, 
the practitioner needs to ask, ''what is it that I hope a cadet will 
get from this experience (lesson, course, 4-year education) when it is 
over.'' Notice, then, that our lessons, courses, and curricula need to 
be designed with the desired end-point in mind. Fink (2003) calls this 
``backwards design,'' and it is the basis for the Learning Focused 
Cycle, shown below.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    The steps of this model can be outlined as follows:

    1.  Choosing appropriate learning goals/outcomes that we want 
cadets to achieve.

        <bullet>  This step is absolutely critical, as it lays the 
        foundation for the remainder of the model. Faculty ask 
        themselves ``What combination of knowledge, skills, and 
        responsibilities do we want cadets to learn from this lesson/
        course?''

    2.  Creating learning experiences for cadets that will help them 
best accomplish those learning outcomes.

        <bullet>  Notice that the focus is not on the teacher's 
        classroom experience, but on the cadets' learning experience. 
        What the cadets learn is what is most important!

        <bullet>  The learning experience may be accomplished outside 
        of class time or during class time.

        <bullet>  Notice also the inclusion of the word ``best''--
        educational research has much to say about how to best 
        facilitate student learning. The learning experiences we plan 
        for cadets should incorporate what we know about student 
        learning as much as possible.

        <bullet>  For example, research shows that students remember 
        more presented material, and are better able to use it, when 
        they actively engage with the content, rather than when they 
        are more passive. Thus, it is important to design learning 
        experiences that take advantage of this.

    3.  Assessing the degree to which cadets are accomplishing the 
learning outcomes.

        <bullet>  Cadets' learning increases when they know what they 
        are setting out to learn, know the standards they must meet, 
        and have a way of seeing what they have learned.

        <bullet>  In order to gather information about cadet learning, 
        cadets will need to demonstrate their learning in some way--
        consequently, we need to think about how cadets will display 
        their knowledge, skills, and responsibilities.

        <bullet>  Assessment occurs within the context of graded events 
        (e.g., papers, projects, exams, etc.) but also can occur on a 
        more frequent, informal basis during time in class.

    4.  Providing feedback--both to cadets and to faculty.

        <bullet>  Cadets need to know whether or not they are 
        successful in meeting learning goals--if they are falling 
        short, in what areas can they improve?

        <bullet>  Graded events provide one avenue for providing cadets 
        with feedback. However, notice that grades, by themselves, 
        don't really provide rich information about how cadets should 
        improve.

        <bullet>  Feedback is also useful to faculty members. We need 
        to know whether cadets are successful in meeting the learning 
        goals--if they are not successful, in what ways can we better 
        facilitate their learning?

    5.  Using feedback to improve.

        <bullet>  Improvement is the action step that results from 
        clearly communicated and received feedback.

        <bullet>  When asked how to improve their performance, many 
        cadets say things like ``I will try harder.'' Unfortunately, 
        vague action plans of this sort are rarely effective. 
        Therefore, we encourage cadets to think of positive, specific 
        actions they can take to improve their performance. Perhaps 
        they can take future drafts of their papers to the Writing 
        Center for review. Perhaps they can commit to coming in for 
        Extra Instruction on a weekly basis to go over practice 
        problems. The best answer will obviously depend on the 
        discipline, the course, and the cadet involved--but ``closing 
        the loop'' in some way is critical to enhanced cadet 
        performance.

        <bullet>  This is also an opportunity for faculty members to 
        improve their own processes as well. Faculty will reflect on 
        what positive, specific steps they can take to improve their 
        own actions.

    Dr. Snyder. Does the USAFA have information technology challenges? 
If so, please describe them. Are there educational advantages or 
disadvantages associated with maintaining a ``.edu'' versus a ``.mil'' 
internet domain registration? Are there advantages or disadvantages 
with maintaining both domain registrations?
    General Born. Yes, USAFA does have many information technology 
challenges. These include the challenges of most academic institutions: 
keeping current with technology, providing network security, protecting 
privacy information, leveraging social networking, and supporting a 
large, highly-mobile, educational environment with dozens of research 
initiatives that push the envelope of network use. In addition, USAFA 
must deal with the challenges of providing an IT environment that 
satisfies both educational and military requirements. The lack of 
supporting AF and DoD guidance requires USAFA to create policy that 
governs the educational environment within a military framework. Also 
USAFA must support separate networks for educational and military 
environments that requires expertise beyond that of the standard base 
communications squadron.
    It's a significant advantage for USAFA to maintain an EDU domain 
registration. Besides identifying USAFA as an educational institution, 
the EDU domain allows flexibility in governance. The MIL domain is 
governed by DoD and AF and requires strict compliance to protect 
operational information. The USAFA EDU domain has a local governance 
process that uses the MIL rules as a starting point and allows 
exceptions based on operational risk management. USAFA currently has 
several exceptions to AF policy: approved operation of personally owned 
cadet computers, established internet blocking process and categories, 
streamlined software approval process, approved YouTube access, allowed 
guest access and approved opening specific ports, accepted risk for 
library system, and allowed HTML e-mail.
    There are both advantages and disadvantages of maintaining two 
networks. The advantage of maintaining two domains is that we can apply 
the appropriate security model for each environment. We provide a 
tightly-controlled MIL environment for operational military use and a 
more flexible EDU environment for education. The disadvantage is that 
our communications squadron must maintain both environments. The system 
architecture is very similar but the rules governing each environment 
are different. Operators must understand which network they are working 
on.
    Dr. Snyder. Please elaborate on how budget and manpower/billet 
reductions at the USMA are specifically affecting faculty staffing 
decisions?
    General Finnegan. Budget reductions: Budget reductions impact West 
Point in two major ways--civilian personnel or program (academic or 
military) cuts. Since cutting manpower is not a viable alternative, we 
are left with reductions in the programs we offer cadets, and a 
shortfall in our ability to maintain military and academic equipment. 
We will continue to accomplish our mission, but our graduates will not 
have the experience that America expects West Point to produce.
    Billet reductions: Reductions to the military TDA authorized 
strength (pending TAA reductions) will put USMA in a temporary over 
strength status that will preclude or prohibit recruiting to fill 
vacancies in specific disciplines. This factor coupled with the long 
lead time schooling pipeline will seriously impact the military faculty 
staffing operation. The military reductions (faculty) could under 
normal circumstances be offset by hiring civilians. However, due to the 
current budget constraints this course of action is not available to 
us.
    Increased Size of the Corps Faculty: When the decision was made to 
increase the size of the Corps of Cadets from 4,000 to 4,400, a concept 
plan was submitted recommending the addition of 30 military faculty. 
Due to the ongoing war effort, military officers were not available and 
USMA was offered 26 civilian faculty in their place. Funding for these 
26 faculty members has been provided on a year to year basis in the 
form of Global War on Terror (GWOT) dollars. To date, this increase in 
faculty authorization has not been officially recognized on the TDA, 
which leads to tremendous uncertainty in re-hiring and extending of 
their appointments.
    The interaction of these three issues has put faculty staffing 
decisions in turmoil. Forced military faculty reductions which could 
normally be offset by hiring civilian faculty is an option that has 
been taken off the table. USMA needs Department of the Army to 
officially recognize the resource implication of the decision to 
increase the size of the Corps of Cadets.
    Dr. Snyder. The JCS Chairman's Officer PME Policy includes a 
requirement for each of the service chiefs to provide the CJCS with 
reports on the joint education programs at the pre-commissioning and 
primary levels. We want to know the significant findings and 
recommendations of your 2006 Report and whether you would anticipate 
significantly different findings and recommendations three years later?
    General Finnegan. On 17 MAY 06, the United States Military Academy 
submitted its Joint Professional Military Education (JPME) Triennial 
Report to the Chairman of the Joint Chiefs of Staff on Pre-
commissioning Education. The report's summary, submitted by Brigadier 
General Scaparroti, Commandant of Cadets reported:
    ``During the reported period [2004-2006], cadets received a minimum 
of 27 hours of instruction of Joint Warfare Concepts as part of their 
4-year education. This reflects an increase of 5 hours of JPME 
instruction since the 2003 Triennial Report. JPME requirements are 
embedded when appropriated in both the Academic and Military Programs. 
I believe USMA currently meets or exceeds the requirements established 
in CJCSI 1800.01C both in letter and intent.''
    That remains true today. While the Academic and Military Programs 
are constantly updating their curriculums, the task to provide quality 
joint instruction will not change. Of note, within the Military 
Program, most of the Military Science joint instruction has 
transitioned to other core courses as the fourth year course, MS403, 
was replaced with a multi-disciplined capstone course on Officership, 
MX400. Currently, there is a significantly greater emphasis on Joint, 
Interagency, Intergovernmental, and Multinational instruction as it 
relates to contemporary operations. We are specifically focusing on 
practical junior-officer-level joint operations (we ran two 
demonstration JAAT missions this past summer for first class cadets) 
and on working with governmental agencies, local leaders, and 
international agencies (in classrooms and during field training).
    Dr. Snyder. Chairman Skelton is persuaded that the historical case 
study is a particularly good way to teach both history and strategy. Do 
you use the case study method, and if so, to what ends?
    General Finnegan. West Point uses historical case studies in many 
of its courses, some of which apply directly or indirectly to the 
process of developing strategy.
    In general, history is an excellent tool for teaching strategy. 
Among its many virtues, history enables students to understand and 
appreciate the complexity of the human experience. It helps put human 
activities and ideas in context, avoid false analogies, lend a sense of 
scope and scale, assess moral implications, anticipate unintended 
consequences, and judge the feasibility and suitability of possible 
courses of action. These capabilities are essential for anyone whose 
professional responsibilities might include the formulation of 
strategy.
    Despite these virtues, the discipline of history has limitations. 
Most important, history cannot predict the future, as every situation 
is historically unique. Consequently, the value of history lies not in 
divining answers (or ``lessons learned'') about current or future 
issues, but in asking the right questions based on an understanding of 
the differences between one situation and another.
    While historical case studies are potentially useful in all of the 
ways described above, students of history can easily misuse them. The 
distinguished military historian, Michael Howard, addressed this topic 
in a now famous article, ``The Use and Abuse of Military History.'' \1\ 
Howard's analysis focused specifically on the use of history for 
military officers, but it was equally applicable to the use of history 
to train strategists. Concerning the use of case studies, Howard 
argued:
---------------------------------------------------------------------------
    \1\ Michael Howard, ``The Use and Abuse of Military History,'' 
Journal of the Royal United Service Institute, No. 107 (February 1962): 
4-8; reprinted in Parameters 11 (March 1981): 9-14.

        Analogies with events or personalities from other epochs may be 
        illuminating, but equally they mislead; for only certain 
        features in situations at different epochs resemble one 
        another, and what is valid in one situation may, because of 
        entirely altered circumstances, be quite untenable the next 
        time it seems to occur. The historian must be always on the 
        alert not to read anachronistic thoughts or motives into the 
        past.\2\
---------------------------------------------------------------------------
    \2\ Ibid., 191.

    His warnings notwithstanding, Howard believes that history can be 
useful to the military officer under three conditions. First, it must 
be studied in breadth--that is, the officer ``must observe the way in 
which warfare has developed over a long historical period. Only by 
seeing what does change can one deduce what does not.'' \3\ Second, the 
officer must study in depth, drawing ``not simply from official 
histories but from memoirs, letters, diaries, even imaginative 
literature.'' The officer must ``get behind the order subsequently 
imposed by the historian and recreate by detailed study the 
omnipresence of chaos.'' \4\ Finally, the strategist must study in 
context because wars ``are not like games of chess or football matches, 
conducted in total detachment of their environment according to 
strictly defined rules. . . . The roots of victory and defeat often 
have to be sought far from the battlefield, in political, social, and 
economic factors.'' \5\
---------------------------------------------------------------------------
    \3\ Ibid., 195-6.
    \4\ Ibid., 196.
    \5\ Ibid., 196-7.
---------------------------------------------------------------------------
    Historical case studies are closely associated with the second of 
Howard's three conditions for using history. They allow the student to 
examine a discrete event, such as a campaign or battle, in great depth 
and to compare the competing interpretations of eyewitnesses, 
historians, journalists, and others. This process helps the student 
form a personal interpretation that is, ideally, as close as possible 
to the absolute truth of what happened. Armed with such insights, the 
student is then able to ask informed questions about analogous 
situations in the present or future and to develop sound solutions.
    Students who honor the first and third of Howard's three 
conditions--breadth and context--can use historical case studies to 
meet the second condition, depth. Admittedly, meeting Howard's three 
conditions can be difficult, especially in a culture like ours that is 
largely dismissive of history. It is by no means impossible, however, 
and students in some institutions are better equipped for it than those 
in others.
    The United States Military Academy, perhaps more than any other 
undergraduate institution, strives to meet Howard's three conditions 
for the use of history. Every first-year cadet must take a two-semester 
sequence of either United States history or world regional history.\6\ 
Similarly, all senior cadets must take a two-semester sequence of 
military history, which examines many historical cases of the 
formulation and execution of strategy. Very few other colleges in the 
nation require their students to take four history courses; fewer still 
require those courses to be broad and sequential; and virtually none 
requires a year of military history. With two full years of history 
under their belts, cadets have reasonably broad exposure to history 
(condition #1) and are more able than most college students to study 
events in historical context (condition #3).
---------------------------------------------------------------------------
    \6\ The Department of History assigns cadets to either U.S. or 
world regional history depending on their educational experience in 
high school or college. For example, a cadet who had a strong 
background in U.S. history in high school would be enrolled in world 
regional history.
---------------------------------------------------------------------------
    Cadets who major in history--about 8 percent of each graduating 
class--take between twelve and fourteen history courses (including the 
four required courses mentioned above) and thus receive an immersion in 
the discipline of history. In most history elective courses, the 
syllabus requires cadets to study a particular topic (country, region, 
idea, war, culture) in depth; hence, one might characterize such 
courses as semester-long historical case studies. An example of such a 
course is War and Its Theorists (HI385), which exposes cadets to the 
ideas of Sun Tzu, Clausewitz, Mahan, Douhet, and many other theorists 
whose ideas have greatly influenced the formulation of strategy. Other 
history courses hone more closely to the typical case study. For 
example, the History of Unconventional Warfare (HI381) requires cadets 
to study military operations in the Philippines, Northern Ireland, 
Algeria, and Vietnam. Another elective course, Strategy, Policy, and 
Generalship (HI358), uses case studies to examine how political and 
military leaders develop and execute policy and strategy. With a wide 
variety of courses available, cadet history majors have the opportunity 
to study in breadth, depth, and context.
    Many non-history courses at West Point also use historical case 
studies to good effect. Most of those courses reside in the Department 
of Social Studies, where instructors routinely use case studies to 
analyze issues dealing with economics, national security, international 
relations, and American politics. Among the many social science courses 
using historical case studies are Economics (SS201), American Politics, 
(SS202), International Relations (SS307), Politics and Government of 
Europe (SS377), Legislative Politics (SS379), American Civil-Military 
Relations (SS472), American Foreign Policy (SS473), Economics of 
National Security (SS477), and International Security Seminar (SS486). 
Case studies also are common in the Department of Law, which teaches 
required and elective courses in constitutional law, military law, and 
the law of land warfare. Examples of law courses using historical case 
studies are Constitutional and Military Law (LW403) and Law of War 
(LW474).
    Regardless of their academic majors, cadets take a robust history 
curriculum and apply it in many other courses, both required and 
elective. Some of the courses relate directly to the formulation of 
national or military strategy. Even those that do not, however, still 
develop in cadets the intellectual habits that promote strategic 
thinking.
    Dr. Snyder. Why do the Service Academies only award Bachelor of 
Science degrees? What would be the professional effect of offering 
Bachelor of Arts degrees in certain academic disciplines? What would be 
the professional effect of offering alternate tracks within Bachelor of 
Science programs that would be heavier on humanities and social science 
requirements?
    General Finnegan. The Service Academies, particularly USMA, only 
award the Bachelor of Science (BS) degree because of an existing DoD 
and/or Congressional mandate that requires USMA to award a BS degree to 
all graduates.
    The Military Academy could offer Bachelor of Arts (BA) degrees in 
many of its 45 majors. The NY State Education Department, which 
regulates the SUNY colleges and universities, places more stringent and 
directed requirements on the awarding of BA degrees based on the number 
of courses completed with liberal arts content (source: Regent's Rule 
3.47(c)). Accordingly, colleges and universities within the SUNY system 
may confer BA degrees to students who complete a minimum of 120 
semester credit hours with at least 90 credit hours being drawn from 
courses aligned with liberal arts content, including mathematics, 
science, humanities, social and behavioral sciences. By contrast, the 
Bachelor of Science (BS) degree requires the completion of 60 credit 
hours of liberal arts content while other undergraduate baccalaureate 
degrees (BFA, B.Tech, BBA, etc.) require 30 credit hours of liberal 
arts content. Engineering, management, marketing, finance, and other 
specialized professional courses are not considered to be within the 
definition of liberal arts.
    West Point requires cadets to complete a core academic curriculum 
of 96 credit hours in 30 courses. All but 10 of these 90 credit hours 
meet the definition of courses with liberal arts content. Thus, all 
cadets who complete a non-engineering major would earn 86 credit hours 
from the core curriculum and at least 30 additional credit hours from 
courses with liberal arts content through the completion of a major; 
these 116 credit hours are sufficient to award cadets a BA degree. In 
total, approximately 65 percent of the degrees conferred to a 
particular class of cadets could be BA degrees based on the SUNY 
classification.
    The professional effect of offering a BA degree to cadets 
completing a major in fields associated with the humanities and the 
social and behavioral sciences would likely be minute. Such a practice 
would be consistent with higher educational practices but is unlikely 
to negatively impact cadets' opportunities to pursue higher educational 
degrees in these fields.
    Dr. Snyder. How many engineering majors does your institution try 
to graduate each year? On what professional demands are these goals 
predicated? Generally speaking, does the amount of time needed to 
provide each cadet with a knowledge base in engineering allow the 
latitude to balance academic pursuits with respect to the hard 
sciences, social sciences, communications skills, military studies, and 
the humanities, especially history, as they relate to a foundation in 
strategy?
    General Finnegan. An MOA signed between the Superintendent, USMA 
and the CSA in 2008 encourages USMA to confer approximately 50 percent 
of the degrees conferred for a graduating class, plus or minus five 
percent, in the fields of mathematics, science, and technology. 
Approximately 70 percent of all MSE majors, and 35 percent overall, 
receive degrees in one of ten engineering majors. This MOA was placed 
in effect to reflect the anticipated needs of the Army. The programs in 
Civil Engineering, Computer Science, Electrical Engineering, 
Engineering Management, Environmental Engineering, Information 
Technology, Mechanical Engineering, Nuclear Engineering, and Systems 
Engineering are accredited by ABET Inc.
    While these engineering programs meet the standards established by 
the profession for which they prepare cadets, all graduates, regardless 
of major, must meet the standards of the USMA core curriculum, which is 
tantamount to a professional major. The academic goals of mathematics 
and science, engineering and technology, information technology, 
cultural perspective, historical perspective, understanding human 
behavior, communication, creativity, moral awareness, and continued 
intellectual development are met through 30 core courses, 26 of which 
are taken in common by all graduates. The rationale, learning model and 
outcomes for each of these goals are described in the publication 
``Educating Future Army Officers for a Changing World.''
    Dr. Snyder. To what extent is the USMA's engineering-based 
curriculum preparing cadets to become effective officers on the ground 
in Iraq, Afghanistan, and elsewhere?
    General Finnegan. Regardless of whether a cadet pursues a major in 
an engineering or humanities and social sciences field, the core 
curriculum and attendant academic goals are designed to produce 
officers prepared for the uncertainties they will likely face 
throughout their professional career as Army officers. These challenges 
include the changing overall strategic goals of the Army and the 
operations they are required to execute. The most notable change in 
preparation of officers has occurred as the range of non-traditional 
military mission such as peacekeeping, stability and support operations 
has increased. The rise of regional, ethnic and religious conflicts, 
often the result of millennial long struggles or environmental 
pressures have become factors necessitation these strategic 
accommodations. Additionally, many officers are engaged in project 
management work with developmental or humanitarian projects (water, 
sewer, roads, etc).
    Our core curriculum is focused on preparing our graduates for the 
uncertainties of a changing political, technological social and 
economic world. In particular, over the past decade we have modified 
our core curriculum to integrate the development of cultural 
understanding throughout the curriculum, highlighted by the cultural 
awareness academic goal to ``draw from a appreciation of culture of 
understand in a global context human behavior, achievement and ideas.'' 
Graduates of USMA are well-rounded and able to operate in a region 
burdened by cultural and historical animosities. Feedback from former 
battalion commanders at the AWC and field commanders during LTG 
Hagenbeck's June 2009 visit to Iraq suggest that graduates are 
excelling in the varied and diverse tasks assigned to them. Many praise 
the quality of education the graduates' received and West Point's 
preparation of junior officers.
    We have established a curriculum that prepares cadets to recognize 
and understand the components of a culture necessary for operating 
successfully in Iran, Afghanistan, or any unexpected environment, with 
military or humanitarian mission objectives. Cadets develop an 
understanding of how beliefs, religion, norms, values, family and 
social relationships bind and influence behavior and interactions of a 
cultural group. This cultural understanding is developed through 
elements of several core courses as well as through extracurricular 
activities such as visiting professors and students, and international 
experiences in a semester long or summer training. Within the 
curriculum cadets study cultural components in different cultural 
settings, examine historical and political events from various cultural 
perspectives, and develop an understanding of at least one foreign 
language. Cadets in a humanities or social science major receive two 
additional semesters of a foreign language, and have the opportunity to 
have coordinated history and foreign language courses organized around 
a relate area study. All cadets, regardless of major, have a capstone 
experience that requires them to combine the core curriculum and their 
major area in a project that demonstrates their ability to ``anticipate 
and respond effectively to the uncertainties of a changing 
technological, social, political and economic world.''
    Dr. Snyder. At the USMA, we know that the ``cadet experience'' is a 
combination of academic and professional development curriculum, 
leadership opportunities, summer training and travel, competitive 
athletics, etc. How do you factor Service, JCS and DOD requirements 
into the overall pre-commissioning experience?
    General Finnegan. While the Academic and Military Programs are 
constantly updating their curriculums, the task to provide quality 
joint instruction will not change. Of note, within the Military 
Program, most of the Military Science joint instruction has 
transitioned to other core courses as the fourth year course, MS403, 
was replaced with a multi-disciplined capstone course on Officership, 
MX400. Currently, there is a significantly greater emphasis on Joint, 
Interagency, Intergovernmental, and Multinational instruction as it 
relates to contemporary operations. We are specifically focusing on 
practical junior-officer-level joint operations (we ran two 
demonstration JAAT missions this past summer for first class cadets) 
and on working with governmental agencies, local leaders, and 
international agencies (in classrooms and during field training).
    Dr. Snyder. How frequently are major reviews of the core curriculum 
conducted? What is the process for review and for the implementation of 
any recommended adjustments?
    General Finnegan. The curriculum is reviewed on a yearly cycle by 
the West Point Curriculum Committee. Proposals for curricular change 
may be submitted by departments although the Dean also generates topics 
that he wishes to be reviewed and evaluated. In September, the Dean 
meets with the committee chair to provide command guidance. By late 
November, the departments submit their proposals to the committee. The 
Curriculum Committee evaluates the proposals and makes a recommendation 
to the General Committee in April or early May. The General Committee 
likewise makes a recommendation to the Dean of the Academic Board who 
makes a decision to include or not include it in a revision of the 
academic program. The revision is then staffed and submitted to the 
Academic Board who makes a recommendation to the Superintendent. The 
Superintendent ultimately decides. This decision occurs in June or July 
and the cycle begins anew. Major reviews of the core curriculum occur 
approximately every five years and follow the same process for review 
and implementation. The last internal review of the core curriculum 
occurred in 2005-2006.
    Our core curriculum is reviewed externally as well. Our regional 
accreditation agency, Middle States, reviews our curriculum every ten 
years. The next review is scheduled for Sep 2009. ABET reviews our 
engineering and science program curricula every six years with the last 
review taking place in 2008. The American Council of Trustees and 
Alumni evaluated the core curriculum of leading educational 
institutions in August 2009. West Point received a grade of ``A'' for 
our core curriculum--a distinction achieved by only five institutions 
in the nation. Additional information can be obtained at 
WhatWillTheyLearn.com.
    Dr. Snyder. Do your military faculty members get promotions and are 
they selected for command? Please provide statistics for the last five 
years.
    General Finnegan. Each year USMA produces a second graduating class 
of approx 150 faculty and staff who return to the Army with a renewed 
intellectual vigor. Many of which continue to excel in the Army.

    <bullet>  4 of 12 Generals were faculty here.

    <bullet>  10 of 54 Lt. Gens were on the faculty/staff.

    <bullet>  3 of 10 Division Commanders were on the faculty/staff.

    USMA rotating military faculty members are extremely competitive 
for promotion and selection for command particularly given the fact 
that they leave the operational Army anywhere from 4 to 5 years. USMA 
rotating military faculty members are promoted below the zone to Major 
at higher rates than their non-ACS peers. Selection rates for BZ to COL 
and Battalion Command are slightly lower their non-ACS peers.


------------------------------------------------------------------------
                   No ACS     Non-USMA ACS     USMA ACS       Overall
------------------------------------------------------------------------
BZ to Major     0.0589       0.0660         0.1105         0.0633
------------------------------------------------------------------------
BZ to LTC       0.0643       0.0801         0.0670         0.0670
------------------------------------------------------------------------
BZ to COL       0.1330       0.1714         0.1250         0.1378
------------------------------------------------------------------------
DA Bn CMD       0.4395       0.5690         0.4348         0.4463
 Select
------------------------------------------------------------------------


 Table 1. Selection rates for BZ Promotion and Battalion Command (All 
Competitive Category Year Groups 1987 through 1992 Officers, condition 
                        on 15 years of service).

    Dr. Snyder. Some USMA faculty reported a lack of transparent 
appraisal and renewal recommendation procedures. Please describe and 
discuss the system at your institution? What feedback have you received 
from civilian faculty with respect to these procedures?
    General Finnegan. The Code of Federal Regulations, the USMA Faculty 
Manual and the Title 10 appraisal system are the cornerstones of these 
processes. Each Title 10 faculty member receives an annual appraisal. 
During the appraisal process the faculty are counseled on their 
performance and provided a clear indication as to whether or not they 
should anticipate re-appointment at the end of their current 
appointment. If substandard performance becomes an issue, the 
individual is counseled and a plan for corrective action is put into 
place. Continued counseling for substandard performance becomes the 
audit trail for a decision to non-reappoint.
    All Title 10 faculty in the first year of their first appointment 
are in a probationary status. Failure to meet performance standards 
during the first year is grounds for non-reappointment. After the 
probationary year, instructors and assistant professors must be 
notified in a timely manner that they will not be reappointed. For 
associate and full professors, notification of non-reappointment must 
be made by June 15th of the final year of appointment. Associate and 
full professors who are identified for non-reappointment for adequate 
cause have the opportunity to request a hearing by the Review 
Committee.
    Dr. Snyder. Please discuss the pros and cons of the PUSMA system? 
Also, please discuss the effect that the PUSMA system has on the 
participation of civilians within the USMA's leadership structure.
    General Finnegan. The Professors, USMA, provide long-term stability 
to the education programs at USMA to insure accreditation standards and 
continuity are maintained. As members of the Academic Board they advise 
the Superintendent on major policy changes, recommend separation of 
cadets, and authorize the awarding of diplomas. Advantages of having 
PUSMA officers at West Point are numerous. These accomplished leaders 
in their academic disciplines and military careers, provide military 
and academic leadership to USMA's academic departments composed of 
stabilized military faculty, Army, and other Service officers on a two 
or three year USMA assignment, and civilian faculty hired in accordance 
with 10 USC, and professional staff. They are highly successful and 
experienced military officers and are outstanding educators with 
doctorates in one of the academic areas offered at USMA. Stabilized 
military faculty members contribute to formulation of USMA's 
curriculum, methods of instruction, and academic standards required for 
graduation; establish standards within academic departments for 
classroom instruction; guide and mentor faculty development, 
professionalism, and academic accomplishment; educate, train and 
inspire cadets within areas of academic expertise; provide continuity 
to the academic program; serve as a source of experience and academic 
depth to the rotating and civilian faculty; participate in USMA 
governance by serving on bodies such as the Academic Board, Curriculum 
Committee, Admissions Committee, and accreditation committees; in 
conjunction with PUSMA department heads they select officers to be 
sponsored for graduate schooling prior to a teaching assignment at 
USMA; maintain academic currency by research, writing, and involvement 
with professional education or academic specialty organizations; 
maintain military professional currency in a variety of ways, including 
operational deployments with Army troop units and conducting outreach 
activities in support of the Army; contribute to cadet development by 
supporting athletic and extracurricular activities at USMA; and 
contribute to officer development by counseling and mentoring. The goal 
is to maintain a faculty, sensitive to both Army needs and academic 
standards, which support the USMA mission to provide the Army with 
commissioned leaders of character.
    The advertisement below illustrates that interested civilian 
faculty are eligible to apply and compete for selection as Professor, 
USMA. In practice, the selection of a civilian member as a PUSMA is a 
rare event, but this population is not excluded from the candidate 
pool.
 The United States Military Academy seeks Professors and Deputy Heads,
                     USMA; and an Academy Professor
        GENERAL QUALIFICATIONS FOR PROFESSOR AND DEPUTY HEAD POSITION: 
        Principal responsibilities will include executing the 
        department's vision and leading faculty and staff to enhance 
        the quality and national stature of academic programs, 
        leadership and governance, and the development of military and 
        civilian faculty. Candidates should possess significant 
        leadership experience and practical experience related to the 
        subjects taught in the departments. Combat zone deployment 
        experience and advanced military schooling (ILE minimum) are 
        desirable. Candidates must have a strong commitment to the 
        development of cadets as leaders of character. Applicants 
        should have a record of research and publication and 
        demonstrated excellence in education at the college level, with 
        teaching at the USMA or a comparable college or university 
        being highly desirable. The selection committee will evaluate 
        breadth and depth of professional experience, leadership 
        ability, demonstrated teaching excellence, scholarship 
        potential, and personal attributes. Those selected for these 
        positions may serve at the discretion of the Secretary of the 
        Army until age 64. Upon retirement, any Professor, USMA whose 
        service as a Professor, USMA has been long and distinguished, 
        may, at the discretion of the President, be retired in the 
        grade of Brigadier General.

    Dr. Snyder. To what extent may civilians from other government 
agencies, such as the State Department or the CIA, be detailed to the 
USMA faculty? How do these visiting faculty members help students 
better understand the perspectives of other agencies?
    General Finnegan. Currently, one Foreign Service Officer from the 
State Department is assigned to the USMA faculty in the Department of 
Social Sciences. This is a long-standing relationship of over 40 years 
and has been instrumental in ensuring that both cadets and faculty 
understand the perspectives of other agencies.
    Another longstanding relationship is with the National Security 
Agency. An NSA staff member has served as Fellow in the Department of 
Electrical Engineering and Computer Science, with some interruptions, 
since the 1980's. Others have served in the Department of Mathematical 
Sciences. The current Deputy Director of the NSA, Mr. John ``Chris'' 
Inglis, served at West Point in 1991-2. The NSA partnership has been 
instrumental in developing information security as a thread through the 
USMA curriculum. The Cyberdefense Exercise (see http://www.nytimes.com/
2009/05/11/technology/11cybergames.html) is one of many examples of 
close NSA-USMA collaboration resulting from the Fellow program. These 
have enhanced mutual understanding between our organizations.
    We have also had individuals from the CIA assigned to USMA in the 
past and are currently working with the Assistant Director of the CIA 
for Military Affairs to have a CIA official assigned to the USMA 
faculty again in 2010.
    We think that these kind of interagency relationships are valuable 
both for the West Point faculty and cadets as well as the officials who 
are assigned. They grow personally and professionally in an academic 
environment, establish new bonds with military colleagues, and gain and 
increased understanding of military officers when they return to their 
parent agency.
    Dr. Snyder. How hard is it to attract top civilian faculty to the 
USMA? What incentives do you offer civilian faculty candidates?
    General Finnegan. From inception of the Blend of Excellence program 
in 1993 to approximately 4 years ago, there was a comprehensive package 
of benefits designed to attract top level civilian faculty to USMA. 
This ``package'' included: (1) the opportunity to teach some of the 
country's most motivated students, (2) reside in an historic setting in 
the picturesque Hudson Valley, (3) although not provided tenure, solid 
performers could expect continued re-appointment, (4) a PCS relocation 
package, (5) a reasonable expectation of a salary step increase every 
other year, (6) a year long sabbatical (at the Associate Professor or 
Full Professor level) every six years, and (7) the opportunity for 
professional development leading to promotion through the faculty 
grades to Full Professor.
    However, approximately 4 years ago, as budgetary constraints 
dictated many elements of this package began to erode. The every other 
year step increases ceased to occur in a consistent fashion. PCS 
relocation for newly hired faculty was limited to a select few. 
Opportunity for a full year sabbatical was curtailed to effectively a 
half year one. With the current FY10 budget forecast, salary step 
increases will virtually cease, PCS relocation offering for newly hired 
faculty will not be available and the ability to support sabbaticals is 
in jeopardy due to the reductions in military faculty staffing, which 
has increased the overall teaching load on the remaining personnel.
    The recent downturn in the economy has offset some of these 
limitations when hiring, since the civilian faculty model normally 
hires at the entry end of the academic spectrum. However, the erosion 
of the benefit package that was in effect for the hiring of the 
majority of the civilian faculty that is currently here presents a 
serious retention problem. So far, there has not been an identifiable 
trend of civilian faculty departures, but everyone is keeping a keen 
eye on what transpires over the next year.
    Dr. Snyder. Are there any significant impediments to sending USMA 
faculty members, whether civilian or military, for professional or 
academic purposes to foreign universities? Are there any significant 
impediments to sending faculty members for the same reasons to top tier 
universities within the United States?
    General Finnegan. There are no operational impediments to sending 
USMA faculty members to foreign universities. However, budgetary 
constraints coupled with recent military slot reductions would prohibit 
them at this time. Just as with foreign universities, there are no 
operational impediments to sending USMA faculty members to top tier 
U.S. universities. However, budgetary constraints coupled with recent 
military slot reductions would prohibit them at this time.
    Dr. Snyder. It has been asserted that institutional efforts to 
generate more diversity in the student body and to recruit top athletes 
have had a negative impact on classroom dynamics and the overall 
quality of students and graduates. How do you respond to those 
assertions?
    General Finnegan. USMA is committed to student body diversity 
toward the creation of an officer corps reflective of America. 
Annually, the Academy establishes Class Composition Goals which inform 
our recruiting efforts. Our class composition goals include goals for 
leaders, scholars, as well as demographic groups and are generated 
based upon the projected composition of the Army officer corps. A 
constraint in pursuing these goals is the societal trend of academic 
preparation of minorities. For example, of the 160,000 African-
Americans taking the SAT in 2007, 73% scored less than 1,000 combined. 
Therefore, USMA carefully balances academic preparation risk with 
assisting the Army in creating a diverse officer corps.
    Each candidate is evaluated on the merits of his or her complete 
file. Only qualified candidates are admitted to USMA as cadets in 
accordance with the Academic Board decisions. The Academy's admissions 
goal is to ``enroll annually a diverse, high-caliber class that meets 
the needs of the Military Academy and the Army, and whose members have 
the potential for success at the Academy and long-term service in the 
Army.''
    Considering diversity, one must note that Henry O. Flipper was the 
first African American admitted to USMA in 1873 and the first to 
graduate, in 1877. Since that time, USMA has continued to recruit 
minority candidates for the Corps of Cadets. The purpose of the 
Academic Board Class Composition goals has been to create a Corps of 
Cadets which reflects the diversity of the Officer Corps. These 
minority Class Composition categories include African Americans (8-
12%), Hispanics (7-9%), Native Americans (>1%), and Asians (4-6%). It 
is important to understand that these are goals and not quotas for the 
admissions process. We normally exceed the goals for Hispanics and 
Asians while not meeting the goals for African Americans and Native 
Americans.
    Considering the recruiting of athletes, athletics has been a major 
part of the cadet curriculum and is one of the three major 
considerations for cadet standing: Academic, Military, and Physical. 
Army athletics has been a focus for the cadets' preparation, aptly 
shown in the statement by General George C Marshall during WWII, who 
said ``I need an officer for a dangerous mission, I want a West Point 
Football Player.'' This exemplifies the spirit of athletics at USMA, 
where we have been playing Army football since 1890 and have been 
recruiting football players and other varsity athletes since the early 
1900's. Additionally, the Class Composition Goal for athletes has 
decreased from the historical level of >25% to 18-21% for the past few 
years. In tier 1 college programs, athletics is the window through 
which potential candidates will view the institution and become 
inspired as candidates. This is an extremely important recruiting and 
marketing tool for the United States Military Academy and the Army.
    Additionally, it should be noted that athletics is very important 
in achieving the minority Class Composition Goals; it is a great 
recruiting tool to ensure racial diversity in the Corps of Cadets and 
the future officer corps.
    Considering the years that each of these goals has been part of the 
admissions program, it is hard to say that the institutional efforts 
have had a negative impact on the classroom environment. Graduation 
rate for the class in general has risen over the past 20 years from 61% 
in 1980 to the current graduation rate of 79% for the class of 2009. 
While the graduation rate for the class as a whole has trended upward, 
there is no consistent trend for the minorities or recruited athletes. 
Their graduation rate has fluctuated from 10% less than the class to 5% 
greater than the class.
    The assertion that recruited athletes and minorities have had a 
negative impact on classroom dynamics and the overall quality of 
students and graduates is false. It would be better to state that those 
candidates deemed qualified who are admitted with risk can change the 
dynamics within a classroom. It should be noted that all risk 
candidates are not minorities or athletes and do include several other 
groups, including Congressional Principal appointees and Soldiers. The 
Academy understands and manages this risk in many ways. We send 246 
candidates to the United States Military Academy Preparatory School for 
a year of study in mathematics, English, and reading and study skills 
prior to their admission to USMA. Additionally, we send other at risk 
candidates to civilian preparatory schools under the auspices of the 
Association of Graduates Scholarship Program. The year of remediation 
under either of these two programs prepares the student for 
qualification and admission to USMA.
    There is a consideration of the intensity of the recruiting 
necessary due to other schools recruiting the same candidates. While 
the Class Composition goals have not changed much, the overall 
recruitment of the candidates has increased dramatically in the past 
few decades. This means that the Academic Board has taken additional 
risk on some of the candidates when they are selected for admission to 
USMA. The changes in the classroom have been due to individual 
capabilities. Even though academic risk is taken with some candidates 
who are strong in other areas, every admitted candidate--of whatever 
race or gender, varsity athlete or not--is fully qualified for entry to 
USMA.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

             Table 1. USMA Graduation rates by Demographic


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


   Table 2. Fall Term Course Failures by Demographic. Note: Reserve 
 Component (RSCOM) includes `invitational reserves,' made up primarily 
                of recruited athletes attending USMAPS.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


       Table 3. 5 and 10 year Army Retention Rates by Demographic

    Dr. Snyder. Does the USMA receive funding for the purpose of 
promoting diversity? If so, how is this funding utilized?
    General Finnegan. USMA does not receive direct funding for the 
purpose of promoting diversity, but does receive it indirectly. West 
Point receives funds for the Leading Diversity Office, which, on April 
2nd 2007, assumed the mission of developing and implementing strategic 
plans for maintaining an inclusive environment throughout West Point. 
This office is headed by a COL, and the staff is funded with USMA 
appropriated funds. We also receive funds through our Directorate of 
Admissions, which has marketing and outreach programs that promote 
diversity throughout the process of recruiting and selecting candidates 
who will become USMA cadets and eventually officers in the U.S. Army.
    Dr. Snyder. Please provide a comprehensive list with numbers of all 
outside scholarships awarded to USMA graduates over the past five 
years, together with a brief description of each.
    General Finnegan. West Point graduates compete in Rhodes, Marshall, 
Mitchell, Gates, Truman, Hertz, Rotary, East-West, Olmsted, Fulbright, 
National Science Foundation, and Churchill scholarship programs. 
Historically, USMA has competed well with top Tier I academic 
institutions. Over the last five years USMA graduates have received 99 
academic scholarships. They have received 370 academic scholarships 
since the beginning of competition for these scholarships (See Table 
1).



----------------------------------------------------------------------------------------------------------------
                                            USMA Scholarship Winners
-----------------------------------------------------------------------------------------------------------------
                                                   Class Year
-----------------------------------------------------------------------------------------------------------------
                                                                                         Total         Since
            Scholarship                2005    2006    2007    2008    2009    2010     (last 5     competition
                                                                                        years)         began
----------------------------------------------------------------------------------------------------------------
Churchill Scholarship                 0        0       1       0       0       0       1           1
----------------------------------------------------------------------------------------------------------------
East-West Fellowship                  4        4       4       3       2      N/A     17          38
----------------------------------------------------------------------------------------------------------------
Fulbright Student Grant               2        2       2       2       0      N/A      8           8
----------------------------------------------------------------------------------------------------------------
Gates-Cambridge Scholarship           0        2       1       3       1      N/A      7          12
----------------------------------------------------------------------------------------------------------------
Marshall Scholarship                  3        2       3       1       0      N/A      9          33
----------------------------------------------------------------------------------------------------------------
Mitchell Scholarship                  2        0       1       0       0      N/A      3           4
----------------------------------------------------------------------------------------------------------------
National Science Foundation           1       0        0       0       2      N/A      3          41
 Graduate Fellowship
----------------------------------------------------------------------------------------------------------------
Olmsted Scholarship                   2        2       3       5       4       1      17          93
----------------------------------------------------------------------------------------------------------------
Rhodes Scholarship                    2        1       1       1       1      N/A      6          88
----------------------------------------------------------------------------------------------------------------
Rotary Ambassadorial Scholarship      1        0       1       2       8       9      21          24
----------------------------------------------------------------------------------------------------------------
Truman Scholarship                    1        2       2       1       0       1       7          28
----------------------------------------------------------------------------------------------------------------
Total                                18       15      19      18      18      11      99          370
----------------------------------------------------------------------------------------------------------------

    N/A = Not Announced Yet

    The Rhodes Scholarships, the oldest international fellowships, were 
initiated after the death of Cecil Rhodes in 1902, and bring 
outstanding students from many countries around the world to the 
University of Oxford, normally for two years.
    Marshall Scholarships finance young Americans of high ability to 
study for a degree in the United Kingdom. Up to forty Scholars are 
selected each year to study at graduate level at an UK institution in 
any field of study. As future leaders, with a lasting understanding of 
British society, Marshall Scholars strengthen the enduring relationship 
between the British and American peoples, their governments and their 
institutions. Marshall Scholars are talented, independent and wide-
ranging, and their time as Scholars enhances their intellectual and 
personal growth. Their direct engagement with Britain through its best 
academic program contributes to their ultimate personal success.
    The Mitchell Scholars Program is a national competitive fellowship 
sponsored by the U.S.-Ireland Alliance. The Mitchell Scholars Program, 
named to honor former U.S. Senator George Mitchell's pivotal 
contribution to the Northern Ireland peace process, is designed to 
introduce and connect generations of future American leaders to the 
island of Ireland, while recognizing and fostering intellectual 
achievement, leadership, and a commitment to public service and 
community. Twelve Mitchell Scholars between the ages of 18 and 30 are 
chosen annually for one year of postgraduate study in any discipline 
offered by institutions of higher learning in Ireland and Northern 
Ireland. Applicants are judged on three criteria: academic excellence, 
leadership, and a sustained commitment to service and community.
    The Gates Scholarship Program is an international scholarship 
program to enable outstanding graduate students from outside the United 
Kingdom to study at the University of Cambridge. The scholarship is 
funded by the Bill and Melinda Gates Foundation and awards up to two 
years of fully funded graduate study, with an emphasis on the fields of 
Arts and Humanities, Humanities and Social Sciences, Biological 
Sciences, and Physical Sciences and Technology.
    The Truman Scholarship recognizes college juniors with exceptional 
leadership potential who are committed to careers in government, the 
nonprofit or advocacy sectors, education or elsewhere in the public 
service; and to provide them with financial support for graduate study, 
leadership training, and fellowship with other students who are 
committed to making a difference through public service.
    The Hertz Foundation Graduate Fellowship empowers outstanding young 
people pursuing a PhD degree in the applied physical, biological, and 
engineering sciences with the freedom to innovate and explore their 
genius in collaboration with leading professors in the field. The Hertz 
Foundation's goal is to support the early stage research endeavors of 
students who possess the potential to change our world for the better 
by solving difficult, real-world problems.
    The Rotary Ambassadorial Scholarship sponsors one academic year to 
further international understanding and friendly relations among people 
of different countries and geographical areas. While abroad, scholars 
serve as goodwill ambassadors to the host country and give 
presentations about their homelands to Rotary clubs and other groups.
    The East-West Center Scholarship Program provides a 2 year 
scholarship for students to study at the East-West Center at University 
of Hawaii. The East-West Center is an education and research 
organization established by the U.S. Congress in 1960 to strengthen 
relations and understanding among the peoples and nations of Asia, the 
Pacific, and the United States. The Center contributes to a peaceful, 
prosperous, and just Asia Pacific community by serving as a vigorous 
hub for cooperative research, education, and dialogue on critical 
issues of common concern to the Asia Pacific region and the United 
States.
    The Olmsted Scholarship Program provides outstanding young military 
leaders an unsurpassed opportunity to achieve fluency in a foreign 
language, pursue graduate study at an overseas university, and acquire 
an in depth understanding of foreign cultures, thereby further 
equipping them to serve in positions of great responsibility as senior 
leaders in the United States Armed Forces. (Note: The Olmsted 
Scholarship program is not open to cadets upon graduation, but is 
available after 3 years of commissioned service)
    The Fulbright program was started in 1946 by Congress and is 
administered by the State Department. Fulbright grants are designed to 
``increase mutual understanding between the people of the United States 
and the people of other countries.'' A Fulbright grant is for 10-12 
months and requires that a student affiliate with a local university 
for classes and research.
    The National Science Foundation Graduate Research Fellowship 
provides for three years of study leading to a master's or doctoral 
degree in the mathematical, physical, biological, engineering, or 
social science, or in the history and philosophy of sciences. The 
fellowship helps ensure the vitality of the human resource base of 
science and engineering in the United States and reinforces its 
diversity.
    The Churchill Scholarship was established in 1959 and is awarded by 
the Winston Churchill Foundation. The Foundation's Scholarship Program 
offers American students of exceptional ability and outstanding 
achievement the opportunity to pursue graduate studies in engineering, 
mathematics, or the sciences at Churchill College, the University of 
Cambridge.
    Here is a current listing of scholarship recipients for the past 
five years, with brief descriptions of their backgrounds and programs 
of study:

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    .Olmsted Scholars are selected after at least 3 years of 
commissioned service. The following is a listing of all Olmsted 
scholars selected in the past 5 years:


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    .Dr. Snyder. Among active duty personnel in the Army, how many 
general officers are USMA graduates? Of the total active duty Army 
general officer population, what percentage does this number represent?
    General Finnegan. USMA graduates historically represent 20% of the 
commissioning cohort each year. The proportion of USMA general officers 
is well above this rate. USMA general officers represent 40% (133) of 
the current total active duty general officer population (332 GOs). The 
proportion of the LTG and GEN ranks are even higher (See Table 1).



------------------------------------------------------------------------
             All                                  USMA
------------------------------------------------------------------------
        Grade          Number         Number              Proportion
------------------------------------------------------------------------
                2LT   10146                   1956                  19%
------------------------------------------------------------------------
                1LT    7197                    984                  14%
------------------------------------------------------------------------
                   CPT25772                   3574                  14%
------------------------------------------------------------------------
                MAJ   16545                   2153                  13%
------------------------------------------------------------------------
                 LTC  11202                   1653                  15%
------------------------------------------------------------------------
                   COL 4823                    785                  16%
------------------------------------------------------------------------
                B G     168                     64                  38%
------------------------------------------------------------------------
                M G     104                     39                  38%
------------------------------------------------------------------------
                LTG      49                     25                  51%
------------------------------------------------------------------------
                GEN      11                      5                  45%
------------------------------------------------------------------------


        Table 1. USMA Distribution across Active Duty population

    Dr. Snyder. Please comment on the utility of the most recent 
professional military reading list compiled by Chairman Skelton.
    General Finnegan. The Defense and Strategic Studies major includes 
some of these books in its required courses. Elective courses introduce 
about 20 of these texts in classes and the MX400 Professional Military 
Officer course for first class cadets lists some of these books as 
choices for the professional biography reading assignment.
    The list contains many popular books that faculty consider good 
professional and good personal reading. Few of the texts, if any, form 
the basis for any specific major, but as a collection, the list is 
useful for cadets and faculty in prioritizing their professional and 
educational reading. Rep. Ike Skelton's new reading list is a national 
security reading list of 50 essential books. There are quite a few 
professional military reading lists available and they are all helpful 
to the student of history, governance and the military profession. As 
Chairman Skelton stated, ``officers and senior enlisted members need to 
read books about military strategy and American history to benefit from 
lessons of the past and better understand American values.'' His 
selected books highlight topics relating to national defense, thereby 
having great utility for those interested in national defense issues.
    Dr. Snyder. Does the USMA have information technology challenges? 
If so, please describe them. Are there educational advantages or 
disadvantages associated with maintaining a ``.edu'' versus a ``.mil'' 
internet domain registration? Are there advantages or disadvantages 
with maintaining both domain registrations?
    General Finnegan. There is a constant three-fold challenge.
    First, we must maintain a technology infrastructure representative 
of top-tier educational institutions and the ways they employ 
technology to support learning, program administration, and 
communication.
    Second, we must consistently provide a vibrant and relevant 
education regarding current and emerging technologies, including both 
those specific to Army and the DoD and also the broader commercial 
technology sphere.
    Third, our network security environment is challenged by the 
confluence of our academic requirement for exploration and 
collaboration, ``student life'' requirements, and the increasing 
frequency of DoD security requirements and actions resulting in 
operational constraints or changes to our work processes as a result.
    The first two challenges require significant, steady financial 
investments to update existing facilities and adopt emerging 
technologies as they appear. Many of the requirements exceed those of 
average Army installations. The Army has generally made the needed 
investments for decades, but recent trends have been negative. Some 
equipment has not been updated, and some desirable emerging 
technologies and support to enhance cadet education are unresourced 
within the Academy budget. To some extent, these shortfalls are being 
made up through external government resourcing of faculty and cadet 
research and outreach projects.
    In pursuit of managing the third challenge, West Point is vigilante 
it's efforts to secure IT operations and has taken significant steps to 
ensure compliance with DoD security requirements. This is a challenging 
goal given its requirement for continuous communications in a global 
academic sense beyond traditional DoD borders. Operational processes 
differ depending on a garrison's mission; the model of network security 
that works well at non-academic sites such as Fort Bragg or Fort Hood 
may have a very different effect when applied to West Point's college 
mission imperatives. Providing a more open network security policy to 
facilitate academic pursuits and student life is possible, however it 
requires the application of more granular controls. These controls 
translate to tools that vary from standard Army installations, a more 
demanding set of systems administration and security skills, and 
additional manpower requirements.
    Are there educational advantages or disadvantages associated with 
maintaining an ``.edu'' versus a ``.mil'' internet domain registration?
    There are distinct educational advantages for Military Academy 
faculty, staff, and cadet communication to maintain a .edu domain 
registration. It is a fact of modern life that Internet address domains 
communicate the professional affiliation of people who use them. People 
at West Point find it useful and important to communicate an 
educational affiliation in some cases and a military affiliation in 
others. The ``.edu'' suffix, for example, is available only to 
accredited educational institutions. Consequently, it immediately 
confers a modest form of legitimacy by its use alone. A faculty member 
attending a conference or collaborating on a scholarly paper with 
colleagues at other schools is likely to use ``usma.edu'' web and email 
addresses for this reason. The same faculty member consulting with a 
government agency is likely to use ``army.mil'' addresses in order to 
convey his or her service connection.
    Perhaps the greatest importance of the ``usma.edu'' domain is in 
communications with prospective cadets and their families, where the 
educational aspect of West Point is often paramount.
    It is noteworthy that the Air Force Academy for many years 
maintained only af.mil addresses, but changed within the last few years 
to dual domains for the reasons cited above.
    Are there advantages or disadvantages with maintaining both domain 
registrations?
    The advantage lies in the flexibility cited above, allowing West 
Point personnel to operate in both domains. There are some modest 
technical issues, but since both ``usma.edu'' and ``usma.army.mil'' 
have been in active use since approximately 1989, these have long been 
solved, and the solution is part of the IT fabric of West Point.
    The disadvantages lie in the increased IT management, operations 
and security complexity inherent in two domains within a single 
geographic footprint. Additionally, until a common enterprise directory 
capability is established and shared between the domains, the users in 
the .edu domain cannot easily look up their .mil Army counterparts in 
the Army's master Global Address List (GAL).
    Dr. Snyder. The JCS Chairman's Officer PME Policy includes a 
requirement for each of the service chiefs to provide the CJCS with 
reports on the joint education programs at the pre-commissioning and 
primary levels. We want to know the significant findings and 
recommendations of your 2006 Report and whether you would anticipate 
significantly different findings and recommendations three years later?
    Captain Klunder. The Navy has a variety of schools that teach pre-
commissioning joint education. In 2006, the Navy reported that pre-
commissioning joint learning objectives were being fully met through 
the courses of instruction at the U.S. Naval Academy and Naval Reserve 
Officers' Training Corps (NROTC) units. Joint learning objectives were 
not being fully met at Officer Indoctrination School (OIS), Officer 
Candidate School (OCS), the LDO/CWO Indoctrination Course or the Direct 
Commission Officer Indoctrination Course (DCO), and Naval Science 
Institute (NSI). In these cases, recommendations were made to 
incorporate joint learning objectives into the Professional Core 
Competencies (PCCs). PCCs are used for developing course objectives and 
are the approved professional training requirements for officer 
accession programs. These competencies are the minimum which should be 
instructed, and are based on fleet requirements.
    Since 2006, significant changes have occurred within the non-NROTC 
training pipeline. All Officer training programs have been consolidated 
at Officer Training Command (OTCN), Newport, R.I. PME topics are 
covered in all OTCN curriculum (OCS, ODS, LDO/CWO, DCO, NSI) and are 
currently under revision. Included in the curriculum redesign is a more 
thorough PME exposure for all pre-commissioning candidates. With the 
implementation of the new curriculum, OTCN graduates will be fully 
prepared to transition into the Navy's Primary PME courses.
    Navy community-specific schools continue to provide educational 
elements related to the CJCS Primary learning area, Joint Warfare 
Fundamentals. The Warfare Specialty Schools were generally found to be 
meeting joint learning objectives for joint warfare; however, they were 
not routinely covering the ``Joint Campaigning'' PCC. Of the PME 
courses reviewed by the individual institutions, the majority are 
designed for first tour junior officers and ``Joint Campaigning'' is 
deemed beyond the skill set expected of a first fleet tour junior 
officer. The ``Joint Campaigning'' is an area that is a staff training 
objective and outside the scope of Individual Warfare Specialty 
Schools.
    The Navy's Primary PME course was first fielded by Naval War 
College in May of 2006 via Navy Knowledge Online. Currently, there are 
over 16K students enrolled in the Primary PME course which 
satisfactorily addresses joint learning areas and objectives. The 
program is available to all active duty and reserve members and is 
updated on a regular basis to remain current and relevant.
    Dr. Snyder. Chairman Skelton is persuaded that the historical case 
study is a particularly good way to teach both history and strategy. Do 
you use the case study method, and if so, to what ends?
    Captain Klunder. Historical case studies are used in various 
classes and applications at USNA. The USNA curricula include one core 
history course (HH104) that provides all midshipmen with a foundation 
in naval/military history. The emphasis on the study of strategy 
varies, however, by individual professor. The level of analytical rigor 
in the core course is that appropriate to a freshman or ``Plebe''. When 
case studies are used, they typically entail only one lecture period, 
unlike the Naval War College where students rigorously analyze the 
historical cases over the course of several lectures. The shorter case 
studies match the maturity and sophistication of students in a one 
semester, freshman-level course.
    The USNA core curricula also include a course on Naval Warfare, 
taught at Luce Hall. Case studies are used in the Naval Warfare Course 
(NS300) to reinforce lecture points and to demonstrate examples of 
historical naval situations. The Battle of Midway, the Amphibious 
landing at Inchon, the Battle of Yorktown, Air-to-Air combat in 
Vietnam, and Naval and Joint Logistics in the 1991 Gulf War are the 
specific case studies utilized. In addition to historical examples, our 
instructors are encouraged to use their real life experience to drive 
home the importance of Command and Control, Commander's intent, and 
standard planning procedures.
    There remains a last option for midshipmen, if they are so 
inclined, to gain a better understanding of naval/military history and 
strategy. The history department offers a broad range of higher-level 
courses (e.g., HH381, Warfare in the Middle Ages; HH383, The Age of 
Total War 1815-1945; HH386A, History of Airpower; HH386C, History of 
Modern Counter Insurgency). These electives include a substantive 
discussion of the evolution of strategy, in some cases using the case 
study method. These electives, taken together on a yearly basis, can 
provide up to 1,000 midshipmen the opportunity to study both strategy 
and naval/military history (in practice, many of same students take 
more than one course, thus the brigade coverage is less than the 
theoretical maximum of one thousand possible midshipmen). Furthermore, 
the academy recognizes the importance of a higher level analysis of 
naval history and strategy and will offer in Spring 2010 a specialized 
course, ``Readings in Grand Strategy''. In addition, the academy 
recognizes the importance of an interdisciplinary study of military/
naval history, military technology, and strategy, and is considering 
other initiatives that might improve midshipmen education in this area.
    Dr. Snyder. Why do the Service Academies only award Bachelor of 
Science degrees? What would be the professional effect of offering 
Bachelor of Arts degrees in certain academic disciplines? What would be 
the professional effect of offering alternate tracks within Bachelor of 
Science programs that would be heavier on humanities and social science 
requirements?
    Captain Klunder. A B.S. degree is specified in Title 10. Also, 
meeting the needs of warfare communities requires some flexibility. 
This necessitates a core program that prepares midshipmen sufficiently 
for any warfare community. The heavy emphasis on Science, Technology, 
Engineering and Math (STEM) in the core justifies the B.S. degree.
    Currently, there are opportunities for midshipmen in STEM majors to 
increase their education in humanities and social science and there are 
opportunities for non-STEM majors to enhance their education in 
mathematics, science and engineering.
    There are also opportunities for midshipmen in STEM majors to take 
more coursework than that required for graduation in areas of 
humanities and social science. Those opportunities may arise from 
course validation, overloading or attending summer school.
    Dr. Snyder. Does the amount of time needed to provide each 
midshipman with a knowledge base in engineering allow the latitude to 
balance academic pursuits with respect to the hard sciences, social 
sciences, communications skills, military studies, and the humanities, 
especially history, as they relate to a foundation in strategy?
    Captain Klunder. All midshipmen are required to take four courses 
in mathematics, two with lab in chemistry, two with lab in physics. 
Many are free to take more ``hard science'' as electives. All 
midshipmen are required to take two courses in English, three in 
history, one in government, one in ethics and moral reasoning, and two 
more electives in humanities and social sciences. All midshipmen are 
required to take at least five courses in engineering. All midshipmen 
take a course in naval strategy and tactics. This core foundation 
provides a balance for whichever area the midshipmen choose for their 
major--whether it is engineering, mathematics, science, humanities, or 
social sciences.
    Dr. Snyder. To what extent is the USNA's engineering-based 
curriculum preparing midshipmen to become effective officers on the 
ground in Iraq, Afghanistan, and elsewhere?
    Captain Klunder. Our core engineering and math/sciences based 
curriculum has proven to be very successful in the preparation of our 
midshipmen to handle and understand the intricacies of today's modern 
weapons systems and machinery. What we are also extremely proud of, 
however, is our ability to properly prepare our young men and women to 
lead sailors and marines into combat and non-combat environments. This 
important aspect of our graduation requirement is accomplished by all 
midshipmen receiving a commission into the Naval Service. To ensure we 
are developing effective leaders that can succeed in Iraq or 
Afghanistan we have incorporated a leadership training curriculum that 
includes the utilization of two new educational and training divisions 
``The Division of Character Development and Training'' and ``The 
Division of Leadership Education and Development''. In both of these 
divisions, the curriculum spans all four years and is designed to 
provide the Brigade of midshipmen a solid theoretical foundation in 
leadership values that is reinforced through summer training 
deployments, exercises, and career information programs.
    An additional focus area that has enhanced our leadership and 
character development curriculum is the Naval Academy's Language 
Proficiency, Regional Expertise, Cultural Awareness (LREC) program. 
Adopting a multi-disciplinary approach, the Naval Academy has been able 
to expose the majority of midshipmen to a full spectrum of joint, 
regional, and interagency operations. Either through small extensive 
in-country immersion programs, to larger foreign language immersion 
experiences, to effective foreign military exchange and embassy 
internship programs all midshipmen were able to acquire greater 
knowledge regarding the languages, history, politics, economies, 
culture and civilizations of strategically important regions of the 
world.
    Dr. Snyder. At the USNA, we know that the ``midshipman experience'' 
is a combination of academic and professional development curriculum, 
leadership opportunities, summer training and travel, competitive 
athletics, etc. How do you factor service, JCS, and DOD requirements 
into the overall pre-commissioning experience?
    Captain Klunder. Incorporating all the important requirements for 
the breadth of training morally, mentally and physically is 
challenging. We have an Academy Effectiveness Board of senior leaders 
that meets monthly to make recommendations to the Superintendent on 
integration of all requirements into our curriculum. Based on this 
review, we have made changes in recent years and added inputs from 
guidance established by JCS, DOD, and Navy.
    Specifically, USNA used the 2006 Triennial Report on Pre-
Commissioning JPME assessment as a foundation to refine its 
professional classroom instruction and practical fleet training to 
better align with the JCS Chairman's Officer Professional Military 
Education (PME) Policy. For example, classroom instruction in the NS300 
Naval Warfare course was enhanced based upon 2006 Triennial Report 
recommendations. In this course, learning objectives are derived from 
CJCSI 1800.01C to include:

    <bullet>  Know the organization for national security and how 
defense organizations fit into the overall structure. Know the 
organization, role and functions of the JCS. Know the chain of command 
from the President and the SecDef to the individual Service 
headquarters and to the unified commands. Know the primary missions and 
responsibilities of the combatant commands. Know the Military Services' 
primary roles, missions and organizations.

    <bullet>  Describe the nature of American Military Power. Identify 
the values in Joint Warfare. Understand fundamentals of information 
operations. Know how to access joint learning resources.

    Other focus areas where value was added to the JPME training 
curriculum include the establishment of two new educational and 
training divisions ``The Division of Character Development and 
Training'' and ``The Division of Leadership Education and 
Development''. In both of these divisions, the curriculum spans all 
four years and is designed to provide the Brigade of midshipmen with a 
solid theoretical foundation reinforced through summer training 
deployments, exercises, and career information programs. Of particular 
note, the Plebe Summer Character sessions, the Professional Reference 
manual (Pro-Manual), the Midshipman Leadership Development Guide 
(MLDG), and the Reef Points informational booklet all provide easy-to-
use instructional tools that assist the midshipmen's PME development.
    One final area of PME that was enhanced following then 2006 
Triennial Report was the Naval Academy's Language Proficiency, Regional 
Expertise, Cultural Awareness (LREC) program. Adopting a multi-
disciplinary approach, the Naval Academy was able to expose the 
majority of midshipmen to a full spectrum of joint, regional, and 
interagency operations. Through small extensive in-country immersion 
programs, to larger foreign language immersion experiences, to 
effective foreign military exchange and embassy internship programs, 
all midshipmen were able to acquire greater knowledge regarding the 
languages, history, politics, economies, culture and civilizations of 
strategically important regions of the world.
    Dr. Snyder. How frequently are major reviews of the core curriculum 
conducted? What is the process for review and for the implementation of 
any recommended adjustments?
    Captain Klunder. Major reviews of the curriculum occur about every 
five to ten years. A review that surveys the needs of the Navy and 
Marine Corps has typically occurred once per decade. Five and ten year 
reviews are dictated by Middle States Accreditation. Reviews of parts 
of the curriculum occur continually. Each department undergoes external 
review on a regular basis. Changes to the curriculum come from 
departments and are reviewed at higher levels by their divisions 
(colleges), the Faculty Senate, the Dean, and the Superintendent. 
Superintendents have directed general changes and departments have 
implemented them after the aforementioned review process.
    Dr. Snyder. Do your military faculty members get promotions and are 
they selected for command? Please provide statistics for the last five 
years.
    Captain Klunder. Rotational Military Faculty are eligible for 
promotion; these officers can be and are selected for command based on 
the quality of their records. The long term military faculty--Permanent 
Military Professors--are eligible for promotion as well. Many have 
served in Command, but once selected for PMP, they are no longer 
eligible for Command.
    With the exemption of the Permanent Military Professors from U.S. 
Navy DOPMA quotas in NDAA 2005, the Academy has been able to establish 
up to 16 Captain (O-6) PMP billets. PMP promotion opportunity to 
Captain for the foreseeable future is up to three selectees per year 
through FY14. Statistics to date for PMP promotion are

    FY08: 1
    FY09: 3

    Dr. Snyder. Some USNA faculty reported a lack of transparent 
appraisal and renewal recommendation procedures. Please discuss the 
tenure system at your institution? What feedback have you received from 
civilian faculty with respect to these procedures?
    Captain Klunder. The tenure system and its requirements are 
described in detail in the Faculty Handbook, recently updated (2008) 
and available to all new and continuing faculty. The system in place is 
based on the policies and best practices developed by the American 
Association of University Professors (AAUP). Requirements are discussed 
in depth with all tenure-track faculty candidates prior to hiring. 
Ongoing mentorship and counsel is received from department chairs and 
senior faculty members.
    Initial tenure-track appointments are renewed after three years, 
with a departmental review for reappointment occurring at the two-year 
point, accompanied by a letter from the Academic Dean and Provost 
offering reappointment along with a short appraisal of performance to 
date. This ``mid-tenure'' review is designed to provide both summative 
and formative feedback to the individual regarding progress toward 
tenure.
    The Academy-wide Promotion and Tenure Committee reviews packages 
for tenure (and academic rank promotion) during the second three-year 
appointment, usually during the fifth or sixth year of service. Clear 
instructions are provided for preparing packages. Members of the 
Promotion and Tenure Committee are faculty colleagues appointed through 
due processes within the Faculty Senate. The percentage of faculty 
renewed after the first three-year appointment is nearly 100%. The 
percentage of tenure-track faculty who actually achieve tenure by their 
6th year of Academy service (not counting those who may resign for 
reasons unrelated to performance) is about 95% over the past five 
years. These success rates are indicative of both the quality of the 
faculty being hired at the Naval Academy as well as the effectiveness 
and clarity/transparency of the promotion and tenure process. The 
Promotion and Tenure Committee provides verbal and written feedback 
following each review cycle to Division Directors, Department Chairs, 
and especially to those candidates for tenure who were not selected 
during the review. The Academy is somewhat unique among academic 
institutions in that faculty candidates may apply for tenure 
consideration more than once, i.e., during their 5th year of service 
and/or during their sixth year of service. If not selected by the sixth 
year of service, there is another full review during the seventh year 
of service. Of course, if not successful at that point, their faculty 
appointment at the Academy expires soon thereafter and is not renewed.
    The Academic Dean and Provost meets with the Promotion and Tenure 
Committee after they have concluded their reviews and discussions 
relating to all candidates each year. Each case is thoroughly discussed 
again in this setting. The Academic Dean and Provost then approves the 
final recommendation list of successful candidates and informs the 
Superintendent.
    Town Hall meetings are held annually, at the Division level, 
providing Promotion and Tenure Committee members the chance to convey 
guidance/clarifications to all faculty members, and to answer faculty 
questions in general.
    The Promotion and Tenure Committee has met with specific 
departments upon request, especially where the criteria for tenure are 
less easily defined within the traditional academic framework, as a way 
to achieve the greatest possible transparency and clarity for faculty 
members in those departments. The Committee is also chartered as a 
standing committee within the Faculty Senate to update the basic 
processes as required, including the official written instruction 
regarding submission of packages for review. This instruction is 
updated typically in response to observed practices or requests for 
more clarification, especially as venues for scholarly publication 
evolve or new tools are developed for evaluating faculty performance.
    In summary, feedback from faculty is periodically received 
regarding clarity of the instruction for preparing promotion and tenure 
packages; and feedback from entire departments whose disciplines are 
rapidly evolving is periodically received relating to assessment of 
scholarship. Both of these kinds of feedback are directly addressed as 
described above, with broad information also being shared via the 
annual Town Meetings and through interactions of the members of the 
Promotion and Tenure Committee within their departments and divisions. 
Questions or concerns regarding individual cases reviewed by the 
Promotion and Tenure Committee are addressed in a confidential manner, 
with feedback provided directly by the Promotion and Tenure Committee 
during outbriefs with the candidate and their chain-of-command, with 
written guidance provided as a follow-up to the outbriefs.
    Dr. Snyder. Since the 2004 ``Larson Report,'' the USNA has 
instituted a permanent military professor (PMP) program. Please 
describe and discuss this program? How is it similar to, or different 
from, those of the other Service Academies? How many PMPs are stationed 
at the USNA? What are the numbers of PMPs according to rank? What is 
the projected target number of PMPs? How many PMP candidates are 
currently in school pursuing their advanced degrees? Please discuss any 
effect that PMPs may have on the USNA's leadership structure.
    Captain Klunder. The PMP program was created in 1997 by then-
Superintendent Larson as a cost-effective means of providing a stable 
cohort of military role models in USNA classrooms who can also provide 
meaningful curricular and personnel links to the operating forces of 
the Navy.
    USNA has traditionally depended on a balance of civilian and 
military instructors to teach its classes. USNA has relatively fewer 
military instructors than its sister academies, as a result. The USNA 
PMP program--modeled on the Academy Professor program at USMA--is thus 
considerably smaller than counterpart programs at USAFA and USMA. There 
are 34 PMPs in residence at USNA in fall 2009; USAFA, if their budget 
is approved, will have 65, and USMA has 64. Unlike its two sister 
academies, USNA does not have any professors who serve as department 
heads and retire in the rank of O-7. There are 19 such officers at West 
Point and 21 at the Air Force Academy.
    The Naval Academy currently plans for 50 PMPs on board. There are 
21 PMPs in graduate school in the fall of 2009 pursuing the PhD.
    PMPs' primary duties are as officer role models to midshipmen: in 
the classroom, in the direction of USNA courses, and in the maintenance 
of their discipline currency through relevant links to the Fleet and 
through collaborative research programs with midshipmen. Occasionally 
PMPs are asked to assume duties in the USNA leadership structure, as 
department chairs, deputy division directors, and, in one instance, as 
executive assistant to the Superintendent.
    Dr. Snyder. What is the cost of the Permanent Military Professor 
(PMP) program in real dollars? Recognizing that the PMP program is 
fairly new, how much time, on average, will PMPs spend on the faculty 
before reaching statutory retirement? What has been the shortest time 
on record? The longest? Have any PMPs been released from their 
commitment to serve on the faculty until statutory retirement? If so, 
why?
    Captain Klunder. The principal cost of the PMP program is in O-5 
pay and allowances (individuals' account funds): three years for those 
attending the Naval Postgraduate School (NPS) (3 <greek-e> $174,991, 
the annual DOD composite rate for 2009), and 4 <greek-e> $174,991 for 
those attending civilian graduate school. There are no tuition costs 
for NPS. We expect PMPs, on average, will spend approximately ten years 
on the faculty, including those who have asked for continuation beyond 
normal statutory retirement. No PMPs have been released from their 
commitment once they have arrived at USNA. Two officers have asked to 
be disenrolled while in graduate school because of the difficulty of 
the doctoral course of study at NPS.
    Dr. Snyder. To what extent may civilians from other government 
agencies, such as the State Department or the CIA, be detailed to the 
USNA faculty? How do these visiting faculty members help students 
better understand the perspectives of other agencies?
    Captain Klunder. Other government agencies may enter into 
agreements, typically via Memoranda of Agreement, to have civilians 
detailed to USNA to serve as part of the faculty. One such agreement is 
currently in place with the National Security Agency. This agreement, 
which could serve as a model for additional agreements with other 
agencies, includes significant USNA involvement in the final step of 
the selection process, helping assure that the detailed civilian 
faculty member will have the greatest chance for success in the 
undergraduate teaching environment at USNA. Most of the candidates for 
these details do not have significant undergraduate teaching 
experience, and depending on the agency, most will not have the Ph.D. 
degree. Note that USNA cannot accept candidates without at least a 
Masters degree in an appropriate discipline for accreditation purposes.
    Detailees not only teach courses to midshipmen, but they also help 
established other relationships between USNA faculty members and their 
home agency, which can bear fruit in scholarly activity, including 
midshipmen involvement in many cases. Detailees may also be invited to 
address special gatherings of midshipmen, beyond their own assigned 
classes, so that their perspectives and insights can be shared with a 
broader audience at the Academy.
    This past year, we have been approached by both CIA and the State 
Department with proposals to work together to draft Memoranda of 
Agreement for this very purpose, with a target of Fall 2010 semester 
for initial implementation.
    Dr. Snyder. How hard is it to attract top civilian faculty to the 
USNA? Do you offer tenure to civilian faculty candidates? What 
incentives do you offer civilian faculty candidates?
    Captain Klunder. USNA competes in a national market to attract the 
very best civilian faculty. We are successful in doing so because we 
offer competitive salaries, an appropriate balance of teaching with 
scholarly expectations, sufficient funding for ongoing professional 
development, an opportunity to teach and learn with outstanding 
students, and a system that leads to tenure after 6 years for those who 
demonstrate outstanding performance. Hence, the vast majority of the 
civilian faculty are in such tenure-track positions (positions that are 
eligible to lead to tenure after six years); this is an important 
``attractor'' for recruiting since institutions that do not offer 
tenure-line positions rarely compete effectively in a national market. 
These positions are ten-month academic year positions, with faculty in 
a leave-without-pay status during the 2-month intercessional (summer) 
period, unless other funding arrangements are made, such as external 
research sponsorship. This tenure-track model has been the foundation 
civilian faculty model at the Academy for many decades. All tenure-
track civilian faculty members possess the Ph.D. degree, and all are 
expected to remain current in their academic disciplines in order to 
keep the curriculum for academic program current, vibrant, and 
exciting. The awarding of tenure requires that civilian faculty excel 
in the classroom as well as in their scholarly activities, and to be 
supportive of the ``whole person'' development of midshipmen consistent 
with our mission. This is a special combination of expectations which 
appeals to many potential faculty candidates.
    There are several incentives that help in recruiting new civilian 
faculty. For about the last decade, we have offered newly hired 
civilian tenure-track faculty the option to apply for three years of 
summer intercessional salary support, subject to approval by the 
Academy's Research Council of the individual's proposed scholarly 
activities. Of course, faculty are still encouraged to pursue external 
funding via grant proposals, but for those unable to secure such 
funding, we have been able to provide this support, in partnership with 
the Office of Naval Research for technically oriented faculty. In 
addition, we have seen recent activity and improvement in the area of 
child care for civilian faculty, which has proven very helpful in 
recruiting junior faculty in the past couple of years.
    On the other hand, there are also several challenges that impede 
our recruiting efforts. We have seen an increase in declined offers in 
some disciplines, typically related to the long-term pay parity with 
private sector counterparts. That is, in recent years, we have begun to 
see an erosion of salary competitiveness in the highest academic rank 
(Professor), which is attributed to the federal pay cap as applied in 
the Department of Defense. As this trend continues, we see a growing 
impact on recruiting faculty, especially in the disciplines whose 
markets sustain higher salary requirements (engineering disciplines, 
computer science, economics), since faculty hired into these 
disciplines will only have 12-14 years within their 30-35 year careers 
to be eligible for merit-based salary increases.
    Other incentives common at many other academic institutions, 
including many public state universities and colleges, but which are 
not available to civilian faculty at USNA, include tuition assistance 
for faculty dependents and faculty housing arrangements.
    Dr. Snyder. Are there any significant impediments to sending USNA 
faculty members, whether civilian or military, for professional or 
academic purposes to foreign universities? Are there any significant 
impediments to sending faculty members for the same reasons to top tier 
universities within the United States?
    Captain Klunder. No, although there are additional costs associated 
with per diem for temporary lodging, food and incidentals.
    Dr. Snyder. It has been asserted that institutional efforts to 
generate more diversity in the student body have had a negative impact 
on classroom dynamics and the quality of students and graduates. How do 
you respond to those assertions?
    Captain Klunder. The Naval Academy has graduated warrior leaders 
for 164 years, and it continues to do so today. In order to carry out 
our mission with an all-volunteer naval force during a time of war, the 
Naval Academy has conducted a recruiting campaign to reach out to all 
of America, particularly in under-represented areas of the nation. We 
have found vast talent around the nation who simply do not know of the 
opportunity to serve their country through the Naval Academy. Our 
admissions department has reached out nationally to attract this 
talent. For the incoming freshmen class of 2013, we attracted over 
15,300 applicants--a 40% overall increase and the most in 21 years. 
Included in the much larger applicant pool is a 57% increase in 
minority applications from the previous year. The result is the Class 
of 2013 is the most geographically, racially, and ethnically diverse 
class in Academy history.
    The Class of 2013 is comprised of well-rounded talent that brings a 
broad spectrum of experience to the Naval Academy. The Naval Academy 
admits only highly motivated young men and women based upon their 
combined excellence in academics, athletics, leadership potential and 
community service. While SAT scores alone are not predictors of success 
either at the Naval Academy or in the Fleet, it is significant to note 
that when their scores are compared to their national college-bound 
ethnic peers, Naval Academy Hispanics were in the top 5%, African-
Americans were in the top 6%, and Caucasians were in the top 11%. Quite 
simply, because of the increased outreach efforts, we greatly increased 
number of applications. The Class of 2013 has more minorities because 
more highly qualified minorities applied.
    Quality is high, spirit is high, and we will continue to train the 
finest students in the nation morally, mentally, and physically to be 
among the finest leaders for our nation.
    Dr. Snyder. Does the USNA receive funding for the purpose of 
promoting diversity? If so, how is this funding utilized?
    Captain Klunder. USNA outreach efforts are typically within the 
operating funding provided to USNA Admissions Department as part of 
their efforts across the nation in attracting youth. However, in the 
FY2008 National Defense Authorization Bill congress specifically added 
$460k to the U.S. Naval Academy for diversity outreach. This funding 
was used to enhance the outreach efforts including travel of midshipmen 
for school visits, outreach across the nation by midshipmen groups like 
the USNA Gospel Choir, STEM camps at USNA and STEM outreach. Finally, 
on a case-by-case basis, private gift funds are sometimes available to 
support specific actions or programs from private donors.
    Dr. Snyder. Please provide a comprehensive list with numbers of all 
outside scholarships awarded to USNA graduates over the past five 
years, together with a brief description of each.
    Captain Klunder. Voluntary Graduate Education Program (VGEP). The 
VGEP Scholars begin working toward advanced degrees at local 
universities in the spring semester of their senior year at the Naval 
Academy. They are continuing their graduate work as junior officers in 
the Navy and Marine Corps. The VGEP Scholars will complete their 
community schools in January of the following year.


  2005                   20
  2006                   19
  2007                   20
  2008                   19
  2009                   19


    Immediate Graduate Education Program (IGEP) at the Naval 
Postgraduate School and Air Force Institute of Technology. The IGEP 
officers participate in accelerated one-year master's degree programs 
in designated technical curricula.


  2005                   48 (18 Aviation, 13 Surface, 17 Submarine)
  2006                   39 (14 Aviation, 17 Surface, 8 Submarine)
  2007                   22 (13 Aviation, 5 Surface, 4 Submarine)
  2008*                   6 Bowman Scholars (5 Nuc Submarine, 1 Nuc Surface)
  2009*                   5 Bowman Scholars (4 Nuc Submarine, 1 Nuc Surface)


      * IGEP at NPS limited to just nuclear power Bowman Scholars.

    Authorized to accept scholarships at civilian universities--allows 
up to 24 months for the officers to complete their master's degrees 
before attending their service schools.


  2005                   40 (33 Navy and 7 Marine Corps)  (4 Rhodes, 1 Marshall)
  2006                   32 (23 Navy and 9 Marine Corps)  (3 Rhodes, 0 Marshall)
  2007                   39 (34 Navy and 5 Marine Corps)  (1 Rhodes, 1 Marshall)
  2008                   32 (20 Navy and 12 Marine Corps) (1 Rhodes, 3 Marshall)
  2009                   38 (21 Navy and 17 Marine Corps) (0 Rhodes, 4 Marshall)
                                                             (9 Rhodes, 9 Marshall)
Numbers of Rhodes Scholarships to Oxford and Marshall Scholarships to 
United Kingdom Universities are indicated on the right and are included 
in the summary totals for each class.

    Secretary of the Navy/Office of Naval Research Oceanography Program 
at Massachusetts Institute of Technology/Woods Hole Oceanographic 
Institution.
  2005                   3
  2006                   2
  2007                   0  Graduating midshipmen became ineligible for
  2008                   0  the Oceanography at MIT program starting with
  2009                   0  the Class of 2007.

    Burke Program students begin graduate work, usually at the Naval 
Postgraduate School, after their first operational tour in the Navy or 
Marine Corps.

    Navy Burke Program
  2005                   48 (15 principals and 33 alternates)
  2006                   47 (15 principals and 32 alternates)
  2007                   24 (15 principals and 9 alternates)
  2008                   28 (15 principals and 13 alternates)
  2009                   29 (15 principals and 14 alternates)

    Marine Corps Burke Program
  2005                   23 (15 principals and 8 alternates)
  2006                   23 (15 principals and 8 alternates)
  2007                   15
  2008                   14
  2009                   15

    Olmsted Scholarship Nominees. The nominees will be screened for the 
Olmsted Scholarship three to ten years after commissioning, by Navy-
Marine Corps screening committees. Ultimately, up to 10 Navy and 3 or 
more Marine Corps Olmsted nominees may be selected for graduate study 
at foreign universities, using a foreign language.
  2005                   29
  2006                   27
  2007                   32
  2008                   37
  2009                   46

    Dr. Snyder. Among active duty personnel in the Navy and Marine 
Corps, how many Flag and General officers are USNA graduates? Of the 
total active duty Navy and Marine Corps Flag and General officer 
populations, what percentages do these numbers represent?
    Captain Klunder. USNA records indicate 13 of 107 Active Duty Marine 
Corps General Officers are USNA graduates (12%). The current number of 
active duty Navy Flag Officers who are USNA graduates is 137 (includes 
flag selectees). The percentage of active duty Navy Flag Officers is 
49% (includes flag selectees).
    Dr. Snyder. What are the specific lengths of commitment incurred by 
USNA graduates, according to Service selection and/or specialty?
    Captain Klunder. For Naval Aviation, Navy pilots serve a commitment 
of eight years after earning their wings and Naval Flight Officers 
serve six years after earning their wings. For USMC, rotary pilots 
serve six years after wings and fixed wing pilots serve eight years. 
For USNA graduates who attend the Uniformed Services University of the 
Health Services and become Medical Officers their active duty 
commitment is twelve years. All other designators or military 
occupational specialties incur the USNA minimum active duty service 
obligation of five years.
    Dr. Snyder. What are the current retention figures for USNA 
graduates among active duty Navy and Marine Corps personnel, 
respectively, at the five-, ten-, and fifteen-year milestones?
    Captain Klunder. For Navy, personnel retention rates of USNA 
graduates based on 2001-2006 career continuation rates are 80.8% at 
five years, 41.4% at ten and 33.1% at fifteen years. For Marine Corps, 
personnel retention rates are 90.7% at five years, 48.4% at ten and 
36.1% at fifteen.
    Dr. Snyder. Please comment on the most recent professional military 
reading list compiled by Chairman Skelton.
    Captain Klunder. #1. History Matters: This may seem rather over-
simplified, but when discussing Geo-Political Issues and U.S. 
engagement in strategic regions around the world it is clear that one 
should have a thorough understanding of that region and its history. 
Works like Kaplan's ``Warrior Politics'', Sun Tzu's ``The Art of War'', 
and Handel's ``Masters of War'' are some that immediately resonated 
with me.
    #2. Battles & Conflicts Repeat Themselves: In my study of 
conflicts, great warriors and leaders often recognize the same critical 
elements for mission success. Sir Gavin De Beer's ``Hannibal'', 
Keegan's ``The Book of War'', and Freeman's ``Lee'' have particular 
significance in this area.
    #3. Study Great Leaders: The piece on Stonewall Jackson by 
Robertson and the interesting read on Lincoln, ``Team of Rivals'' by 
Goodwin are most interesting.
    #4. A Strong Read for this Era: I am convinced that David 
Kicullen's ``The Accidental Guerilla'' will influence our decisions for 
many years to come with regard to modern warfare.
    #5. Truly Understanding Afghanistan: If a reader wants to get a 
comprehensive understanding of current Afghanistan society, one should 
spend some time with Barrnett Rubin's ``The Fragmentation of 
Afghanistan''. It is a detailed read, but extremely insightful 
(recommend adding to the list).
    #6. Understanding Military Discipline: This pertains to aviation; 
however, the reader will quickly appreciate how critical discipline 
becomes to a unit's mission success by reading Tony Kern's ``Flight 
Discipline'' (recommend adding to the list).
    #7. U.S. Navy Aircraft Carriers: There is no better read on the 
U.S. Navy's Aircraft Carrier than ADM James Holloway's ``Aircraft 
Carriers at War'' (recommend adding to the list if an Aircraft Carrier 
work is desired).
    #8. If You Don't Read, You Can't Lead: We had a renowned speaker 
come to the Naval Academy (Dr. Samuel Betances) and he mentioned these 
strong words. In the discussion, he also recommended ``Future Think'' 
by Edie Weiner and Arnold Brown. I have just picked it up, but the 
initial feedback regarding this book is very positive. It is a very 
healthy read on managing change.
    #9. Overcoming Resistance: ``The War of Art'' is another book that 
I have just been recommended to read. It deals with achieving goals by 
overcoming the resistance and hurdles that always seem to get in the 
way. I haven't picked it up yet, but this is my next one in the queue.
    #10. A Reading List is Created to Share: Thank you for sharing your 
list with me. I clearly remember Chairman Skelton speaking to my 
graduating class at National War College and one of the important 
points he stressed regarded continual reading and learning. I am trying 
to honor those words.
    Dr. Snyder. Does the USNA have information technology challenges? 
If so, please describe them. Are there educational advantages or 
disadvantages associated with maintaining a ``.edu'' versus a ``.mil'' 
internet domain registration? Are there advantages or disadvantages 
with maintaining both domain registrations?
    Captain Klunder. The Naval Academy's information technology 
challenge is to provide information technology to a U.S. Navy Echelon 
II Command, in a competitive university setting, supporting a timeless 
pedagogical mission, within the boundary conditions established by the 
military.
    There are significant advantages (and requirements) associated with 
a ``.edu'' network/domain.
    The Naval Academy's mission is exceptionally different from other 
Navy commands; consequently our use of information technology (IT) is 
inimitable when compared to other Navy organizations.
    Operating as a .mil (e.g. in a .mil domain) does not support the 
context within which the Naval Academy uses IT. The context dictates 
the technology required, who uses it, and how it is used. Our context 
is completely different than traditional naval shore establishments and 
sea commands, including training commands. Most of the differences are 
reflected in how the information and communication technology is 
acquired, developed, integrated, and used. Examples of the context 
include:
  Accession                Accession source for 1000 officers into the Navy and Marine Corps
  Education                Undergraduate degree granting institution
  Research                 Pedagogical, scientific, and industrial research
  Athletics                NCAA participation in 30 Olympic sports at the intercollegiate level
  Accreditation            Academic and professional accreditation for all academic programs
  Collaboration            Collaborative membership in international research and education network
  Exploration              Evaluating technology futures--keeps us competitive with our peers

    Each of the above requires a unique blend of hardware, software, 
network/communication capabilities, and security either not available, 
or not allowed on a .mil network.
    ``.Mil'' networks cannot support the complexity, diversity, 
agility, responsiveness, and flexibility required of competitive, 
degree granting, and fully accredited educational institutions such as 
USNA.
    By design, Academic programs (and therefore the Naval Academy), 
require innovation, experimentation, and research as a requirement for 
accreditation and as a requirement to improve teaching and learning 
(pedagogy).
    There are no advantages and significant disadvantages as discussed 
above.
    Dr. Snyder. Chairman Skelton is persuaded that the historical case 
study is a particularly good way to teach both history and strategy. Do 
you use the case study method and, if so, to what ends?
    Colonel Tanous. The faculty at the Squadron Officer College (SOC) 
agrees with Chairman Skelton and uses case-study methodology in both 
the Air and Space Basic Course (ASBC) and Squadron Officer School 
(SOS). The use of the case-study method aids in teaching history and 
strategy, but is also valuable in strengthening students' skills in 
critical thinking. Through their use of case studies, students conduct 
analysis and have their interpretations of facts challenged by peers 
and instructors alike.
    The Air Force chartered ASBC to educate junior officers in the 
capabilities and limitations of the U.S. Air Force. Those capabilities 
and limitations are detailed in the Air Force Doctrine Document (AFDD)-
2 series. SOC is using case studies to drive ASBC students into the 
applicable doctrine, allowing them to discover linkages between 
historical events and current doctrine, but also facilitating critical 
thinking about the applicability and currency of the existing doctrine.
    SOC employs case-study methodology in SOS in support of that 
School's leadership-development mission. Students are exposed to case 
studies and biographical information to analyze, assess and comment on 
leadership traits and experiences of the past. In this way, they 
correlate past leaders' approaches and accomplishments to today's 
challenges and determine better ways to overcome obstacles and achieve 
success.
    Dr. Snyder. How do you factor Service, JCS and DOD requirements 
into your approach to educating and developing junior officers?
    Colonel Tanous. Service requirements are levied on the Squadron 
Officer College (SOC) through the Air Force Learning Council and the 
Institutional Competency List (ICL). Joint and DOD requirements are 
transmitted via the Officer Professional Military Education Policy 
(OPMEP), contained in CJCS Instruction 1800.01. In addition to the 
OPMEP, the Joint Staff/J-7 Joint Education Branch conveys additional 
topics it wants covered via its annual list of ``Special Areas of 
Emphasis.'' SOC also responds to learning requirements levied by the 
Air Education and Training Command, Air University, and the 
Professional Center for Officer Development.
    SOC regularly reviews assigned learning requirements to ensure the 
curricula of its programs meet or exceed desired learning levels in 
each area. Where shortcomings are noted, curriculum items are added or 
revised appropriately. Similarly, requirements that are deleted are 
reviewed to determine if they are no longer relevant to the curriculum 
and, if determined to be inappropriate for retention, are eliminated.
    All curriculum decisions, to include additions, revisions and 
deletions, are weighed against the entire curriculum within any given 
education program. Professional educators ensure programmatic decisions 
are enacted in such a manner as to ensure a coherent educational 
experience consistent with the mission and desired learning outcomes 
for each academic program.
    Dr. Snyder. In thinking about how to integrate the curricula of 
ASBC and SOS, how do you compensate for the fact that the two schools 
are years apart in an officer's career--and thus much of what is 
learned at ASBC may be forgotten by the time an officer goes to SOS?
    Colonel Tanous. Curriculum integration is a major concern not just 
for Squadron Officer College (SOC) in its ASBC and SOS offerings, but 
across the entire continuum of U.S. Air Force Professional Military 
Education. To facilitate integration, the Air Force created a continuum 
of learning, encompassing training, education and experience. The Air 
Force Institutional Competency List (ICL) is based on this continuum 
and helps the schools define their programs and integrate their 
offerings across officers' careers.
    Air University clarifies the Air Force's continuum guidance with 
its own publication, the Continuum of Officer and Enlisted Professional 
Military Education Strategic Guidance, commonly referred to as the 
``CESG.'' The CESG, most recently published in April 2009, incorporated 
the ICL, but adds several levels of granularity to ensure topic 
integration and minimize the potential for duplication across the 
University's educational offerings.
    SOC ``deconflicts'' its educational requirements between ASBC and 
SOS to ensure that curriculum is developed commensurate with the 
specific needs of its students and assigned learning requirements. 
There is very little review of ASBC curriculum in the SOS program. The 
education and skills imparted through ASBC are reinforced through 
experience and review of military doctrine that occurs as a natural 
part of an officer's service.
    A recent enhancement in officer education is SOC's new Leadership 
Development Program (LDP). The LDP consists of four, self-paced courses 
developed specifically to aid officers at particular points in their 
career. The Company Grade Officer Development Course reinforces 
precommissioning materials on officership and the profession of arms, 
building on that knowledge to address the expanding responsibilities 
and requirements junior officers face in the early years of their 
careers. The Flight Commander Course provides additional instruction in 
the areas of supervision and resource management. SOC's Organizational 
Leadership Course delves into organizational theory to aid students in 
designing, improving and leading organizations. Lastly, the 
Expeditionary Leadership Course addresses specific requirements related 
to deployment preparation and recovery, as well as unique challenges 
associated with leading people in austere and/or hostile environments. 
Together, the four courses of the LDP offer educational reinforcement 
of basic concepts while building on those concepts in areas that 
specifically meet the needs of today's junior Air Force officers.
    In addition to LDP, Air Force officers also have the Warfighter 
Developmental Education (WDE) program, a series of five courses 
developed by the Curtis E. LeMay Center for Doctrine Development and 
Education and presented across Airmen's careers to help keep them 
current. The second of these courses, ``Foundations of Warfighting,'' 
specifically targets junior officers. It complements the ASBC and SOS 
curricula and bridges the time between the two schools. The course 
reinforces students' understanding of air, space and cyberspace power 
employment from homeland to expeditionary operations; lessons critical 
to all Airmen, but particularly pertinent to these junior officers.
    Dr. Snyder. At the ASBC, virtually all USAF officers matriculate, 
even recent USAFA graduates. Recent graduates reportedly consider the 
ASBC experience to be a ``huge waste of time.'' How do you try to make 
the ASBC experience a valuable one for students?
    Colonel Tanous. ASBC was developed with the intent to create within 
our junior officers an ``Airman First'' attitude, meaning airmen 
recognize themselves as components of their Service first and foremost, 
irrespective of accession source or specialty. While a challenging 
goal, over the course of the last decade the course has matured, and 
several successive Chief of Staff U.S. Air Force (CSAF)-directed 
initiatives have continued to improve ASBC, culminating in the current 
ASBC ``Retool'' effort. The collective result of the CSAF-directed 
initiatives, as well as internal reviews and student and faculty 
feedback, addresses many of the concerns referenced above. The singular 
focus for ASBC across Squadron Officer College (SOC) is to maximize the 
value of this unique learning opportunity for the entire officer corps 
just as they begin their careers.
    As noted above, the CSAF-directed changes have significantly 
enhanced the ASBC experience, and today's ASBC bears almost no 
resemblance to the course our Lieutenants went through ten years ago. 
These included the addition of a ``combined ops'' curriculum 
(cooperative, experiential sessions between ASBC and Senior Non-
Commissioned Officer Academy [SNCOA] students), new learning outcomes 
aimed at imparting a warrior ethos in ASBC graduates. SOC has recently 
completed a major adjustment in ASBC to achieve these ends, however; 
some replication between commissioning sources and the resulting 
educational program were almost immediately obvious to the students, 
faculty and staff. Just as quickly, SOC is making additional 
adjustments.
    In terms of the expeditionary skills imparted in the Course, SOC 
has coordinated with Air Force expeditionary skills program managers to 
deconflict its offerings with those of the Academy, the Reserve 
Officers' Training Corps (ROTC) and Officer Training School (OTS). More 
importantly, SOC incorporated ASBC into its curriculum-revision 
undertaken earlier this year to elevate that program to higher levels 
of learning.
    Instead of merely focusing on ``the family business'' and imparting 
warrior skills, the educational aims of the past, the revised ASBC is 
offering expeditionary skills in the intellectual context of 21st 
Century warfare. Students are immersed in a simulated expeditionary 
environment, but their learning experiences are specifically linked to 
Air Force doctrine and the context of modern warfare as never before. 
The result is a more coherent and more valuable learning experience.
    The new ASBC program consists of three, key stages of development, 
each dedicated to a specific area of student learning. The course opens 
with the Blue Thunder experience, a simulated-deployment, tent city 
located on Maxwell Air Force Base where students are acquainted with 
the expeditionary skills and requirements that define modern Air Force 
operations. Blue Thunder serves as an ``equalizer'' for students from 
varying commissioning sources and specialties ensuring a common 
baseline of understanding for the next two stages.
    In the second stage of development, students participate in three 
weeks of rigorous academics and one week of Combined Ops with students 
from the SNCOA. The academic portion of the course has been extensively 
modified to provide a far more rigorous learning experience; one 
specifically focused on higher-headquarters-directed learning 
requirements as they apply to these junior officers. The Combined Ops 
activities encourage collaboration, team-building and understanding 
between the junior officers and mid-level senior NCOs. In addition to 
experiential activities and problem-solving scenarios, there is ample 
time for interaction on issues of vital concern to today's Air Force. 
Many students in both ASBC and SNCOA consider the combined-ops 
experience to be the highlight of their educational endeavors.
    In the final stage of the ASBC experience, Vigilant Warrior, 
students ``deploy'' to a simulated deployment site at a pristine 
location 25 miles north of the base. Here they are provided 
opportunities to demonstrate all that they have learned throughout the 
course in a series of challenging scenarios. This unique and rewarding 
learning experience is drawing rave reviews from students, faculty and 
staff alike both for its authenticity and its focus on real-world 
challenges.
    Combined, the three stages of ASBC build upon the knowledge 
imparted in precommissioning educational opportunities, carrying 
students to higher levels of learning in the skill and knowledge areas 
most appropriate to junior military officers. They create an 
intellectual context into which students can better comprehend the 
importance of their unique contributions to the Air Force and Joint-
Force missions they will support, and they have a broader understanding 
of the full spectrum of Air Force capabilities and the ways in which 
their Service supports Joint Force commanders and national security 
objectives.
    This transformation of ASBC is still underway and will be complete 
in early 2010. SOC will continue to monitor very closely student, 
faculty and staff feedback as it progresses toward its goal of creating 
a gateway educational experience that prepares these junior Air Force 
officers for the operational challenges they will face in their 
careers.
    Dr. Snyder. We understand that there is a recently completed 
curriculum review that, among other things, focused on operational art, 
language and culture, and the balance of joint concepts between ASBC 
and SOS. The goal for ASBC is the ``awareness level,'' and for SOS the 
``competency level.'' What more can you tell us about this review? 
Please differentiate the substantive meanings of the terms ``awareness 
level'' and ``competency level.''
    Colonel Tanous. The curriculum review was launched on 1 April 2009 
and involved the identification and review of every learning 
requirement assigned to the Squadron Officer College (SOC). Conducted 
by a team of faculty and staff members from within SOC, but 
supplemented by educational experts across the University, the team 
identified a number of requirements that were not being adequately 
addressed, but also vast opportunities for improvement in terms of both 
curriculum currency and relevance. The team concluded its deliberations 
on 15 April, forwarding a curriculum plan for senior leaders to 
coordinate and approve. The plan was approved and launched on 1 May 
2009. As of this writing, 101 of the 124 lessons of the new SOC 
curriculum are in work, with 22 already in use in the classrooms.
    The new curriculum is focused entirely in SOS' core mission area, 
leadership. Using cutting-edge leadership theory, experiential 
activities, a new instructional approach that challenges students to be 
more proactive in their learning, and new assessment strategies, 
students are developing enhanced communications and critical thinking 
skills even as they are honing their leadership skills.
    The curriculum in ASBC is changing as well. The ASBC curriculum is 
delving further into the intellectual context of 21st Century warfare 
to make the existing expeditionary-skills and combined-operations (in 
conjunction with Senior Non-Commissioned Officer Academy students) 
portions of the curriculum more relevant. The curriculum updates in 
ASBC and SOS will be complete no later than March 2010, however, 
already SOC is realizing gains through its aggressive student and 
faculty feedback programs.
    SOC envisions itself as the premier leadership-development 
institution in the U.S. Air Force; a program respected throughout the 
Air Force and beyond. With the changes underway today, SOC is well on 
its way to reaching its vision.
    Other educational institutions agree. SOC has established 
partnerships with several educational institutions, both civilian and 
military, to expedite the changes underway. The results have been 
phenomenal. The University of Texas has visited to observe the new 
educational approach and has reported phenomenal successes. The Air 
Force Institute of Technology (AFIT) has assisted by designing a 
leadership-assessment survey that is helping SOS students comprehend 
their leadership strengths and weaknesses so they can build personal 
development plans. AFIT is also helping SOC reengineer its 
distinguished-graduate/recognition programs to better incentivize 
desired student behaviors. Michigan State University is collaborating 
with SOS to conduct a wargaming exercise that assesses and develops 
team-building and decision-making skills. These are just some of the 
partnerships contributing to the success of SOC's new educational 
approach.
    SOC does not differentiate its educational offerings in terms of 
``awareness'' and ``competency'' levels. Learning requirements are 
assigned by higher headquarters via the Air Force Institutional 
Competency List, the Joint Staff's Officer Professional Military 
Education Policy, the Air University Continuum of Officer and Enlisted 
Professional Military Education Strategic Guidance, as well as other 
mechanisms, typically using the learning levels associated with Bloom's 
Taxonomy. Those levels are: knowledge, comprehension, application, 
analysis, synthesis and evaluation. SOC reviews its assigned learning 
requirements and, at its discretion may exceed assigned learning levels 
in the interest of producing a better graduate for the Air Force.
    It is inaccurate to state that the ASBC curriculum targets lower 
learning levels than SOS'. ASBC reaches desired learning levels in its 
focus areas, team-building, expeditionary operations and Air Force 
capabilities and limitations, often reaching application and analysis. 
SOS reaches its desired levels of learning in its focus area, which is 
leadership.
    Dr. Snyder. What constitutes ``rigor'' in your educational program? 
How do you establish and evaluate ``rigor'' for any particular course 
offering or academic program? Do you give letter grades? Please 
explain.
    Colonel Tanous. The Squadron Officer College (SOC) enhances the 
academic rigor of its educational offerings by focusing on higher 
levels of learning as defined by the Bloom's Taxonomy of Learning. 
Instead of rote memorization, a hallmark of past offerings, SOC is 
delving more deeply into activities that demand analysis and 
application from its students. Instead of multiple-choice testing and 
simple experiential activities, SOC is adopting a wide array of student 
assessments that combine to provide a more holistic picture of student 
learning and success while at the same time challenging students to 
master critical thinking and communication skills as an inherent 
element of their learning.
    In support of these initiatives, SOC has completely revised its 
Academic Evaluation Plan. Part of that plan includes implementing 
letter grades for academic assignments. Additionally, rubrics are being 
created to guide instructors in assessing student performance. These 
rubrics, available to students in advance of their performances, help 
guide both students and instructors to focus on the desired behaviors 
and performance levels while simultaneously limiting subjectivity in 
instructor assessments.
    In addition to these initiatives, SOC is currently revising its 
distinguished-graduate/recognition programs. The goal in this 
initiative is to incentivize those behaviors desired in SOC's 
students--those behaviors, skills and knowledge areas most desired by 
the Air Force and Joint Staff. Combined, these initiatives help instill 
and assess academic rigor as never before.
    Dr. Snyder. How does performance in primary-level PME matter for 
onward assignments? Should attendance of the primary-level PME schools 
in-residence matter for later assignments?
    Colonel Tanous. Squadron Officer College (SOC) has anecdotal 
evidence that distinguished graduates fare better in their future 
assignments. SOC is initiating an endeavor to employ the institutional-
effectiveness experts at the Spaatz Center for Officer Professional 
Development to conduct studies of demographic data to provide 
additional insights into the short- and long-term aspects of its 
educational offerings on students' careers.
    This initiative is timely, given the fundamental alterations 
underway in primary PME. The new curricula in the Squadron Officer 
School (SOS) and the Air and Space Basic Course (ASBC) will produce 
officers whose knowledge and skill sets are more closely aligned to the 
needs of the U.S. Air Force and joint community. SOC expects that 
student and supervisor surveys will also bear out the value of the new 
approach. Although it is still too soon in this process to definitively 
claim success, early student, faculty and staff feedback clearly 
indicates SOC is on the right path. External reviewers, to include 
academic partners from civilian educational institutions and higher 
headquarters concur.
    Attendance at primary-level PME should matter a great deal in 
considering officers' assignments. Attendance should not be just a 
``square-filler,'' however. Graduates from SOC's programs should 
possess skills and knowledge that set them apart from their peers who 
have not attended. They should be better leaders and more knowledgeable 
of Air Force capabilities. They should be better team-builders and have 
a broader working knowledge of Air Force processes. SOC should 
definitely ``count'' in assignment decisions, but the responsibility 
for making it ``count'' clearly lies with SOC. SOC has to create and 
deliver educational offerings that empower its students to success and 
make them more desirable to the Air Force. That transformation is 
underway. It is already producing early signs of success.
    Dr. Snyder. How do you evaluate the performance of the faculty and 
staff at your institution?
    Colonel Tanous. In addition to initiating a complete review and 
revision of its curriculum, the Squadron Officer College (SOC) 
simultaneously launched a comprehensive review of its faculty 
recruitment, development, evaluation and recognition programs this 
spring. In the past, faculty evaluations were conducted by the 
individual instructor's chain of command. Faculty duty was not well 
incentivized and the faculty was not empowered to provide coaching and 
mentoring. Instead, the faculty was limited to an evaluator/observer 
role.
    All of that has changed. Robust development opportunities, to 
include preparatory courses, in-service educational opportunities and 
increased sharing among the faculty are now a regular part of the SOC 
teaching experience. Two of the preparatory classes have been reviewed 
by a civilian academic partner and graduated faculty members receive 
six hours of transfer credits into that University's Master's of Adult 
Education Degree.
    Faculty observations and evaluations are conducted by senior staff 
members as well as identified master instructors across the faculty, 
with feedback directed at improving teaching performance. Instructional 
skills are incentivized with awards, ``senior'' and ``master'' 
rankings, as well as opportunities for off-duty research and 
participation in subject-relevant symposia.
    Specific to this question, a new faculty-observation/evaluation 
form has been developed, with an accompanying Operating Instruction, to 
guide reviewers to identify and report on desired teaching behaviors in 
the classroom. The evaluation process relies on candid peer reviews, 
focused entirely on student learning outcomes.
    The results of these initiatives are maturing now across the 
College. What was a few months ago a ``band of brother instructors'' is 
emerging as a faculty, committed to student learning and sharing ideas 
on better ways to reach students and guide them to achieve desired 
learning objectives. SOC is moving toward the graduate-level 
educational experience it seeks to become. The instructor observation/
evaluation program is facilitating this transformation.
    Dr. Snyder. What is the SOC doing to eliminate perceptions among 
its military faculty that duty at the SOC is neither professionally 
satisfying nor career enhancing? Do these perceptions impact the 
school's ability to select qualified military instructors? Do your 
military faculty members get promotions and are they selected for 
command? Please provide statistics for the last five years.
    Colonel Tanous. In spring of 2009, the Squadron Officer College 
(SOC) simultaneously launched comprehensive reviews of its curriculum 
and its faculty recruitment, development, evaluation and recognition 
programs. These reviews uncovered vast opportunities for improvements 
in the educational programs SOC delivers in support of the Air Force 
mission. SOC is capturing and enacting these improvements which are 
being captured and enacted in a series of changes affecting lesson 
content and delivery, as well as faculty selection, preparation and 
support. The transformations underway at SOC are fundamentally altering 
the quality of instructors' assignments to the College.
    First, SOC's academic day--as calculated in ``contact hours'' has 
been contracted to allow more time for faculty preparation and 
development, as well as more time for student reflection. The absence 
of time for grading papers, classroom preparation and professional 
development was a major detractor noted by past faculty members.
    Secondly, SOC is better preparing its faculty for success. The time 
invested in faculty development reinforces SOC's commitment to its 
teaching staff. In return, this ensures a more capable and more 
committed faculty. Further, the interactive, developmental 
opportunities SOC is providing open additional avenues for 
communication providing faculty with a greater voice in the curriculum, 
delivery methods, and even College procedures.
    Third, the focus of faculty duty is transforming. Moving from an 
observer-evaluator to a coach-mentor approach is empowering faculty 
members to become involved in their students success. Where in the past 
the faculty was on the sidelines observing students, they are now ``in 
the game,'' playing alongside their charges and extolling them to 
higher levels of achievement. This has created a far more satisfying 
experience for the faculty members while at the same time making them 
far more effective as educators.
    Lastly, SOC is incentivizing top-notch teaching. In the past, SOC's 
awards programs tended to recognize outstanding performers who 
completed special projects outside of the classroom. Now SOC is 
recognizing its outstanding teachers and using them to model effective 
educational techniques across the College. In addition, SOC has 
identified a list of qualifications it desires in its new faculty 
members and is working with the Air Force Personnel Center to identify 
officers who meet or exceed these standards, knowing that the enhanced 
quality will translate into greater student respect and higher prestige 
for faculty. Lastly, SOC is incentivizing faculty duty through 
opportunities for additional education (SOC recently requested two 
additional Advanced Academic-Degree slots), attendance at subject-
related symposia, opportunities for individual research, and 
opportunities to present research and personal experiences in faculty 
fora both within the College and beyond. Combined, these incentives and 
the increased responsibilities entailed in the new teaching approach 
are eliminating some of the major detractors of faculty duty identified 
in the past, and making an assignment to SOC more highly prized than 
ever before.
    There is currently no statistical data supporting the relative 
value of faculty service. However, promotion rates for SOC have 
exceeded Air Force averages. For the last several years, the USAF 
promotion rate to the rank of major has averaged around 94%, and 74% 
from major to lieutenant colonel. In comparison the promotion rate for 
2008 within SOC for captains meeting their primary board for promotion 
to major was 100%, as was the rate for Majors meeting their primary 
board for Lt Colonel. The impact may be discernable at more senior 
levels of service, however, that data has not been captured. SOC is 
working with the Spaatz Center for Officer Professional Development to 
develop new approaches to capture and analyze data supporting its 
institutional effectiveness program. Part of this initiative is to 
partner with the Air Force Personnel Center to capture demographic data 
looking into the areas of retention, promotion, and selection for 
command.
    Dr. Snyder. We understand that approximately 80 percent of USAF 
Captains go to SOS in-residence. Should the USAF establish a screening 
process for SOS to make attendance more selective?
    Colonel Tanous. In effect, a screening process already exists. Wing 
and Numbered Air Force commanders currently make SOS attendance 
selections based on those eligible to attend. Although these commanders 
have to take operational factors and timing into consideration, they 
nevertheless make a ``quality cut'' in their selection decisions. This 
process ensures that only the most qualified individual are selected to 
attend. No additional screening process is warranted.
    Dr. Snyder. Are we identifying the potential for high-level 
strategic thinking in promising young officers early enough in their 
careers? How is this potential for strategic thinking subsequently 
tracked and monitored?
    Colonel Tanous. The new Squadron Officer College (SOC) curriculum 
places a greater emphasis on critical thinking than at any time in the 
College's past. Students that perform well and indicate high capacity 
in this area will be recognized via the distinguished graduate program 
or through other student-recognition programs. These distinctions are 
recorded on the students' Training Reports (AF Forms 475) which become 
a permanent part of the officers' military record. As such, they are 
reviewed and pertinent excerpts are incorporated into recommendation 
forms at each promotion opportunity. In this way, the superior thinking 
abilities of these officers are tracked throughout their careers.
    Dr. Snyder. Please comment on the most recent professional military 
reading list compiled by Chairman Skelton.
    Colonel Tanous. Chairman Skelton's list provides both breadth and 
depth in exploring personalities and key events in military history. It 
is commendable in that it balances recent works on recent operations 
(Fiasco, The Gamble, The War Within, etc.) and works covering events 
and personalities throughout military history.
    While an outstanding list for uniformed personnel and people 
associated with military operations, this list, in conjunction with 
Chairman Skelton's original list, constitutes 100 recommended works. 
Because of the tempo of operations in the military, a brief guide to 
the readings would be helpful so interested personnel could select 
those works most relevant to their current challenges and level of 
experience. For example, the Constitution--a reading from the first 
list--remains a touchstone reading that every military member should 
read and reference often. The biographies are most appropriate to 
officers who are transitioning from followership to leadership roles--
about the 4-7 year point for Air Force officers. Strassler's 
Thucydides, however, is more appropriate to more senior officers, as it 
encompasses military and national strategies and the larger 
international security issues.
    Therefore, the Squadron Officer College (SOC) recommends that the 
list be revised in such a way as to target specific audiences. Perhaps 
the ``Google Books'' descriptions could be replaced by a few lines 
guiding readers to works more pertinent to their specific levels of 
development, interests, academic pursuits or responsibilities.
    In addition, SOC notes the singular lack of air, space and 
cyberspace power reading in the list. In the original list, there were 
two books specifically devoted to air power, Homan and Reilly's Black 
Knights and Coram's biography of John Boyd. In this list, we find 
Korda's With Wings Like Eagles, Davis' biography of Carl Spaatz, and 
Clodfelter's Limits of Airpower. In order to develop a broader 
understanding of joint-service capabilities, SOC suggests increasing 
the presence of air, space and cyberspace power offerings in the list.
    Dr. Snyder. Does the SOC have information technology challenges? If 
so, please describe them. Are there educational advantages or 
disadvantages associated with maintaining a ``.edu'' versus a ``.mil'' 
internet domain registration? Are there advantages or disadvantages 
with maintaining both domain registrations?
    Colonel Tanous. Yes. This is common to all educational institutions 
attempting to employ educational technology, however. For the readers' 
convenience, specific challenges are reviewed below:

    <bullet>  Limited information-technology (IT) resources: IT can be 
expensive. Investments in IT come at a cost, normally resulting in cuts 
elsewhere. Further, IT personnel and expertise are now obtained through 
contracts, not through indigenous capabilities. This results in 
increased costs and reduced flexibility. The absence of an indigenous 
capability also reduces opportunities to employ multimedia and online 
simulations to the degree we would like. The fact that supporting 
services have to be contracted for these capabilities results in both 
an initial cost and additional costs for revisions and updates.

    <bullet>  Access is also problematic. In fact, access is probably 
the greatest challenge we face today. The very real cyber-security 
concerns that protect our systems from hostile intruders also limit 
students' access to course materials put on our servers. We can 
minimize these restrictions by hosting courseware on contracted 
civilian servers--and have done so in the past--but this comes at a 
cost. Further, as there are not yet centralized DoD data solutions, we 
have yet to capture efficiencies across the Department in this 
important area.

    <bullet>  Similarly, multiple DOD users are contracting 
individually for learning management system access. SOC, like many 
entities at Air University, employs the Blackboard system. Were all DOD 
users of Blackboard to join together, we could take advantage of 
quantity discounts that would substantially reduce costs.

    The ``.edu'' domain offers potential remedies for access, to the 
extent that security restrictions will permit. As the Air Education and 
Training Command (AETC) and Air University (AU) work together toward an 
AF.EDU domain solution, numerous decisions are being addressed. The 
Defense Research and Engineering Network (DREN) was selected as a 
bandwidth provider for a future AF.EDU domain for several reasons. 
Reduced cost was a critical consideration as was the need to provide an 
acceptable level of security for the Air Force data that will reside on 
and traverse through this domain. DREN, being a DoD network, must 
follow the security standards dictated by Defense Information Systems 
Agency to ensure the AF.EDU is secure and data is properly protected 
albeit in a less restrictive manner than on ``.mil.''
    The educational advantages of the AF.EDU environment are many. The 
domain, using DREN, would provide less restrictive Internet access to 
AU's faculty and students to support expanded research and 
collaborative opportunities. Many websites of interest to AU's students 
and faculty that are currently blocked in the Air Force ``.mil'' domain 
are accessible through DREN.
    In addition, an AF.EDU domain would give AU more flexibility with 
the use of the standard desktop configuration. Air Force educational 
communities use unique software not employed by other organizations and 
not approved for use on the military network. An AF.EDU domain would 
give increased decision-making authority to local leadership to assess 
risks and implement software solutions to support their unique 
educational missions.
    Another benefit is collaboration. AU faculty members routinely 
collaborate with personnel and agencies outside the military 
environment. AF.EDU would provide a collaborative environment through 
which guests could be invited to work together on academic programs and 
projects.
    Since AU has more than 100,000 distance-learning students located 
around the world, the AF.EDU environment would be ideal to host the 
University's student management, registration and content-delivery 
systems, making them accessible anywhere and at any time. Use of the 
AF.EDU domain would balance AU's need for academic freedom to teach our 
Airmen to fly, fight, and win in air, space, and cyberspace while 
protecting the rest of the Air Force military network from security 
risks and vulnerabilities.
    Dr. Snyder. Please elaborate on the Expeditionary Warfare School's 
plans to upgrade its infrastructure and information technology assets 
to meet students' computer needs. When will these improvements be fully 
implemented? Will additional funding be required?
    Colonel Beaudreault. Expeditionary Warfare School (EWS) is in the 
process of implementing the EWS Distributed Education Network (EDEN) 
which rides on the EWS Local Area Network (ELAN). ELAN currently 
provides file sharing, e-mail, SharePoint, Command and Control Personal 
Computer (C2PC), mIRC (Internet Relay Chat) and the potential for 
simulation applications. EDEN enhances EWS' mission by allowing 
collaborative planning, facilitates critical thinking, tactical 
decision making, provides ready access to the academic year's 
coursework and it exposes the students to the command and control 
systems in use throughout the operating forces. EWS currently has 110 
laptops in its inventory. Three of the 15 conference groups (49 
students) have been individually issued laptops in support of the EDEN 
initiative. The balance of the laptop computers are set up in two 
advanced electronic classrooms to support individual training in 
various software applications that the students will use when they 
return to the Operating Forces. EWS also has three ELAN desktop 
computers situated in 12 of the 15 conference group rooms. The three 
conference groups without the desktop computers use their individually 
issued laptops to access the ELAN. Additionally, each conference group 
is wired for access to the Navy-Marine Corps Intranet (NMCI). The EWS 
plan calls for a total purchase of 250 laptops to support the entire 
student body. EWS must not only acquire the laptops, servers and 
software but must also make substantial infrastructure upgrades to 
Geiger Hall. Those upgrades include installing network drops in the 
classrooms and conference rooms, power upgrades to support the 
additional users, and permanent technical support to manage the 
network. The goal is to complete the project prior to commencement of 
the next academic year. While we have received initial funding for this 
project, an additional 1.2 M is required for full implementation. 
Training & Education Command and the Marine Corps University are 
evaluating funding strategies to support the effort.
    Dr. Snyder. Are there educational advantages or disadvantages 
associated with maintaining a ``.edu'' versus a ``.mil'' internet 
domain registration? Are there advantages or disadvantages with 
maintaining both domain registrations?
    Colonel Beaudreault. The primary educational advantage of operating 
within an ``.edu'' domain is the enhanced access it provides between 
EWS personnel and other civilian organizations and higher education 
institutions. The primary disadvantage of operating within an ``.edu'' 
domain may be the restricted access to ``For Official Use Only'' 
government web sites and information available only from ``.mil'' 
domains. The advantages of an ``.edu'' domain are significantly 
reduced, however, if severe information security restrictions (common 
to many ``.mil'' networks) are placed on the ``.edu'' domain. While 
security risk is always a concern, it must be balanced with 
accessibility and a physically separate ``.edu'' domain should be able 
to tolerate a higher level of risk when combined with a lower level of 
sensitive information.
    While there is additional overhead in maintaining dual ``.edu'' and 
``.mil'' domains, this approach may be useful in providing the 
necessary access in both the military and higher education 
environments. The ``.mil'' domain provides access for performing 
government functions such as military performance evaluations, civilian 
personnel management and provides access, when required, to sensitive, 
but unclassified ``For Official Use Only'' information. The ``.edu'' 
domain provides greater access to non-government resources and 
facilitates collaboration with other educational institutions. Other 
than increased overhead, the primary disadvantage to maintaining two 
domains is the inability to transfer information between the domains. 
Physically connecting the domains would defeat the security protections 
and would be unacceptable.
    Dr. Snyder. Chairman Skelton is persuaded that the historical case 
study is a particularly good way to teach both history and strategy. Do 
you use the case study method, and if so, to what ends?
    Colonel Beaudreault. EWS uses the case study, battle study and 
staff ride methodology throughout its curriculum. Historical studies 
are used as a means of reinforcing the subject educational material in 
Command and Control, MAGTF Operations Ashore, Naval Expeditionary 
Operations and Professional Studies. This method allows for an 
examination of how historical actions contributed to the formulation 
and reasons for the doctrine in use today; how it changed the ways and 
means we conduct ourselves; and mistakes that led to changes in both 
doctrine and operations both today and into the future. EWS also offers 
an elective in the study, use, and development of the Case Study 
Method.
    The specific studies we use are:

    Operation Albion--supports the USMC Planning Process
    Guadalcanal--supports MAGTF Operations
    Inchon--supports amphibious planning and expeditionary ops
    Gallipoli--supports amphibious planning
    Restore Hope--supports MPF planning and operations
    Desert Shield/Desert Storm--supports offensive operations
    Chosin Reservoir--(Fox Co 2/7) supports defensive ops
    Dewey Canyon--supports ACE and heliborne operations
    Task Force 58 (Afghanistan)--supports logistics operations
    Iwo Jima--supports amphibious assault operations
    Tarawa--supports naval expeditionary operations
    Somalia NEO--supports MEU operations
    Fallujah--supports current operating environment
    Antietam and Gettysburg staff rides support leadership studies

    Dr. Snyder. What constitutes ``rigor'' in your educational program? 
How do you establish and evaluate ``rigor'' for any particular course 
offering or academic program? Do you give letter grades? Please 
explain.
    Colonel Beaudreault. Rigor is addressed in multiple ways. Students 
are evaluated with tests and also by quality of participation in their 
seminar group. Students are evaluated in their participation in 
Tactical Decision Games, Practical Exercises, Battle Studies, Mission 
Analysis, Mission Planning and Briefing, and Mission Execution. 
Students are taken on Staff Rides and are responsible for understanding 
and briefing the historical aspects of the given battle as well as 
finding linkages and relevance to today's operating environments. There 
is a professional communications program consisting of a research/
decision paper and nine short analysis papers. Students are required to 
make multiple oral presentations and briefings throughout the 
curriculum. There is also an in-depth required reading program for 
every course throughout the curriculum. All of these evolutions are 
graded and debriefed by the faculty. The students earn a numerical 
grade for each (see attached grade worksheet) ranging from 1-100. The 
students are eligible for various writing awards at the end of each 
academic year. Additionally, this academic year, EWS implemented an 
electives program to expand academic challenges beyond the robust core 
curriculum where the school is leveraging the talent of the Marine 
Corps University's PhD faculty.
    The legend that corresponds to the attached grade worksheet is as 
follows:

    Legend:
SPT             Self Paced Text
IMI             Interactive Media Instruction
MR              Marked Requirement
PE              Practical Exercise
LE              Leadership and Ethics
OC              Operational Culture

    Dr. Snyder. How do you evaluate the performance of the faculty and 
senior staff at your institution?
    Colonel Beaudreault. EWS goes to great lengths to properly prepare 
our faculty and staff to ensure their performance meets the Marine 
Corps' standards. The first step in faculty preparation is a four-week 
Faculty Development Program conducted prior to the start of the 
academic year for both new and returning faculty. Each faculty member 
is ``murder boarded'' by their Division Head and other experienced 
faculty members on their knowledge and presentation abilities prior to 
assuming classroom responsibilities. The faculty is then evaluated on 
their presentations in both the large classes and conference group 
environments. Areas of evaluation include their facilitation skills and 
use of the Socratic method of instruction. To highlight strengths and 
weaknesses, all evaluations are debriefed with the faculty member by 
their Division Head and the Chief Academic Officer. Each presentation 
by the faculty is also evaluated by the students using an Instructor 
Rating Form. It is important to note that the instructor evaluation 
process is an integral tool in the overall professional development of 
the faculty throughout their time at EWS. All military faculty are also 
evaluated in accordance with the standard performance evaluation 
reports that each service uses for promotion and other selection board 
processes.
    Dr. Snyder. Are we identifying the potential for high-level 
strategic thinking in promising young officers early enough in their 
careers? How is this potential for strategic thinking subsequently 
tracked and monitored?
    Colonel Beaudreault. EWS does not teach at the Strategic level of 
war. While we introduce Operational concepts and briefly discuss 
Strategic considerations, our focus is teaching captains Tactical 
fundamentals. Our promising young, career-level officers are formally 
identified at the conclusion of each academic year, namely those in the 
top 10% of the graduates gain the prestige of being designated as 
Distinguished Graduates of EWS. The subsequent duty assignments and 
longer-term tracking of all officers, including these top performing 
officers, remains the responsibility of the assignments monitors at 
Headquarters Marine Corps, Manpower and Reserve Affairs.
    Dr. Snyder. Please comment on the utility of the most recent 
professional military reading list compiled by Chairman Skelton.
    Colonel Beaudreault. As with the Marine Corps' Professional Reading 
Program, also known as the Commandant's Reading List, any structured 
reading program is beneficial to the professional education and 
intellectual growth of our Marines. While Congressman Skelton's list is 
principally aimed at the officer corps, the Marine Corps' list is 
further broken down by rank to ensure that each Marine studies topics 
that are essential for their position and grade while it also provides 
a great reference for the next grade and higher should a particular 
officer be a voracious reader. Congressman Skelton's comprehensive list 
positively complements the Commandant's required list.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
